<html>
<title> - STAYING ON TRACK: NEXT STEPS IN IMPROVING PASSENGER AND FREIGHT RAIL SAFETY</title>
<body><pre>[Senate Hearing 113-257]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-257
 
 STAYING ON TRACK: NEXT STEPS IN IMPROVING PASSENGER AND FREIGHT RAIL 
                                 SAFETY 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

87-689 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
WILLIAM COWAN, Massachusetts         RON JOHNSON, Wisconsin
                                     JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 19, 2013....................................     1
Statement of Senator Blumenthal..................................     1
Statement of Senator Blunt.......................................     3
Statement of Senator Johnson.....................................    42
    Article dated May 13, 2013 from the Washington Post by George 
      F. Will....................................................    42
Statement of Senator McCaskill...................................    46
Statement of Senator Thune.......................................    48

                               Witnesses

Hon. Joseph C. Szabo, Administrator, Federal Railroad 
  Administration, U.S. Department of Transportation..............     5
    Prepared statement...........................................     7
Hon. Deborah A.P. Hersman, Chairman, National Transportation 
  Safety Board...................................................    18
    Prepared statement...........................................    19
Susan A. Fleming, Director, Physical Infrastructure Issues, 
  United States Government Accountability Office.................    25
    Prepared statement...........................................    27
Edward R. Hamberger, President and Chief Executive Officer, 
  Association of American Railroads..............................    54
    Prepared statement...........................................    56
Kathryn Waters, Executive Vice President, Member Services, 
  American Public Transportation Association.....................    80
    Prepared statement...........................................    82
James A. Stem, Jr., National Legislative Director, Transportation 
  Division, Sheet Metal, Air, Rail and Transportation (SMART) 
  Union..........................................................    87
    Prepared statement...........................................    89
James P. Redeker, Commissioner, Connecticut Department of 
  Transportation.................................................   151
    Prepared statement...........................................   153
Michelle Teel, P.E., PTOE, Multimodal Operations Director, 
  Missouri Department of Transportation..........................   156
    Prepared statement...........................................   157

                                Appendix

Response to written questions submitted to Hon. Joseph C. Szabo 
  by:
    Hon. Barbara Boxer...........................................   169
    Hon. Amy Klobuchar...........................................   171
Response to written questions submitted by Hon. Barbara Boxer to:
    Hon. Deborah A.P. Hersman....................................   172
    Edward R. Hamberger..........................................   173
    Kathryn Waters...............................................   173
Response to written questions submitted by Hon. John Thune to:
    Hon. Joseph C. Szabo.........................................   174
    Hon. Deborah A.P. Hersman....................................   177
Response to written questions submitted by Hon. Deb Fischer to 
  Hon. Deborah A.P. Hersman......................................   177
Response to written questions submitted by Hon. John Thune to:
    Susan A. Fleming.............................................   178
    Edward R. Hamberger..........................................   179
Response to written question submitted by Hon. Deb Fischer to 
  Edward R. Hamberger............................................   179
Response to written question submitted to Kathryn Waters by:
    Hon. John Thune..............................................   179
    Hon. Deb Fischer.............................................   180
Response to written question submitted by Hon. John Thune to 
  James P. Redeker...............................................   181


                      STAYING ON TRACK: NEXT STEPS
             IN IMPROVING PASSENGER AND FREIGHT RAIL SAFETY

                              ----------                              


                        WEDNESDAY, JUNE 19, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Richard 
Blumenthal, presiding.

         OPENING STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Good morning, everyone. I am calling to 
order this hearing of the Commerce, Science, and Transportation 
Committee, which has the very important and profoundly 
significant task of hearing testimony from some really 
excellent witnesses on the issue of rail safety.
    And I want to begin by thanking Chairman Rockefeller for 
the opportunity to have this hearing, which is important not 
only to the Northeast and to the Midwest, Missouri, but really 
to the entire country. And I know Chairman Rockefeller has 
demonstrated his commitment to improving rail safety over many, 
many years. And I am humbled and honored to have this 
opportunity.
    And I also want to thank Senator Lautenberg for his 
tireless and relentless effort on this subject. And his loss is 
a personal loss to me, because he was a mentor and model, but 
also a loss to the country as a leader in transportation safety 
and reliability.
    And I want to thank the staff of this committee for its 
excellent work in putting together this hearing, in calling the 
really very, very well-qualified witnesses that we have, and 
also in preparing for it.
    Let me begin by saying that anybody who questions the need 
for this hearing has only to read today's headlines. The 
derailment yesterday of a Long Island railroad train, carrying 
about 1,000 passengers leaving Penn Station, which essentially 
paralyzed rail traffic in much of the Northeast Corridor for a 
substantial period of time, inconveniencing many, many people, 
and delaying freight and travel.
    During the month of May, in a span of less than 2 weeks, 
our nation witnessed major railroad tragedy, the first of them 
in Bridgeport, Connecticut, where an eastbound train derailed 
and then was struck by a westbound train seconds later.
    Days later, this same commuter line saw one of its own, a 
dedicated Metro-North worker, killed by a passing train while 
he was inspecting track in that vicinity.
    And on May 25, just about a week later, two freight trains 
collided in Missouri.
    Only a few days after that event, a railroad grade crossing 
accident and explosion occurred in White Marsh, Maryland.
    We know that rail safety is improving, but these incidents 
certainly challenge the public's trust and confidence in the 
system, and the credibility of claims that rail safety is in 
fact improving.
    I think that in many instances, pictures speak louder than 
words. In fact, as the saying goes, a picture is worth 1,000 
words. And we are going to see two pictures in the course of 
this hearing. One of them is of a shunt system that Chairman 
Hersman will be presenting in the course of her testimony. This 
very rudimentary appearing piece of equipment could have saved 
the life of that Metro-North worker who was killed in West 
Haven.
    The cost? About $200. And thankfully, the NTSB has now 
recommended, in an urgent recommendation, that Metro-North use 
this equipment systemwide. But for Robert Luden, it is too 
late.
    And for American railroads, it is too late for adoption and 
implementation of many of these, literally, life-saving 
technologies, which are simple, feasible, inexpensive, and 
cost-effective.
    So this hearing is about new technology that may help save 
lives and dollars. But it is also about existing systems that 
can and should be implemented.
    The other picture, which we are going to see, is of the 
inspection report that was released in the wake of the 
collision in Bridgeport, Connecticut. This came to my office 
just yesterday, but it is the inspection report that was done 
on May 15, just 2 days before the May 17 derailment and 
collision.
    What it shows, again, as the NTSB has pointed out in its 
preliminary statement, is that the defect that very likely was 
responsible for the derailment was found by an inspector at 
track 4, catenary 734. And the finding was that there were 
hanging ties and pumping load at that point.
    The NTSB has not reached any final conclusions, but I am 
willing to say at this point that this deficiency very 
substantially contributed, if it did not actually cause, that 
derailment. It was found 2 days before.
    Whether it should have been corrected, in my view, is 
indisputable. It should have been. Whether it is the only cause 
or the probable cause remains open for debate.
    But what is astonishing about this report is not only that 
finding, but all the other defects found on that day at 
different points on that same track. Any of them could have 
caused a similar derailment and collision.
    So the state of our railroads, literally, is in question. 
And that is the reason we are here today.
    A couple points before I go to Senator Blunt, the Ranking 
Member.
    Clearly, there is a need for infrastructure investment. It 
may be extremely costly. We have not decided how to pay for it. 
I have proposed a national rail trust fund, and I will continue 
to support the creation of a national infrastructure bank.
    But the issues for today concern the very simple and cost-
effective options out there right now. And one of them actually 
concerns the technology that exists for better inspection, the 
Sperry Rail, which produces a better form of inspection, based 
in the state of Connecticut.
    Another concern of mine is the amount of time it takes to 
do both investigations and rulemaking. Investigations by the 
NTSB, we are going to learn more about the amount of time it 
takes to complete those investigations. But in my view, 12 to 
18 months is simply unacceptable as the amount of time to 
complete investigations. We need answers quicker, so that we 
can solve problems sooner.
    And on rulemaking, I am concerned about delays in the FRA's 
rules. My understanding is that there were 17 rules that were 
due to be promulgated and finalized, many of them not completed 
yet; others delayed and, in fact, delayed in their effective 
dates; and compliance manuals still due.
    So there is work to be done here. A lot has been done to 
make our rail lines safer, but we can and we should, we must, 
do more.
    And passenger and rail freight growth is projected to 
continue. At the same time, this industry is really at a 
crossroads, because it has to earn and keep the trust of the 
American public.
    Again, my thanks to our witnesses for being here today. I 
look forward to your testimony.
    And I am now going to turn to Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Senator Blumenthal. And thanks 
for chairing this hearing today.
    I know Senator Blumenthal and I and others on this 
subcommittee, particularly me as the new Ranking Member, looked 
forward to the chance to work with Senator Lautenberg who knew 
so much and cared so much about railroads. And we miss his 
understanding of these issues and his leadership on these 
issues.
    But Senator Blumenthal's efforts to have this hearing today 
I particularly appreciate.
    I am also particularly glad that Michelle Teel is here. She 
is the Multimodal Director from the Missouri Department of 
Transportation and will be on the second panel. We have two 
extraordinary panels today, and I look forward, as everybody 
does, to hearing from them.
    As Senator Blumenthal has suggested, this is a very current 
issue. A day before yesterday, on the front page of the Wall 
Street Journal, there was a big article about conflicting 
pressures on the industry to do something very expensive and 
very new, and to maintain a system that is challenging to 
maintain. I mean, the rail industry is extremely capital 
intensive. It involves lots of investment on infrastructure 
that is needed to last 20, sometimes 30, years or longer.
    Knowing those cost considerations, it is good to hear from 
the dedication of all the people who are represented on these 
panels today to both supervise this and to make this important 
industry work.
    It is an industry that is growing as we use it in more 
aggressive ways, both for rail and for passenger. The amount of 
time, resources, and money that the Federal Government and the 
private rail line operators have put into increasing safety is 
important at rail crossings, increasing awareness about the 
hazards of trespassing, and basically, increasing the overall 
safety of our actual rail infrastructure. It is a good thing to 
see this focused on.
    If you did not know any better, you would think, if you 
were an outside observer, that not much was changing. But, of 
course, in the last few decades, an incredible amount of change 
has occurred in the rail industry. And it is a dramatically 
different industry than it was just a few years ago.
    But the technological advancement, what I think has really 
been a nimble regulatory approach by the Federal Railroad 
Administration and the dedication to improving service has been 
impressive. But we want to hear about how it could be better, 
and what the Government can do to both encourage it to be 
better and to make it less complicated, so that you can achieve 
those better results.
    I am very interested to hear about the status of the system 
today. I am specifically interested to hear about the progress 
being made on the implementation of positive train control, 
which, as almost everyone in this room knows, is supposed to be 
fully operable by the end of 2015. Most things I see suggest 
that is a very hard goal to meet.
    This mandate, of course, requires possibly more than $10 
billion and hours and hours of work to complete.
    We had the nominated Chairman for the FCC in this very room 
yesterday, and I asked him about building all these towers, 
22,000 towers. How does that happen in 3 years, unless the FCC 
figures out ways to be much more aggressive in their view of 
this than they are on the 2,000 or 3,000 towers that they 
generally maximize out in being able to permit every year?
    I am also anxious to hear about the passenger and commuter 
rail networks, how they are managing this mandate. And so 
positive train control is something I hope to leave here 
knowing about more than I do today, and to know where we should 
be headed in the Senate, in the Congress, and on this 
committee.
    And again, Mr. Blumenthal, he and I came to the Senate 
together. We are proud to be in this hearing together. And this 
is a dynamic and important industry that we need to appreciate 
for what it is.
    So, Chairman, thank you for conducting this hearing today.
    Senator Blumenthal. Thank you, Senator Blunt.
    Let me introduce the witnesses, and then ask each of you to 
begin with opening remarks.
    First, Joseph Szabo, who is Administrator of the Federal 
Railroad Administration, he was nominated on March 22, 2009, 
and confirmed by the U.S. Senate on April 29, 2009. And he is 
the 12th administrator of the Federal Railroad Administration, 
and the first to come from the ranks of rail workers.
    He leads a staff of over 900 professionals located in 
Washington, D.C., and field offices across the United States 
who develop and enforce safety regulations. They also manage 
financial assistance programs, and oversee research and 
technology development programs.
    Mr. Szabo is a fifth-generation railroader, who between 
2006 and 2009 was Vice President of the Illinois AFL-CIO. And 
he also has served as Mayor of Riverdale, Illinois, and a 
member of the South Suburban Mayors Transportation Committee. 
He has held various other public service positions.
    And we welcome you, Mr. Szabo, to the hearing and 
particularly for your long expertise and your experience in 
this area.
    Chairman Deborah Hersman of the National Transportation 
Safety Board is recognized as one of the most passionate and 
visionary safety leaders for all modes of transportation. Among 
her initiatives include the actions and attention focused on 
distracted driving, child passenger safety, and helping 
accident victims and their family.
    She has been a Board Member on the scene for 19 major 
transportation accidents. And she has chaired dozens of NTSB 
hearings, forums, events, and she regularly testifies before 
Congress. Her leadership has made the NTSB a better 
organization, and we are proud to welcome her today.
    Susan Fleming, who is Director of Physical Infrastructure 
Issues in the Government Accountability Office is with us as 
well, the third witness. She has been a member of the GAO staff 
for some time. The GAO, as you know, is headed by the 
Comptroller General of the United States, who is appointed for 
a 15-year term by the President of the United States from a 
slate of candidates whom the Congress proposes. And the United 
States General Accounting Office is an independent, nonpartisan 
agency that works for the Congress. It is often called the 
congressional watchdog.
    And we welcome you, Ms. Fleming, today. Thank you for being 
here.
    So let us begin with Mr. Szabo.

   STATEMENT OF HON. JOSEPH C. SZABO, ADMINISTRATOR, FEDERAL 
   RAILROAD ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Szabo. Thank you, Chairman Blumenthal, Ranking Member 
Blunt, and members of the Committee. I appreciate this 
opportunity to testify.
    Rail is an extremely safe mode of transportation, but I 
personally know firsthand the impact that train accidents can 
have on families and communities. I have been the mayor of a 
railroad town that has had its share of accidents and hazardous 
spills. I have been a railroader who was lucky enough to 
survive a close call and not fall victim to a fatality.
    As a conductor, I have experienced firsthand my share of 
grade crossing fatalities. And over the course of my railroad 
career, I have had five good friends killed on duty.
    The members of my FRA staff, like me, live and breathe 
railroad safety. As unprecedented private and public 
investments position rail for its growing role in moving both 
people and freight, FRA has sharpened its focus on enhanced 
safety.
    2012 was the safest year in railroading history. Since the 
Rail Safety Improvement Act was passed in 2008, railroad 
accidents have declined for 5 straight years, part of a 43 
percent drop over the past decade.
    And this has not occurred by mistake. It reflects our 
comprehensive approach to railroad safety. We have used good 
data to increase audits and spot inspections in strategic 
locations. We have taken steps to ensure the competency of 
locomotive engineers and conductors. We have issued 
requirements to have emergency notification systems at every 
highway rail grade crossing. We have updated our track and 
passenger equipment safety standards to ensure the safe 
introduction of high-speed rail service at speeds of up to 220 
mph, embracing a performance-based safety approach that will 
allow proven high-speed train set designs to be used in the 
United States.
    But we must always do better. Our goal always is for 
continuous safety improvement.
    So as we work with the industry to install positive train 
control, we have placed an increased emphasis on analyzing 
human factors. This includes advancing risk reduction programs 
like the confidential close call reporting system, and system 
safety programs for passenger operations. Our most mature 
confidential close call reporting system pilot project so far 
has yielded remarkable results, a 70 percent reduction in 
accidents.
    Looking ahead, the President's 2014 FRA budget request 
includes funding to expand close call reporting nationally, 
furthering our understanding of root causes behind accidents, 
which will help railroads establish prevention measures in 
advance of an accident.
    The key here is, we want to know what is going on before an 
accident occurs. With our two core authorizations set to 
expire, our budget also proposes a new 5-year, $40 billion rail 
authorization, including a national high performance rail 
system program to fund essential development projects for both 
passenger and freight rail.
    And there is a fundamental link between a higher performing 
rail network and higher levels of safety, achieving both a 
state-of-good-repair and advancing new safety technologies.
    Consider our investment in 110 mph service in the Midwest, 
which will upgrade more than 200 grade crossings with what we 
are calling smart technology that will detect any intrusion 
into that grade crossing protected area in advance of an 
accident occurring.
    Our investments in North Carolina, which, in addition to 
improving speeds and reliability, will close some 50 grade 
crossings and construct strategically placed overpasses and 
underpasses, enhancing safety for trains, pedestrians, and 
vehicles.
    Under our budget proposal, projects would be eligible to 
compete for funding through a national high performance rail 
program. And to fund these efforts, we propose establishing a 
new rail account within the transportation trust fund, putting 
rail on par with other transportation modes that benefit from 
sustained funding sources. And we can provide the 
predictability in funding that will empower states, local 
governments, and the private sector to invest in a rail network 
that is unquestionably safe.
    Rail is an extremely safe mode of transportation. But like 
you, I am not satisfied. With your support, we can lay a deeper 
foundation for continuous safety improvements. We can increase 
the use of advanced technology, capture and analyze data from 
programs like close calls, and close dangerous grade crossings.
    Together, we can ensure that rail remains safe, reliable, 
and efficient. Thank you.
    [The prepared statement of Mr. Szabo follows:]

      Prepared Statement of Hon. Joseph C. Szabo, Administrator, 
   Federal Railroad Administration, U.S. Department of Transportation
    Chairman, Ranking Member, and Members of the Committee, thank you 
for the opportunity to appear before you today, on behalf of Secretary 
LaHood, to discuss the Federal Railroad Administration's (FRA) rail 
safety program. Rail is a particularly safe mode of transportation, and 
one that Americans are choosing more than ever before. In this 
testimony, I will detail recent accomplishments, including the status 
of FRA's implementation of the Rail Safety Improvement Act of 2008 
(RSIA), and I will discuss current challenges. We would like to note 
that some railroad accidents widely reported in the press during the 
last few months do not reflect the positive trends in safety statistics 
and annual records that we have seen in safety data. In closing, I will 
describe FRA's preliminary reauthorization proposals, which we view as 
key components for improving our safety program.
    FRA's mission is to enable the safe, reliable, and efficient 
movement of people and goods for a strong America, now and in the 
future. This testimony will explain how we are fulfilling that mission.
Recent Accomplishments
    FRA's top priority is safety, and 2012 was the safest year on 
record, continuing our year-over-year reductions in incidents. Since 
2003:

  <bullet> Total train accidents have declined by 43 percent.

  <bullet> Total derailments have declined by 41 percent.

  <bullet> Total highway-rail grade crossing accidents have declined by 
        34 percent.

    These safety improvements have contributed to 18-percent fewer 
fatalities and 14-percent fewer injuries over ten years, the annual 
totals falling from 865 fatalities to 706 fatalities, and 9,264 
injuries to 7,993 injuries.
    This achievement is even more noteworthy because Amtrak ridership 
reached an all-time high, rail was the fastest-growing mode of public 
transit, and intermodal freight traffic surged toward a new record.
Statistical Accident Reductions since 2003

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    FRA is committed to continuously improving safety. Although safety 
performance has steadily improved, we are committed to working towards 
that goal. Accidents in Missouri, Connecticut, and Maryland demonstrate 
the varied risks to rail safety. FRA approaches rail safety 
comprehensively. We are building on research and development, 
continuing to establish minimum safety requirements, conducting 
outreach and collaborating with stakeholders, performing compliance 
inspections and audits, and implementing and administering enforcement 
policies.
    FRA's multidimensional safety strategy is intended to foster a 
safety culture evolution toward hazard analysis, accident prevention, 
and innovation, leading to a continual process of safety improvement. 
Positive train control (PTC) systems will be the technology backbone 
that promotes safety improvement through the reduction of certain 
human-factor-related incidents and should complement FRA's other safety 
efforts, such as implementation of safety Risk Reduction Programs (RRP) 
as well as crash energy management.
RSIA Implementation and Other FRA Safety Actions
    Congress acted to address rail safety issues in 2008 through the 
passage of RSIA, which reauthorized FRA's safety program for five years 
and mandated that FRA develop approximately 40 final rules, guidance 
documents, model State laws, studies, and reports as well as three 
annual reports and hundreds of periodic accident reporting audits. RSIA 
also requires certain railroads to implement PTC systems by the end of 
2015; provides FRA, as the Secretary's designee, with regulatory 
authority over the hours of service of passenger train crews; and 
extensively amends the hours of service laws.
    FRA has finalized 59 percent of RSIA-mandated rules and 69 percent 
of the required studies, while continuing to pursue completion of the 
remaining provisions of the Act. The appendix to this testimony lists 
the rulemakings, non-periodic reports, guidance, and model State laws 
that FRA has completed as of June 1, 2013, that were mandated, 
explicitly or implicitly, by RSIA.
    FRA's regulatory program maximizes safety by developing rules based 
on facts, incident and accident causation analysis, comparison of 
alternative mitigation measures, and cost-beneficial solutions. FRA 
rules consider current and future industry capabilities, compliance 
burden and cost, and other economic and social realities. Within this 
context, FRA makes every effort to reach statutory milestones with its 
available resources. FRA often works with its Railroad Safety Advisory 
Committee (RSAC) to improve the quality and transparency of FRA's rule 
development. FRA has maintained a continuous planning effort, through 
the Department's regulatory review process and consultations with 
stakeholders, since RSIA's enactment.
    To promote compliance with rules, FRA has built a safety oversight 
workforce that is highly motivated, well trained, and expertly skilled 
in numerous technical disciplines and specialties. Many inspectors and 
specialists come to FRA with decades of operational experience, which 
we build on and refine through continuous, comprehensive guidance, 
classroom and on-the-job training, mentoring, and developmental 
opportunities. New inspectors receive up to 120 hours of formal 
classroom training within their first year on board. They also go 
through 56 hours of additional formal classroom training related to 
accident investigation fundamentals. Historical accident and inspection 
data ensures optimal allocation of resources. FRA uses its Staffing 
Allocation Model for allocating its inspection resources among its 
eight regions and core disciplines and its National Inspection Plan 
(NIP) to facilitate inspectors' focusing their efforts on specific 
railroads and locations that are likely to have safety problems. NIP 
provides guidance to an inspector on the amount of time that he or she 
should spend on each railroad in his or her territory based on 
historical risk analysis. An inspector following NIP guidance should be 
more effective finding unsafe conditions that he or she can bring to 
the attention of railroad officials to correct.
    The NIP also provides guidance to each regional office on how its 
inspectors, who each specialize in one of the five inspection 
disciplines, should divide their work by railroad and by State. The NIP 
produces an initial baseline plan for each of the Agency's eight 
regions based on an analysis of historical accident and inspection data 
and then allows the regional administrators to adjust the goals for 
their respective regions based on local knowledge and emerging issues. 
FRA also partners with participating State rail safety programs in 
enforcing the rail safety laws.
    As noted, FRA has made significant progress fulfilling 
unprecedented mandates set forth by RSIA, including the following 
measures to address some of the prevalent safety issues:

  <bullet> To address track-caused accidents--

    <ctr-circle> FRA issued regulations on concrete ties, completed a 
            study of track inspection practices, and issued a notice of 
            proposed rulemaking (NPRM) on rail integrity.

    <ctr-circle> FRA has started a research and development program 
            with the goal of achieving reliable long life from concrete 
            ties. The program involves freight railroads, Amtrak, 
            manufacturers and universities.

    <ctr-circle> In addition, on its own initiative, using its general 
            rulemaking authority, FRA published a final rule on 
            vehicle/track interaction safety standards. The final rule 
            achieved unanimous approval by RSAC. The rule was based on 
            research into vehicle/track interaction. The rule promotes 
            the safe interaction of rail vehicles with the track over 
            which they operate under a variety of conditions at speeds 
            up to 220 mph. The rule also adds flexibility for safely 
            permitting high cant deficiency train operations through 
            curves at more conventional speeds so that both freight and 
            passenger trains may better sustain maximum allowable 
            speeds through curved track.

  <bullet> To enhance and improve grade crossing safety--

    <ctr-circle> FRA issued standards requiring railroads to establish 
            and maintain toll-free ``1-800'' emergency notification 
            systems by which the public can telephone the proper 
            railroad about a stalled vehicle or other safety problem at 
            a specifically identified grade crossing.

    <ctr-circle> FRA promulgated regulations requiring 10 states to 
            issue State-specific action plans to improve safety at 
            highway-rail grade crossings. FRA issued model State laws 
            on highway users' sight distance at passively signed 
            crossings and on highway motorists' violations of grade 
            crossing warning devices.

    <ctr-circle> FRA published a proposed rule specifying the types of 
            information that railroads would have to report to the 
            Department's National Crossing Inventory. FRA also issued 
            guidance addressing pedestrian safety at or near passenger 
            rail stations, developed a five-year strategy to improve 
            highway-rail grade crossing safety, and conducts an audit 
            every two years of Class I railroads' highway-rail grade 
            crossing accident reports to ensure that these railroads 
            are accurately reporting these incidents and such audits 
            every five years of other railroads.

    <ctr-circle> FRA continues to research new technologies for 
            improving grade crossing safety. One project that has 
            significant potential is implementation of Intelligent 
            Transportation Systems at grade crossings. FRA is also 
            conducting human-factors research to understand the 
            behavior of highway users when they approach grade 
            crossings. This is expected to lead to recommendations for 
            improved signage and warning systems. FRA also released a 
            grade crossing information smartphone application, which is 
            further detailed below.

  <bullet> To enhance the accountability of railroads for their own 
        safety--

    <ctr-circle> FRA has issued a notice of proposed rulemaking (NPRM) 
            that would require certain passenger railroads to develop 
            and implement Risk Reduction Plans (RRPs), and another NPRM 
            on requiring freight railroads to establish RRPs is in 
            clearance in the Executive Branch. These regulations are 
            designed to encourage railroads to develop and implement 
            systematic risk-based approaches to ensuring continuous 
            safety improvement.

  <bullet> To address human-factors-caused accidents and resulting 
        casualties--

    <ctr-circle> FRA issued final rules to enable nationwide 
            implementation of PTC systems as well as final rules on 
            camp cars used as railroad employee sleeping quarters and 
            on the hours of service of passenger train employees. The 
            latter draws on detailed research into the causes of train 
            operator fatigue and analysis of thousands of operator work 
            patterns. A final rule on minimum training standards and 
            plans is under Departmental review.

    <ctr-circle> FRA published in the Federal Register detailed interim 
            and final interpretations of the hours of service laws as 
            amended by RSIA, and a second set of interim 
            interpretations to be published in the Federal Register, 
            addressing additional issues, is in review in the Executive 
            Branch.

    <ctr-circle> FRA issued a final rule requiring owners of railroad 
            bridges to implement programs for inspection, maintenance, 
            and management of those structures.

    In addition to working on RSIA mandates, FRA has been advancing 
safety through other initiatives:

  <bullet> FRA is supporting the safety of proposed passenger rail 
        operations, including line extensions, and shared-use and high-
        speed operations by providing technical outreach, including 
        training and information regarding safety regulations and 
        system safety, to many new start commuter railroads, and FRA is 
        currently working with several new operators.

  <bullet> From funding provided for high-speed rail research and 
        development, FRA has identified several key risk factors for 
        corridors shared by passenger and freight operations. Research 
        to better understand these risks and find mitigations are 
        currently underway.

  <bullet> FRA is making important strides to address human-factors 
        issues through an industry-wide initiative to combat the 
        dangers of electronic device distraction in the railroad 
        workplace.

  <bullet> FRA is implementing a voluntary, Confidential Close Call 
        Reporting System program (C<SUP>3</SUP>RS) for railroads and 
        their employees to report close calls without receiving 
        disciplinary action. The FY 2014 Budget proposes expanding the 
        C<SUP>3</SUP>RS from a limited pilot project to a nation-wide 
        rollout. Experience at C<SUP>3</SUP>RS pilot sites has 
        contributed, we believe, to a nearly 70-percent reduction in 
        certain accidents at one of the most mature pilot sites. 
        Reductions in accidents come from a proactive culture of safety 
        that uses real data far beyond that which can be pulled from 
        accident investigations on a reactive basis. Effective safety 
        oversight is helped by having accurate data. The magnitude of 
        the information provided from proactive programs like 
        C<SUP>3</SUP>RS in comparison to traditional data from 
        accidents and injuries is illustrated below:

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
    These achievements are not cause for complacency, but a foundation 
to build on, as we look for more and better cost-effective ways to 
improve the safety of our country's rail network.
Key Challenges to Railroad Safety
    By law, railroads are required to report an expansive universe of 
accidents, incidents, and events that occur in the course of 
operations. FRA also investigates certain railroad accidents, and 
analyzes the data it receives and collects. This information assists 
FRA in allocating and deploying inspection and oversight resources 
effectively, where they have the greatest positive impacts.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Train Accident Causes--2012
    As illustrated above, 71 percent of all train accidents were the 
result of either human factors or the condition of railroad track in 
2012. FRA has focused on the reduction of those two accident categories 
as our highest priority.
Human Factors
    The leading cause of train accidents is human factors.

Positive Train Control Systems
    RSIA provides that ``the term `positive train control system' means 
a system designed to prevent train-to-train collisions, over-speed 
derailments, incursions into established work zone limits, and the 
movement of a train through a switch left in the wrong position.'' 49 
U.S.C. 20157(i)(3). FRA continues to work to support railroads in their 
implementation of PTC systems prior to RSIA's December 31, 2015 
statutory deadline. In our August 2012 Report to Congress on PTC, FRA 
pointed out the technical and programmatic obstacles to meeting the 
statutory deadline. Some railroads have publicly acknowledged that they 
will not be able to complete PTC implementation by the deadline. FRA 
will continue to provide field engineering support and system testing 
oversight for PTC systems, and hopes to provide formal approval and 
system certification for the Southern California Regional Rail 
Authority's PTC system this year.
    Further, FRA is working to eliminate obstacles to timely PTC system 
implementation by working with railroads, suppliers, and other 
government agencies to resolve critical path issues. In the coming 
years, FRA will continue to work towards the certification of the 
systems used by other railroads and provide additional engineering 
support. FRA will also work with Congress if it decides to change the 
statutory deadline.
Defective Track
    The second-leading cause of train accidents is defective track. 
Track defects comprise a wide universe of conditions, some serious and 
some relatively innocuous or inconsequential. Some defects develop 
simply due to rail's exposure to the natural environment, while others 
are the result of the stress of routine operations. FRA's Track Safety 
Standards govern all aspects of track structure and geometry, and 
require specific inspection and maintenance actions by railroads. In 
addition to the recent and pending track rulemakings, which have 
already been discussed, FRA has embarked on an aggressive program to 
focus its track-related enforcement efforts on the most likely accident 
causes. These efforts have helped move the track-caused accident rate 
in the proper direction. Here, too, our research and development 
efforts are a critical component of our regulatory efforts and provide 
the basis for revisions to those regulations and best industry 
practices.
    Most track-caused derailments occur at slow speed and are of minor 
consequence. FRA has safety standards for all track, including low-
speed track and the types of yard and industrial track on which the 
majority of these incidents occur. However, more serious derailments 
can occur on mainline tracks that support passenger and high-tonnage 
freight trains at higher speeds.
    To reduce the likelihood of track-caused derailments, FRA has taken 
action on several fronts:

  <bullet> Our track inspection program includes FRA track experts who 
        routinely accompany railroad track inspectors as they perform 
        their duties inspecting all types of railroad track, switches 
        and station areas.

  <bullet> FRA track personnel help assure that track defects are 
        discovered, properly documented, and repaired to monitor the 
        condition of the track structure better.

  <bullet> FRA uses a small fleet of very specialized railcars that 
        accurately measure track geometry. These cars find track 
        defects and send out notifications to FRA and to the individual 
        railroad that owns the track. These cars are also used as 
        ``platforms'' on which new inspection technologies can be tried 
        and perfected. These new technologies have improved the 
        accuracy of track defect detection. FRA geometry cars are 
        world-class in their technology and accuracy. Research and 
        development are underway to automate many of these inspection 
        technologies, which will enable FRA and the industry to monitor 
        cost-effectively the state of repair of the rail network on a 
        regular basis.
Highway-Rail Grade Crossing and Trespasser Safety
    More than 90 percent of all rail-related fatalities in recent years 
have been the result of either trespassing on railroad rights of way or 
else accidents at highway-rail grade crossings.

Highway-Rail Grade Crossings
    In recent years, highway-rail grade crossing accidents have 
resulted in the second-largest number of rail-related deaths in the 
United States, 33 percent of the total. Yet grade crossing safety has 
shown vast improvement, as a result of substantial public investment in 
crossing warning devices and greater public awareness of the risks at 
grade crossings. Accordingly, the number of grade crossing accident 
deaths has declined by 30 percent over the last decade. FRA is fully 
committed to reducing the number, frequency, and severity of collisions 
at highway-rail grade crossings.
    Our multi-faceted approach to addressing highway-rail crossing 
safety is referred to as the ``Three Es'': Engineering, Enforcement, 
and Education. Engineering activities include numerous rulemakings 
(Locomotive Auxiliary Lights; Rail Car Reflectorization; Inspection, 
Testing and Maintenance Procedures for Grade Crossing Signal Systems; 
Use of Locomotive Horns at Public Crossings; and Telephonic Emergency 
Notification Systems) and advancing the state of technologies that 
improve safety for drivers, rail employees, and passengers. FRA has 
long partnered with Operation Lifesaver, Inc., and State and local law 
enforcement authorities to facilitate grade crossing collision 
investigation courses and encourage consistent enforcement of highway 
traffic laws governing motorist behavior at crossings.
    With funding from the Federal Highway Administration (FHWA), states 
have installed and upgraded crossing warning devices, especially at 
high-risk crossings. Currently, $220 million is authorized annually for 
states to use to improve highway-rail grade crossings, and more than $4 
billion has been spent on crossings since 1974. Determinations about 
which projects receive funding are made by State departments of 
transportation or public utility commissions, and must be based on 
objective analysis of the relative safety risks associated with each 
public highway-rail crossing. In addition, under the grant program 
pursuant to the Intermodal Surface Transportation Efficiency Act, 
section 1103(c), highway-rail grade crossings along designated high-
speed rail corridors were eligible to receive Federal funding for a 
number of grade crossing hazard elimination activities. FRA and FHWA 
jointly managed this program. This funding was continued in subsequent 
surface transportation bills through SAFETEA-LU, and in FY 2012, $15 
million was available for grants under the program. Applications were 
received from 12 states for $25.5 million.
    Because fully one-half of all train-highway vehicle collisions 
occur at crossings that are equipped with active warning devices 
reported to be functioning as intended, FRA believes that rigorous 
enforcement of State laws with stiff sanctions for motorist violations 
of grade crossing signal and traffic laws is an effective strategy to 
reduce violations and collisions at crossings. In September 2011, FRA 
provided model State legislation on highway-rail grade crossing 
violations by motorists. FRA reviewed and evaluated existing State laws 
and drafted a model law that can be used by states seeking to 
strengthen their traffic laws.

New Technological Applications
    Just this week, FRA announced the launch of a new smartphone 
application, available in the Apple App store, designed to help reduce 
the number of highway-rail grade crossing accidents. The Grade Crossing 
Locator Application allows people to access information about highway-
rail grade crossings in their area, helping them to make better 
decisions around the more than 200,000 highway-rail grade crossings in 
the United States.
    The Grade Crossing Locator Application will enable people not only 
to locate highway-rail grade crossings in their area, but also to find 
out what type of traffic control devices are present, the physical 
characteristics of the crossing, and how many trains pass through 
daily. FRA is using technology to innovate and connect with Americans 
about grade-crossing safety because we believe more information leads 
to smarter choices, driving down the number of accidents and saving 
lives.
Crossing and Trespassing Fatalities since 2003

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Trespassing
    The number of trespassing fatalities has decreased by 12 percent 
since 2003 (there were 498 fatalities in 2003 and 439 fatalities in 
2012), but crossing fatalities have decreased more quickly. Extremely 
difficult to address, trespassing is the most significant cause of 
death attributable to railroad operations in the United States. 
Approximately 60 percent of all rail-related fatalities occur to 
individuals that are not authorized to be on railroad rights-of-way.
    FRA, through its research and development program, also developed a 
five-year strategy addressing trespassing and conducted a trespasser 
demographic study to better target trespass prevention efforts. The 
study will be released shortly. In addition, FRA sponsored a targeted, 
trespass prevention effort in West Palm Beach, Florida to develop a 
community-oriented mitigation measure that can be utilized by other 
communities. In 2012, FRA co-sponsored with the Federal Transit 
Administration a Right-of-Way and Trespass Prevention Workshop that was 
attended by 174 industry stakeholders. Twenty-three initiatives were 
identified for reducing trespass accidents. These will form the core of 
FRA's research and development work on this topic for the next two or 
three years.
Reauthorization Priorities
    As you know, portions of two important rail laws expire at the end 
of FY 2013: RSIA and the Passenger Rail Investment and Improvement Act 
of 2008 (PRIIA). The President's FY 2014 budget for FRA lays out a 
comprehensive, multi-year reauthorization blueprint for moving forward. 
The fundamental goal of this proposal is to take a more coordinated 
approach to enhancing the Nation's rail system-an integrated strategy 
that addresses safety and passenger and freight service improvements. 
This new approach better reflects the complex reality of how rail works 
in the United States-most track is privately-owned and carries a mix of 
passenger and freight trains. Safety is improved not just through 
regulations and inspections but also through capital investments; 
chokepoints often hinder the efficient movement of intercity passenger, 
commuter, and freight trains, while the elimination of grade crossings 
with strategic placement of overpasses and underpasses enhance rail, 
vehicular, and pedestrian safety.
    FRA's reauthorization proposal's key priorities include the 
following:

  <bullet> Enhancing world-class rail safety. Rail is already among the 
        safest modes of transportation, and rail safety has only been 
        improving in recent years. Nevertheless, better safety 
        performance is imperative, and with innovative safety practices 
        and new technologies, the railroad industry can achieve this 
        goal.

  <bullet> Modernizing our rail infrastructure. Past generations of 
        Americans invested heavily in building the infrastructure we 
        rely on today. Most segments of the Northeast Corridor were 
        built more than a century ago, for example. Maintaining and 
        modernizing these assets will lower long-term costs and result 
        in a safer, more reliable rail system.

  <bullet> Meeting the growing market demand. With 100 million more 
        Americans expected by 2050, the national transportation system 
        must be prepared to handle substantial increases in the 
        movement of people and goods. Given the existing capacity 
        constraints on other modes, rail will play an increasingly 
        vital role in balancing America's transportation system by 
        accommodating this growth, resulting in public benefits such as 
        reduced reliance on foreign oil, reduced air pollution, 
        increased safety, and more travel options. This budget 
        incorporates market-based investments in building or improving 
        passenger rail corridors, eliminating rail chokepoints, adding 
        freight capacity, and conducting comprehensive planning.

  <bullet> Promoting innovation. FRA's vision is for the domestic rail 
        industry to be again world-leading-we want U.S. companies to 
        develop patents for state-of-the-art rail technology, to supply 
        rail operators throughout the world, and to employ the best 
        engineers and railway workers. The United States should be 
        exporting intellectual capital and rail products, not importing 
        them.

  <bullet> Ensuring transparency and accountability. Accomplishing the 
        priorities described above can only occur if these programs are 
        managed through a transparent process that makes it clear what 
        public benefits and service improvements the American people 
        are ``buying'' with their investments. The roles and 
        responsibilities of the Federal government, States, Amtrak, 
        freight railroads, and other stakeholders must be clear and 
        based on sound public policy.
Need for Predictable Funding
    An overarching issue that runs across all of these priorities is 
the need for sustained and predictable Federal funding for rail 
programs, similar to the treatment of other modes of transportation. 
Congress has for decades funded highway infrastructure and safety, 
transit, and aviation programs through multi-year authorizations that 
provide guaranteed funding. This enables States, local governments, and 
other stakeholders to plan for and make large-scale infrastructure 
investments on a year-to-year basis. Likewise, internationally, other 
major rail systems have been planned and developed through a 
predictable multi-year funding program.
    The Administration proposes adopting this budgeting approach for 
rail, including authorizing mandatory contract authority through FY 
2018 for FRA's new rail programs. The programs would be funded from 
resources in a new Rail Account of the Transportation Trust Fund.
Rail Safety Reauthorization Proposals
    RSIA was a key piece of legislation to enhance rail safety 
comprehensively. The Act authorized 200 new safety positions over a 
five-year period, but less than a quarter were funded through 
appropriations. The Act also required FRA to establish a railroad 
safety technology grant program with $50 million in funding annually 
for FYs 2009 through FY 2013, but FRA received only one year of 
funding. For the last four and a half years, FRA has focused on 
establishing and implementing the regulations, programs, and other 
measures required by RSIA. Looking ahead, FRA is poised to begin fully 
implementing these regulations in an effort to drive safety rates to 
further record lows. In FRA's FY 2014 budget proposal, we have 
requested 30 new safety staff including 10 regional safety inspectors 
and 20 railroad safety specialists to directly support implementation 
of RSIA. The culture of continuous improvement in FRA's safety programs 
requires forward-thinking policies and proactive work to address future 
challenges. FRA is exploring options for addressing a number of 
important safety regulatory issues, including the following:

  <bullet> PTC--As discussed earlier, RSIA mandates that PTC be 
        implemented across a significant portion of the Nation's rail 
        network by December 31, 2015. With limited exceptions and 
        exclusions, PTC is required to be installed and implemented on 
        Class I railroad main lines (i.e., lines with over 5 million 
        gross tons annually), over which any poisonous-or toxic-
        inhalation hazard commodities are transported; and on any 
        railroad's main lines over which regularly scheduled intercity 
        passenger or commuter operations are operated.

  - In all, approximately 70,000 miles of track and 20,000 locomotives 
        will have to be equipped with interoperable PTC technology. 
        While some railroads will meet the deadline, many are likely to 
        be challenged by technological and programmatic barriers.

  - In a report to Congress last year, FRA highlighted radio frequency 
        spectrum challenges that could impact timely PTC system 
        implementation. In addition, the railroads must secure 
        licensing approval from the Federal Communications Commission 
        to install the approximately 22,000 antennas necessary to 
        implement PTC.

  - FRA's report also detailed obstacles faced by the industry and 
        outlined mitigation strategies for Congressional consideration, 
        including the extension of the PTC implementation deadline and 
        alternative methods of mitigating the risks prevented by PTC 
        systems.

  <bullet> Hours of service--In 2011 FRA issued fatigue-science-based 
        hours of service regulations for passenger train employees 
        under new authority granted by RSIA. FRA would like to evaluate 
        the benefits and costs of continuing on this course and focus 
        on addressing other fatigue issues with possible expanded 
        authority to regulate the hours of service of other train 
        employees, signal employees, and dispatching service employees 
        based on sound science. Other modal administrations within the 
        U.S. Department of Transportation already have broad safety 
        regulatory authority over hours of service. It may not be 
        necessary to regulate in these areas.

  <bullet> Grade crossing analyses--FRA would welcome the opportunity 
        to work with Congress to establish an appropriate framework for 
        addressing grade crossing issues related to blocked crossings 
        and commercial motor vehicle accidents and incidents at 
        crossings.

  <bullet> Harmonize operating rules--FRA plans to evaluate the 
        benefits and costs of harmonizing railroad operating rules. 
        Each railroad has its own set of operating rules that may 
        differ significantly from one division to another and from one 
        railroad to another. Many operating crew employees are required 
        to learn multiple different operating rules in order to operate 
        safely in a single tour of duty. Harmonizing operating rules 
        will likely reduce unnecessary confusion and create a safer 
        working environment.

  <bullet> Improve protection of risk reduction and system safety 
        analyses with respect to property damage claims--For a risk 
        reduction program to be effective, FRA must have confidence 
        that railroads are conducting robust analyses to accurately 
        identify risks present. FRA will continue to work to balance 
        the interests of safety and the public interest with respect to 
        the litigation protection afforded the railroads in conducting 
        these analyses.

  <bullet> Modernize statutory safety requirements--FRA would also like 
        to modernize certain existing statutory requirements to better 
        reflect current and future innovations and technologies. For 
        instance, statutory requirements related to the movement of 
        defective equipment could be updated to provide greater 
        flexibility to FRA in handling such issues. Similarly, existing 
        statutory language related to locomotives could be revised to 
        account for modern locomotive and locomotive tender design and 
        allow FRA to more readily tackle the safety issues related to 
        the industry's recently expressed desire to achieve fuel 
        efficiencies through use of liquefied natural gas-powered 
        locomotives.

  <bullet> Encourage noise mitigation--Current Environmental Protection 
        Agency rules for railroad noise emissions do not consider the 
        use of noise mitigation technologies and may be an obstacle to 
        the deployment of high-speed passenger rail. Alternative rules 
        may encourage railroads to reduce the impact of noise emissions 
        on communities surrounding rail operations.

  <bullet> Research, Development, and Technology--To date, FRA's 
        research has centered on core rail safety issues such as hours 
        of service and train control systems. The President's vision 
        for rail includes expanding passenger service across the Nation 
        and increasing train speed. While developing a modern rail 
        system, FRA must continue to ensure that rail remains an 
        extremely safe mode of transportation. Consequently, FRA must 
        undertake a new line of research that solves the technical and 
        associated issues necessary for implementing a comprehensive 
        high-performance rail system. FRA proposes a new Research 
        Development and Technology Program, funded at $55 million in FY 
        2014. Through this program, FRA will make upgrades to the 
        Transportation Technology Center in Pueblo, Colorado that will 
        allow new rail equipment to be tested. This will result in 
        stronger safety standards and early identification of 
        reliability issues, saving maintenance costs over the long run, 
        developing a domestic workforce for rail initiatives, and 
        ensuring better passenger service.
Conclusion
    Thank you for the opportunity to appear before you today. Safety is 
FRA's number one priority, and we appreciate your attention and focus 
on such an important issue for the American public. We look forward to 
working with this Committee to pursue improvements in our safety 
programs and make our rail network as safe, reliable, and efficient as 
possible. I will be happy to respond to your questions.
                                 ______
                                 
                                Appendix
FRA Rulemakings Completed as of June 1, 2013, that Were Mandated, 
        Explicitly or Implicitly, by RSIA
1.  To specify the essential functionalities of mandated PTC systems, 
        define related statutory terms, and identify additional lines 
        for implementation. (Sec. 104).

2.  To establish substantive hours of service requirements for 
        passenger train employees. (Sec. 108(d)).

3.  To update existing hours of service recordkeeping regulations. 
        (Sec.108(f)).

4.  To require State-specific action plans from certain states to 
        improve safety at highway-rail grade crossings. (Sec. 202).

5.  To require toll-free telephone emergency notification numbers for 
        reporting problems at public and private highway-rail grade 
        crossings. (Sec. 205).

6.  To require the certification of conductors. (Sec. 402).

7.  On concrete ties. (Sec. 403(d)).

8.  To require owners of railroad bridges to implement programs for 
        inspection, maintenance, and management of those structures. 
        (Sec. 417).

9.  On camp cars used as railroad employee sleeping quarters. (Sec. 
        420).

10.  On prohibition of individuals from performing safety-sensitive 
        functions for a violation of hazardous materials transportation 
        law. (Sec. 305).

11.  On emergency waivers. (Sec. 308).

12.  Increase the ordinary maximum and aggravated maximum civil 
        penalties per violation for rail safety violations to $25,000 
        and $100,000, respectively. (Sec. 302).

13.  Amending regulations of the Office of the Secretary of 
        Transportation to provide that the Secretary delegates to the 
        Administrator of FRA the responsibility to carry out the 
        Secretary's responsibilities under RSIA.
Completed RSIA-Mandated Guidance and Model State Laws
1.  On pedestrian safety at or near rail passenger stations (guidance). 
        (Sec. 201).

2.  For the administration of the authority to buy items of nominal 
        value and distribute them to the public as part of a crossing 
        safety or railroad trespass prevention program (guidance). 
        (Sec. 208(c)).

3.  Model State law on highway users' sight distances at passively 
        signed highway-rail grade crossings. (Sec. 203).

4.  Model State law on motorists' violations of grade crossing warning 
        devices. (Sec. 208).
Completed RSIA-Mandated Non-periodic Reports or Studies
1.  Report to Congress on DOT's long-term (minimum 5-year) strategy for 
        improving rail safety, including annual plans and schedules for 
        achieving specified statutory goals, to be submitted with the 
        President's annual budget. (Sec. 102).

2.  Report to Congress on the progress of railroads' implementation of 
        PTC. (Sec. 104).

3.  Conduct study to evaluate whether it is in the public interest to 
        withhold from discovery or admission, in certain judicial 
        proceedings for damages, the reports and data compiled to 
        implement, etc., a required risk reduction program. (Sec. 109).

4.  Evaluate and review current local, State, and Federal laws 
        regarding trespassing on railroad property, vandalism affecting 
        railroad safety, and violations of highway-rail grade crossing 
        warning devices. (Sec. 208(a)).

5.  Report to Congress on the results of DOT research about track 
        inspection intervals, etc. (Sec. 403(a)-(b)).

6.  Conduct study of methods to improve or correct passenger station 
        platform gaps (Sec. 404).

7.  Report to Congress detailing the results of DOT research about use 
        of personal electronic devices in the locomotive cab by safety-
        related railroad employees. (Sec. 405).

8.  Report to Congress on DOT research about the effects of repealing a 
        provision exempting Consolidated Rail Corporation, etc., from 
        certain labor-related laws (45 U.S.C. Sec. 797j). (Sec. 408).

9.  Report to Congress on the results of DOT research about exposure of 
        railroad employees and others to radiation. (Sec. 411).

10.  Report to Congress on DOT study on the expected safety effects of 
        reducing inspection frequency of diesel-electric locomotives in 
        limited service by railroad museums. (Sec. 415).

11.  Report to Congress on model plans and recommendations, to be 
        developed through a task force to be established by DOT, to 
        help railroads respond to passenger rail accidents. (Sec. 503).

    Senator Blumenthal. Thank you, Administrator Szabo.
    Chairman Hersman?

  STATEMENT OF HON. DEBORAH A.P. HERSMAN, CHAIRMAN, NATIONAL 
                  TRANSPORTATION SAFETY BOARD

    Ms. Hersman. Thank you. Good morning, Senator Blumenthal, 
Senator Blunt, and members of the Committee.
    The NTSB sent investigative teams to Connecticut, Missouri, 
and Maryland last month for four different accident 
investigations. In each of these accidents, there were problems 
that the NTSB has seen in our prior investigations.
    On May 17, during the evening rush home, a Metro-North 
eastbound train derailed in Bridgeport. About 20 seconds after 
that train came to rest, it was struck by a westbound train. 
There were over 70 injuries.
    Two days prior to the crash, a Metro-North inspection found 
a lack of ballast support at an insulated rail joint near the 
point of derailment. While this problem did not violate FRA 
track safety standards, the NTSB is evaluating the damaged 
section of track, as well as the adequacy of existing 
inspection standards.
    A second Metro-North accident occurred on May 28, when a 
track foreman was struck and killed by a train that was on 
track that should have been out of service.
    The NTSB has issued previous recommendations to the FRA to 
require redundant signal protection, such as shunting, to 
prevent this type of accident.
    On Monday, we reiterated this recommendation to the FRA, 
and issued an urgent recommendation to Metro-North to require 
this redundant protection.
    A track shunt is a device that crews can attach to the 
rails in work zones that alert the controller and give the 
approaching trains a stop signal. Shunting tracks is simple, 
feasible, and the equipment is readily available for a few 
hundred dollars. Workers' lives will be saved as a result of 
redundant protection.
    In Baltimore County, Maryland, on May 28, a dump truck was 
struck at a highway rail grade crossing by a CSX freight train. 
This was a passive crossing, meaning that it had no lights or 
crossing gates. The markings that were present were dilapidated 
and faded. The collision resulted in the release of hazardous 
materials and a subsequent fire. The truck driver was seriously 
injured, and one responder and three nearby workers were also 
injured.
    On May 25, in Chaffee, Missouri, a BNSF freight train was 
occupying the tracks in an interlocking when it was struck by a 
Union Pacific freight train. The resulting derailment caused a 
fire and the highway overpass above to collapse. Two U.P. 
crewmembers were injured and five motorists were injured as a 
result of the bridge collapse.
    We believe that positive train control, or PTC, which the 
NTSB has called for since the 1970s, could have prevented or 
mitigated this crash.
    Just yesterday, the NTSB held a board meeting on a head-on 
collision between two U.P. freight trains that resulted in 
three crewmember fatalities near Goodwell, Oklahoma, that also 
could have been prevented by positive train control.
    PTC is a technology that serves as a backup for human 
error. When trains approach a red signal without slowing, PTC 
would stop the train.
    Congress has imposed a deadline of 2015 for implementing 
PTC. Some railroads will meet this deadline. For those 
railroads that have made the difficult decisions and invested 
millions of dollars, they have demonstrated leadership.
    For those railroads that will not meet the deadline, there 
should be a transparent accounting for actions taken and not 
taken to meet the 2015 deadline, so that regulators and 
policymakers can make informed decisions.
    I appreciate the opportunity to appear before you today, 
and I look forward to answering your questions.
    [The prepared statement of Ms. Hersman follows:]

  Prepared Statement of Hon. Deborah A.P. Hersman, Chairman, National 
                      Transportation Safety Board
    Good morning Senator Blumenthal, Ranking Member Blunt, and Members 
of the Subcommittee. Thank you for the opportunity to address you today 
concerning the National Transportation Safety Board's (NTSB) ongoing 
efforts to ensure rail transportation safety, including our ongoing 
investigations of the recent Metro-North passenger train derailment and 
sideswipe in Bridgeport, Connecticut, and the collision and derailment 
of two freight trains in Chaffee, Missouri.
Rail Transportation Safety in General
    The NTSB has been extremely active in investigating train 
collisions and derailments. During the past 12 months, we have launched 
12 rail investigations, including 2 that involve highway-rail grade 
crossings. Of these 12 rail launches, 4 have occurred within the past 5 
weeks. In addition to tragic fatalities and serious injuries to 
passengers, crew members, and other individuals resulting from these 
crashes, 3 of the derailments also involved the release of hazardous 
materials that required the evacuation of local residents in Columbus, 
Ohio, Paulsboro, New Jersey, and Rosedale, Maryland. Also, yesterday 
the NTSB met to consider and take final action on the agency's 
investigation of the head-on collision of two freight trains in 
Goodwell, Oklahoma, on June 24, 2012.
    Despite the workload of the NTSB rail investigators and the spate 
of train collisions and derailments during the past year, overall, 
train crash numbers are improving. According to Federal Railroad 
Administration (FRA) data, total rail accident/incident rates have 
declined from 19.67 occurrences per 1 million train miles in 2004 to 
14.18 in March 2013, a 28 percent decrease. In addition, the highway-
rail grade crossing accident rate has improved significantly in the 
past decade. These rail safety achievements have occurred during a 
period of increased demand for rail transportation in the United 
States. In 2011, the seven largest freight rail carriers had operating 
revenues of $67 billion compared to $47.8 billion in 2009--an increase 
of over $19 billion.\1\ Also, intercity passenger rail and commuter 
rail providers have recently experienced load factor increases. For 
example, according to Amtrak, a record 31.2 million passengers rode its 
trains last year and data compiled by the American Public 
Transportation Association also show increased public transportation 
ridership levels in calendar year 2012 compared to the previous year.
---------------------------------------------------------------------------
    \1\ Back on Track: The Quiet Success of America's Freight Railways, 
The Economist, April 13, 2013.
---------------------------------------------------------------------------
    Although the transportation of people and goods by rail has played 
an increasingly important role in the Nation's economy, we must not 
become complacent when it comes to rail safety. The following summary 
of three of the rail collisions and derailments subject to NTSB 
investigations demonstrate the need for additional investments in 
safety technology. The NTSB's Most Wanted List also highlights 
important rail safety initiatives like Positive Train Control (PTC), 
limiting distraction, and investments in transportation infrastructure. 
Finally, safety would benefit from additional efforts to enforce rail 
safety legislative and regulatory requirements. For all of the ongoing 
investigations that are described, a probable cause has not yet been 
determined.
Derailment and Collision--Bridgeport, Connecticut, May 17, 2013
    As described in the NTSB's preliminary report, at 6:01 pm on 
Friday, May 17, 2013, eastbound Metro-North Railroad passenger train, 
1548, derailed. About 20 seconds after the eastbound train came to 
rest, it was struck by westbound Metro-North passenger train, 1581. As 
a result of the collision, 73 passengers, 2 engineers, and a conductor 
were transported to local hospitals with injuries. Damage was estimated 
by Metro-North at $18.5 million.
    The Metro-North Commuter Railroad's New Haven Line runs east-west 
between Bronx, New York and New Haven, Connecticut. In the vicinity of 
the crash, the track structure consists of four main tracks. The 
maximum authorized speed on the four main tracks in the vicinity of the 
crash is 70 mph with no posted speed restrictions.
    Train movements on the New Haven line are governed by the Metro-
North Commuter Railroad operating rules and the signal indications of a 
traffic control signal system supplemented with cab signals and train 
control.
    The more than 60 miles of track on the New Haven Line are visually 
inspected by Metro-North personnel three times per week. This track 
inspection is performed with the use of a hi-rail vehicle or on foot. 
The last track inspection prior to the derailment was performed on May 
15, 2013, by hi-rail. The inspection found an insulated rail joint with 
inadequate supporting ballast and indications of vertical movement of 
the track system under load at catenary No. 734 on track 4 near 
milepost (MP) 53.3. It is important to note that this inspection 
finding did not disclose a violation of the FRA's Track Safety 
Standards (49 CFR Part 213). As part of its ongoing investigation, 
however, the NTSB is undertaking a comprehensive review of Metro-North 
track inspections and follow-up work and is also looking at the 
adequacy of the FRA's Track Safety Standards.
    Preliminary indications are that the derailment occurred at MP 
53.3. Sections of this rail containing rail joint bars are at the NTSB 
materials laboratory in Washington, DC, for further examination.
    Initial information obtained from onboard event recorders indicates 
that the eastbound train was traveling at about 70 mph when it 
derailed. After the eastbound train came to rest, it was fouling the 
adjacent track, track 2, and was struck about 20 seconds later by the 
westbound train. Initial information from the event recorders indicates 
that the westbound train engineer applied the emergency brakes, slowing 
from 70 mph to 23 mph prior to striking the eastbound train.
    The parties to the investigation include Metro-North Railroad, the 
FRA, the Association of Commuter Rail Employee, the Metropolitan 
Transportation Authority Police Department, Connecticut Department of 
Transportation, Brotherhood of Locomotive Engineers and Trainmen, 
United Transportation Union, and the Brotherhood of Maintenance of Way 
Employees Division.
    The NTSB will conduct a thorough investigation of this event, 
complete it in an expeditious manner, establish its probable cause, and 
issue recommendations to prevent this type of event in the future.
Railroad Employee Fatality, West Haven, Connecticut, May 28, 2013
    The NTSB is also investigating the tragic death of a Metro-North 
track foreman in a track work zone in West Haven, on the New Haven 
Line. We are working with the FRA, Metro-North, and the Metropolitan 
Transportation Authority Police Department and, among other things, 
examining the communications with the Metro-North rail traffic control 
center.
    We have issued safety recommendations to the FRA in the past 
concerning additional safety requirements to protect maintenance-of-way 
work crews.\2\ The NTSB submitted comments in response to an FRA notice 
of proposed rulemaking (NPRM) issued last August to amend its Roadway 
Worker Protection regulation (49 CFR Part 214). In the NPRM, the FRA 
specifically asked for comments in response to one of the two NTSB 
safety recommendations concerning additional safety requirements for 
rail work crews.
---------------------------------------------------------------------------
    \2\ See Collision of Massachusetts Bay Transportation Authority 
Train 322 and Track Maintenance Equipment near Woburn, Massachusetts, 
January 9, 2007, Railroad Accident Report NTSB/RAR-08/01 (Washington, 
D.C.: NTSB, 2008) and Recommendation R-08-06 to the FRA:

    Require redundant signal protection, such as shunting, for 
maintenance-of-way work crews who depend on the train dispatcher to 
provide signal protection.
---------------------------------------------------------------------------
Railroad Grade Crossing Crash, Rosedale, Maryland, May 28, 2013
    On May 28, a three-axle roll-off straight truck approached and 
crossed a rail grade crossing consisting of two tracks. The truck was 
struck by a CSX freight train while it was crossing the tracks. This 
crossing is a passive crossing, which means there were no lights or 
crossing gate in place. The crossing was marked with cross buck signs 
and non-standard stop signs which were yellow. The paint on both stop 
signs was significantly faded and both were displaced from their 
original location, including one that hung upside down and faced away 
from oncoming traffic. The truck driver did not stop at the grade 
crossing.
    The train, travelling at 49 miles per hour, struck the truck on the 
right side near the rear axle. The impact caused 15 train cars to 
derail. The seventh car carried sodium chlorate and the ninth through 
twelfth cars carried terephthalic acid, and these cars released their 
products. Additionally, there was a post-crash fire and subsequent 
explosion that was felt at least one mile away.
    The truck driver was seriously injured, and four people responding 
to the accident or working nearby sustained injuries from minor to 
serious.
Railroad Train Collision, Resulting in a Highway Bridge Collapse, 
        Chaffee, Missouri, May 25, 2013
    On Saturday, May 25, 2013, at about 2:30 a.m., central daylight 
time, Union Pacific Railroad (UP) freight train, 2ASMAR-25, collided 
with BNSF Railway (BNSF) freight train U-KCKHKMO-O5T near Chaffee, 
Missouri. The crash occurred where UP and BNSF tracks cross at grade at 
a railroad interlocking (Rockview Junction). The BNSF train was 
occupying the interlocking when the UP train struck the 12th car behind 
the locomotives of the BNSF train. As a result of the collision, 13 
cars of the BNSF train were derailed. Two locomotives and 11 cars of 
the UP train were derailed. Spilled diesel fuel from the derailed UP 
locomotives caught fire. Missouri State Highway M Bridge is above the 
Rockview Junction interlocking; collision forces resulted in the 
collapse of portions of the highway bridge. Thankfully, there were no 
fatalities on the trains or the roadway, but the UP engineer and 
conductor were injured and transported to a local hospital. Also, 
subsequent to the highway bridge collapse, two motor vehicles struck 
damaged highway elements and were involved in fires. Five occupants of 
the motor vehicles were injured and transported to a local hospital.
    The UP train consisted of 2 locomotives and 60 cars. The BNSF train 
consisted of 3 locomotives and 75 cars. The weather was clear and 48+ F 
at the time of the crash. The preliminary damage was estimated to be 
$11 million.
    Event recorder data from the locomotives of both trains, as well as 
recorded data from the signal system, is being examined to determine 
train speeds and signal aspects prior to the collision. Initial data 
review indicates that the UP train was traveling about 49 mph when it 
struck the side of the BNSF train, which was traveling about 22 mph. 
Preliminary data indicate that the BNSF train received a signal 
indication permitting it to proceed through the interlocking, while the 
UP train received a stop signal indication at the interlocking. No PTC 
system is currently installed at this location.
    Parties to the investigation are the FRA, Missouri Department of 
Transportation, Scott County Emergency Management Agency, Union Pacific 
Railroad, BNSF Railway, Brotherhood of Locomotive Engineers and 
Trainmen, United Transportation Union, and the Brotherhood of Railroad 
Signalmen.
The NTSB's Most Wanted List and Rail Safety
    Each year, the NTSB issues a Most Wanted List of top transportation 
safety priorities designed to increase industry, Congressional, and 
public awareness of these important issues and recommended safety 
solutions. The current Most Wanted List includes three issue areas that 
pertain either specifically or more generally to the rail industry. 
These issues are: Positive Train Control, Distraction, and Preserving 
the Integrity of Transportation Infrastructure. Next, I will address 
each of these areas.
Positive Train Control (PTC)
    In the NTSB's nearly half century of investigating railroad 
crashes, including hundreds of train collisions and over-speed 
derailments, we have seen mechanical defects, maintenance issues and 
track failures, but the biggest safety challenge is human error--and 
that's the area where technology can be so important. Since 2005, the 
NTSB has completed 16 investigations of rail crashes that could have 
been prevented or mitigated with positive train control. These 16 
crashes claimed 52 lives and injured 942 more. The damages totaled 
hundreds of millions of dollars and in each of these crashes, the NTSB 
concluded that PTC would have provided critical redundancy that would 
have prevented the crash.
    PTC prevents train-to-train collisions and overspeed derailments. 
Although human error cannot be eradicated, PTC technology is capable of 
supplementing the human operation of trains. Such systems provide a 
safety redundancy by slowing or stopping a train that is not being 
operated in accordance with signal systems and operating rules, as was 
the case in each of the 16 crashes referenced previously. For years, it 
has been in place on Amtrak trains in the Northeast and Michigan, but 
for PTC to reach its greatest safety potential, it must be implemented 
on all passenger and freight lines. With this technology, even if the 
train operator has fallen asleep or is distracted in some way, human 
lives will not be at risk. PTC however, would not have prevented the 
derailment and crash of the Metro-North trains in Bridgeport because 
they were operating on separate tracks. Nonetheless, in numerous rail 
collisions investigated by the NTSB, including the Goodwell, Oklahoma, 
crash the NTSB reviewed yesterday, the agency has concluded that had a 
PTC system been available, the collisions would have been prevented.
    Because of the NTSB's repeated findings that technology based 
collision avoidance systems could provide the needed safety redundancy 
to prevent rail crashes, PTC was placed on the NTSB Most Wanted List of 
Transportation Safety Improvements at the inception of that list in 
1990. Following the tragic head-on collision between a passenger train 
and a freight train in Chatsworth, California, on September 12, 2008, 
which resulted in 25 fatalities and more than 130 injuries, Congress 
enacted the Rail Safety Improvement Act of 2008 (RSIA). This law 
requires each Class I railroad over which poisonous-by-inhalation or 
toxic-by-inhalation hazardous materials is transported and regularly 
scheduled intercity or commuter rail passenger transportation travel to 
implement a PTC system by December 31, 2015. Encouraged by this 
legislative action, the NTSB's Safety Recommendation calling for PTC to 
be installed on railroads, was classified as closed and was removed 
from the Most Wanted List in October 2008.
    As a result of the May 2011 rear-end collision between two CSX 
freight trains in Mineral Springs, North Carolina, and last June's 
collision of two UP trains in Goodwell, Oklahoma, collisions which 
killed five crewmembers, destroyed cars and goods, and put tracks out 
of service for days, the NTSB decided to refocus on rail safety and 
added PTC to our 2013 Most Wanted List.
    In 2005, NTSB held a symposium on PTC to learn about the industry's 
progress on this issue and to reinvigorate dialogue among rail 
carriers, component manufacturers and government agencies. During that 
2-day meeting, the NTSB examined each of the major aspects of PTC 
systems including safety, efficiency, and operational issues. This past 
February, the NTSB held a 1-day public forum on PTC. In opening the 
forum, I acknowledged there are real hurdles to clear in meeting the 
RSIA's December 31, 2015, mandate to implement PTC technologies. In 
particular, many public operators do not have the available capital 
they need to not only maintain but also upgrade their systems. Although 
a number of presenters at the forum addressed a variety of regulatory, 
technical, budgetary, product and spectrum availability, and legal 
issues associated with implementing PTC, the NTSB also heard from other 
presenters who described various success stories where carriers' PTC 
systems have already received type approvals and certification by the 
FRA.
    There is much debate by policymakers over whether to extend the 
2015 deadline established by RSIA. There are some railroads that have 
already met and others that plan to meet the 2015 deadline. For those 
railroads that have made the difficult decisions and invested millions 
of dollars, they should not be penalized for their leadership. For 
those railroads that will not meet the deadline, there should be 
accountability. Lives depend on it.
Distraction
    As we all know, the serious public health and safety issues 
associated with distraction are not limited to road and highway travel. 
The NTSB has been concerned for many years about the danger of 
distraction across all transportation modes. For example, within the 
rail industry, in 2003, the NTSB issued an accident report concerning 
the May 28, 2002, head-on collision of two Burlington Northern Santa Fe 
(BNSF) freight trains near Clarendon, Texas, that resulted in the death 
of one of the train's engineers, injuries to the three other 
crewmembers, and damages exceeding $8 million. The NTSB determined the 
probable cause of the collision was one of the engineer's uses of a 
cell phone during the time he should have been attending to the 
requirements of the track warrant his train was operating under.
    The NTSB focused again on the danger of distraction in the rail 
industry in investigating another head-on collision of two BNSF freight 
trains that occurred near Gunter, Texas, on May 19, 2004. The NTSB had 
determined that 25 calls were made by crewmembers from both trains 
during the trip and up to the time of the collision, and that 22 of 
those calls were of a personal nature. Similarly, in the tragic 
Chatsworth, California, Metrolink crash mentioned above, the NTSB 
determined that during the time periods the engineer was responsible 
for operating a train, the train operator sent 21 text messages, 
received 20 text messages, and made four outgoing telephone calls.
    As a result of the Clarendon, Texas, collision, the NTSB issued a 
recommendation in 2003 to the FRA to issue regulations to control the 
use of cellular telephones and other wireless communication devices by 
railroad operating employees while on duty. In response to the 
recommendation, the FRA and its Rail Safety Advisory Committee closely 
examined the issue and, on October 7, 2008, published in the Federal 
Register Emergency Order No. 26, to restrict on-duty railroad operating 
employees from improperly using cellular telephones and other 
distracting electronic and electrical devices. On September 27, 2010, 
the FRA issued a final rule that supplanted Emergency Order No. 26 and 
codified most its requirements in a new subpart C, titled ``Electronic 
Devices,'' to Part 220, of Title 49, Code of Federal Regulations. This 
recommendation has been closed because of this positive action by the 
FRA.
Preserving the Integrity of Transportation Infrastructure
    As the American Society of Civil Engineers' 2013 Report Card for 
America's Infrastructure points out, the U.S. freight and passenger 
rail network consists of more than 160,000 miles of track, 76,000 rail 
bridges, and 800 tunnels. The Report notes both freight and passengers 
railroads have made significant investments in their infrastructure, 
using both public and private funding, but meeting capacity demands 
will be an increasing challenge as rail ridership and freight rail 
continue to increase. Of the 16 infrastructure categories evaluated in 
the Report Card, including aviation, inland waterways, ports, roads, 
and transit, Solid Waste (trash disposal) received the highest assigned 
rating--B- (Good). Rail and Bridges received the second highest 
assigned rating--C+ (Mediocre).\3\
---------------------------------------------------------------------------
    \3\ www.infrastructurereportcard.org (March 2013).
---------------------------------------------------------------------------
    The NTSB Most Wanted List item on transportation infrastructure 
points to the need for periodic, standard railway inspections for 
railcars and track used to replace defective segments as well as track 
originally laid down. For example, after investigating a March, 2001, 
derailment of Amtrak's California Zephyr, near Nodaway, Iowa, while 
operating on track owned by BNSF, resulting in 1 fatality and injuries 
to 78 people, the NTSB determined the probable cause of the derailment 
was the failure of the rail beneath the train, due to undetected 
internal defects.
    Similarly, the NTSB investigated the January 18, 2002, derailment 
of 31 of 112 cars of a Canadian Pacific Railway freight train near 
Minot, North Dakota. Five tank cars carrying anhydrous ammonia, a 
liquefied compressed gas, catastrophically ruptured, and a vapor plume 
covered the derailment site and surrounding area. One resident was 
fatally injured, and 60 to 65 residents of the neighborhood nearest the 
derailment site were rescued. As a result of the crash, 11 people 
sustained serious injuries, and 322 people, including the 2 train 
crewmembers, sustained minor injuries. Damages exceeded $2 million, and 
more than $8 million was spent for environmental remediation. The 
NTSB's report indicated the probable cause of the derailment was an 
ineffective inspection and maintenance program that did not identify 
and replace cracked joint bars before they completely fractured and led 
to the breaking of the rail at the joint. Contributing to the severity 
of the accident was the catastrophic failure of five tank cars and the 
instantaneous release of about 146,700 gallons of anhydrous ammonia.
Other Important NTSB Rail Safety Recommendations
    The NTSB has long advocated in-cab recording devices in order to 
better understand crew activities leading up to serious accidents. As a 
result of its investigation of the collision between a Maryland Rail 
Commuter train and an Amtrak train near Silver Spring, Maryland, on 
February 16, 1996, in which all operating crewmembers were fatally 
injured, the NTSB was unable to determine whether certain crewmember 
activities leading up to the crash may have contributed to the crash. 
Consequently, the NTSB recommended that the FRA

        Amend 49 Code of Federal Regulations Part 229 to require the 
        recording of train crewmembers' voice communications for 
        exclusive use in accident investigations and with appropriate 
        limitations on the public release of such recordings. (Safety 
        Recommendation R-97-9)

    After its investigation of another railroad crash with no surviving 
crewmembers that occurred in 1999 in Bryan, Ohio, the NTSB reiterated 
Safety Recommendation R-97-9 to the FRA. The FRA responded that it

        . . . has reluctantly come to the conclusion that this 
        recommendation should not be implemented at the present time. . 
        . . [The] FRA appreciates that, as time passes and other uses 
        are found for recording media that may create synergies with 
        other public and private purposes, the Board`s recommendation 
        may warrant re-examination.

    Based on this response and further meetings, the NTSB classified 
Safety Recommendation R-97-9 ``Closed--Unacceptable Action.''
    Since the refusal by the FRA to act on the recommendation regarding 
in-cab recorders, the NTSB has continued to investigate crashes in 
which such recorders would have provided valuable information to help 
determine probable cause and develop safety recommendations. As a 
result of its investigation of the July 10, 2005, collision of two CN 
freight trains in Anding, Mississippi, the NTSB made the following 
safety recommendation to the FRA:

        Require the installation of a crash-and fire-protected 
        locomotive cab voice recorder, or a combined voice and video 
        recorder, (for the exclusive use in accident investigations and 
        with appropriate limitations on the public release of such 
        recordings) in all controlling locomotive cabs and cab car 
        operating compartments. The recorder should have a minimum 2-
        hour continuous recording capability, microphones capable of 
        capturing crewmembers' voices and sounds generated within the 
        cab, and a channel to record all radio conversations to and 
        from crewmembers. (Safety Recommendation R-07-3)

    Most recently, as a result of the investigation into Chatsworth, 
California, head-on collision between a Metrolink commuter passenger 
train and a Union Pacific freight train, the NTSB reclassified Safety 
Recommendation R-07-03 ``Closed--Unacceptable Action/Superseded.'' In 
that investigation, the NTSB noted that:

        In all too many accidents, the individuals directly involved 
        are either limited in their recollection of events or, as in 
        the case of the Chatsworth accident, are not available to be 
        interviewed because of fatal injuries. In a number of accidents 
        the NTSB has investigated, a better knowledge of crewmembers' 
        actions before an accident would have helped reveal the key 
        causal factors and would perhaps have facilitated the 
        development of more effective safety recommendations.

    The NTSB reclassified Safety Recommendation R-07-3 ``Closed--
Unacceptable Action/Superseded,'' when it issued Safety Recommendation 
R-10-1 to the FRA:

        Require the installation, in all controlling locomotive cabs 
        and cab car operating compartments, of crash- and fire-
        protected inward-and outward-facing audio and image recorders 
        capable of providing recordings to verify that train crew 
        actions are in accordance with rules and procedures that are 
        essential to safety as well as train operating conditions. The 
        devices should have a minimum 12-hour continuous recording 
        capability with recordings that are easily accessible for 
        review, with appropriate limitations on public release, for the 
        investigation of accidents or for use by management in carrying 
        out efficiency testing and systemwide performance monitoring 
        programs. (R-10-1)

    The NTSB also issued the following Safety Recommendation to the 
FRA:

        Require that railroads regularly review and use in-cab audio 
        and image recordings (with appropriate limitations on public 
        release), in conjunction with other performance data, to verify 
        that train crew actions are in accordance with rules and 
        procedures that are essential to safety. (R-10-2)

    Recommendations R-10-1 and R-10-2 are currently classified as 
``Open--Acceptable Response.''
    Based on the important safety and investigative role of inward-
facing video and audio monitoring devices, the NTSB reiterated Safety 
Recommendations R-10-01 and -02 in its report \4\ concerning collision 
of a BNSF coal train with the rear end of a standing BNSF maintenance-
of-way equipment train near Red Oak, Iowa. As a result of the 
collision, both crewmembers on the striking train were fatally injured. 
Damage was in excess of $8.7 million.
---------------------------------------------------------------------------
    \4\ See Collision of BNSF Coal Train 322 With the Rear End of 
Standing BNSF Maintenance-of-Way Equipment Train, Red Oak, Iowa, April 
17, 2011, Railroad Accident Report NTSB/RAR-12/02 (Washington, D.C.: 
NTSB, 2012)
---------------------------------------------------------------------------
    As the NTSB stated in its report, the rear-end collision near Red 
Oak again demonstrated the need for in-cab recording devices to better 
understand (and thereby prevent) serious railroad crashes that claim 
the lives of crewmembers, passengers, and the public. While video 
recorders will assist in the investigation of crashes, their value in 
preventing crashes cannot be overstated. Installation of inward-facing 
cameras can also assist railroads in monitoring rules compliance and 
identifying fatigued engineers. Such monitoring can lead to 
interventions before a crash occurs.
Closing
    I appreciate the opportunity to appear before you today to discuss 
rail safety and I am prepared to answer your questions.

    Senator Blumenthal. Thank you, Chairman Hersman.
    Ms. Fleming?

       STATEMENT OF SUSAN A. FLEMING, DIRECTOR, PHYSICAL 
INFRASTRUCTURE ISSUES, UNITED STATES GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Fleming. Good morning, Mr. Chairman, Ranking Member 
Blunt, and other members of the Committee. Thank you for the 
opportunity to discuss rail safety.
    As you heard, 2012 was the safest year in railroad history. 
And overall, rail safety has improved significantly with the 
accident rate dropping by almost 50 percent between 2004 and 
2012.
    However, as we heard, recent accidents in Connecticut, 
Missouri, and Maryland demonstrate the need for vigilance and 
further improvements in rail safety.
    My statement is based on work currently being performed at 
the request of this committee and other members of the Senate, 
and will cover FRA's rail safety oversight, including existing 
and emerging challenges, as well as positive train control 
implementation. Our reports will be issued later this fall.
    FRA is charged with regulatory oversight of the safety of 
U.S. railroads, both passenger and freight. Combined, the 
freight and commuter rail systems, plus Amtrak, have about 
230,000 employees, over 1 million cars, and 200,000 miles of 
track in operation.
    FRA primarily monitors railroad compliance with Federal 
safety regulations through routine inspections at specific 
sites on railroad systems. FRA's relatively small safety staff, 
about 640, including State inspectors, makes the railroads with 
their own inspectors the principal guarantors of railroad 
safety.
    FRA has developed two models that use past accident, 
incident, and inspection data to help focus its oversight 
efforts. One targets inspection and the other seeks to allocate 
FRA's inspectors across its eight regions.
    Both models are updated at least annually and are reviewed 
by FRA officials who may suggest modifications.
    However, several FRA regional officials told us that the 
staffing decisions based on model results do not necessarily 
align inspectors with their perspective of the needs of the 
region, nor does it take a region's geography into account.
    As we continue our work, we will further assess how FRA 
officials use these tools to accommodate changing safety risk 
and allocate inspectors.
    Based on our work to date, we have identified several 
existing and emerging challenges affecting rail oversight.
    First, rail safety stakeholders, including FRA, face a 
continued challenge of trying to reduce highway rail grade 
crossings and trespasser incidents. Stakeholders told us that 
this involves educating the public about the potential safety 
hazards and cooperating with other Federal, State, and local 
government agencies that have responsibility for funding road 
projects or closing those crossings.
    Additionally, changes to freight flows such as the recent 
increase in train and truck traffic due to gas and petroleum 
drilling in the Midwest can increase the risk of highway rail 
grade crossing accidents.
    Second, in the next 5 years, over 30 percent of FRA 
inspectors in its current safety disciplines will be eligible 
to retire. FRA does not have a specific plan to replace its 
aging inspector work force. In addition, it can take from 1 to 
4 years to hire, train, and certify an inspector, depending on 
the inspector's level of experience.
    Finally, FRA officials told us that they do not yet have 
sufficient staff with the required expertise to provide safety 
oversight of PTC and other emerging safety technologies.
    Moving on to PTC implementation, as you know, the Rail 
Safety Improvement Act of 2008 called for PTC implementation on 
rail lines carrying either inner-city or commuter passengers, 
or cargo that carries certain toxic materials, by December 31, 
2015. However, we have heard that most railroads report that 
they will not meet this deadline.
    There are numerous interrelated challenges that are causing 
this delay, including the development of PTC components and 
their installation; system integration and field testing; and 
limited FRA resources to review railroads' PTC implementation 
and safety plans, and to certify those systems.
    Commuter railroads face these same exact challenges and 
more, including dependency on implementation by the freight 
railroads and Amtrak, whose tracks they use, and obtaining 
sufficient radio frequency spectrum for radios.
    It appears unlikely that PTC will be implemented by more 
than a small number of railroads by the deadline.
    In its August 2000 report to Congress, FRA requested 
authorities, such as granting provisional certification of PTC 
systems to railroads, which would provide flexibility to 
meeting the deadline. FRA officials say these authorities could 
enable them to conduct oversight more realistically, by 
acknowledging the current state of implementation, and in turn 
could help better manage their and the railroads' limited 
resources.
    Thank you, Mr. Chairman. This concludes my statement, and I 
would be pleased to answer any questions you may have.
    [The prepared statement of Ms. Fleming follows:]

Rail Safety

       Preliminary Observations on Federal Rail Safety Oversight 
               and Positive Train Control Implementation

Why GAO Did This Study
    The rail network is one of America's safest modes of 
transportation, although several recent rail accidents have reinforced 
the need for constant effort from the private and public sectors to 
ensure safety for rail passengers, the public, and railroad employees. 
FRA, the Federal agency responsible for railroad safety, works with 
freight, commuter, and intercity passenger railroads and certain states 
to ensure the safety of the U.S. railroad network.
    In 2007, FRA developed and implemented a risk-based approach to its 
safety inspections of the railroad network. In 2008, RSIA was enacted 
and, among other things, reauthorized FRA's rail safety program and 
included several new rail safety provisions, such as the implementation 
of PTC and creation of rail safety risk reduction plans.
    This statement discusses GAO's preliminary observations about (1) 
how FRA oversees rail safety, (2) challenges to rail safety, and (3) 
PTC implementation by the U.S. rail industry. GAO examined FRA's 
overall rail safety framework and interviewed state rail safety 
officials and officials from FRA; selected Class I, II, and III 
railroads; and Amtrak on rail safety and PTC implementation.
    GAO plans to issue reports on reviews of rail safety and PTC in the 
fall of 2013.
What GAO Found
    The Federal Railroad Administration (FRA) primarily monitors 
railroads' compliance with Federal safety regulations through routine 
inspections by individual inspectors at specific sites on railroads' 
systems. Thirty states also employ railroad safety inspectors, who 
participate in a partnership program with FRA to conduct supplemental 
safety oversight activities based on FRA rail safety regulations and 
enforce state railroad safety laws. FRA applies a quantitative, risk-
based approach, the National Inspection Plan, to inform its rail safety 
oversight efforts using analyses of past accident and inspection data 
and other information to target inspections in each region. FRA also 
uses a planning and evaluation tool, the Staffing Allocation Model 
(SAM), to distribute its inspection resources across each FRA region. 
However, according to several FRA regional administrators that GAO 
spoke with, the staffing decisions based on SAM results do not 
necessarily align with their perspectives on the inspector needs for 
their regions.
    Based on GAO's work to date, there are several potential challenges 
affecting FRA's rail safety oversight. First, the Rail Safety 
Improvement Act (RSIA) required FRA to issue regulations requiring 
certain railroads to submit risk reduction plans within 4 years. FRA 
has not yet issued a final rule on the plans. Second, FRA does not have 
a specific plan to replace its aging inspector workforce. According to 
FRA officials, in the next 5 years, about 32 percent of FRA inspectors 
will be eligible to retire. Although FRA officials said that they 
anticipate being able to replace inspectors, it can take 1 to 2 years 
to find, hire, train, and certify a new inspector. Finally, FRA faces 
other ongoing and emerging safety challenges like addressing adverse 
weather conditions and their impact on railroad operations and 
equipment, educating the public on the potential hazards of rail-
highway crossings, accommodating changes in rail safety risks including 
new freight flows that affect the need for inspections, and hiring and 
training a specialized inspector workforce to provide adequate safety 
oversight for emerging technologies including positive train control 
(PTC), a communications-based system designed to prevent train 
accidents caused by human factors.
    GAO's work to date indicates that railroads may not be able to 
fully implement PTC by the 2015 deadline established in RSIA. This is 
because of the many interrelated challenges caused by the complexity 
and breadth of PTC implementation. For example, PTC components, such as 
the back office servers, which are needed to communicate vital 
information between locomotives and wayside signals, are still under 
development. In addition, the need to integrate PTC components and 
field test the system is a time- and resource-consuming process. 
Finally, some railroads had concerns with FRA's limited resources and 
ability to verify field testing and certify the system once it is fully 
implemented. Officials from freight railroads and FRA stated they will 
not compromise PTC safety functions and will ensure PTC is implemented 
to meet the requirements of the RSIA mandate. However, in attempting to 
implement PTC by the 2015 deadline, railroads may be making choices 
that could introduce financial and operational risks. For example, 
freight railroad representatives told us that without adequate time for 
field testing, PTC systems could potentially malfunction or fail more 
frequently, causing system disruptions.
      Prepared Statement of Susan A. Fleming, Director, Physical 
 Infrastructure Issues, United States Government Accountability Office
    Chairman Blumenthal, Ranking Member Blunt, and Members of the 
Committee:

    We appreciate the opportunity to participate in this hearing to 
discuss the Federal Railroad Administration's (FRA) rail safety 
oversight activities. The rail network is one of America's safest modes 
of transportation, although several recent rail accidents, including 
the Metro-North commuter rail accident in Bridgeport, Connecticut, the 
collision of BNSF and UP trains in Chaffee, Missouri, and the collision 
of a CSX train and a truck in Rosedale, Maryland, have reinforced the 
need for constant effort from both the private and public sectors to 
ensure that rail transportation remains safe for passengers, the 
public, and railroad employees. My statement will discuss our ongoing 
reviews of FRA's rail safety oversight and the implementation of 
positive train control, a communications-based system designed to 
prevent train accidents caused by human factors.
    This testimony provides our preliminary observations from our 
ongoing work, being performed at the request of this committee and 
other Members of the Senate, regarding: (1) FRA's framework for safety 
oversight, (2) existing and emerging challenges to rail safety, and (3) 
PTC implementation. Our preliminary assessments of FRA's rail safety 
framework and the quantitative tools FRA uses to implement that 
framework are based on our reviews of FRA documentation and interviews 
with FRA headquarters and regional officials. In addition, we 
interviewed state rail safety officials and freight railroad officials 
from selected Class I, II, and III railroads.\1\ We selected the 
railroads based on the class of railroad (as a proxy for size), types 
of railroads (long distance versus local service or a railroad that 
serves a small area such as a port or rail yard), and type of ownership 
(publicly held, privately held, or owned by a public agency) to get a 
range of different kinds of freight railroads. For our assessment of 
PTC implementation, we reviewed documents and interviewed officials 
from FRA and railroad associations, the four largest freight railroads, 
commuter railroads that were selected based on PTC implementation 
status and ridership levels (among other things), and Amtrak. We also 
selected PTC suppliers and independent PTC experts based on their 
involvement with PTC and recommendations from FRA, industry 
associations, and others.
---------------------------------------------------------------------------
    \1\ The Surface Transportation Board classifies railroads based on 
annual revenues. As of 2011 (the last year of data available), Class I 
freight railroads are those railroads that earn more than $433 million 
annually, Class II earn from about $35 million to $432 million annually 
and Class III railroads earn less than about $35 million annually.
---------------------------------------------------------------------------
    We conducted our ongoing work in accordance with generally accepted 
government auditing standards. We provided a draft copy of this 
statement to FRA for their review. The agency had no comment. We plan 
to report the final results of our reviews in the fall of 2013.
Background
    According to FRA data, 2012 was the safest year in railroad 
history. Overall, rail safety--measured by the train accident rate per 
million train miles--has improved markedly since 1980, as shown in 
figure 1. In addition, the accident rate dropped by almost 50 percent 
from 2004 to 2012.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Source: FRA.

    Even with the significant reduction in accident rates, however, 
roughly 300 people were injured and 10 people were killed in train 
accidents on average each year, from 2003 to 2012.\2\ Further, recent 
rail accidents underscore the importance of continued, consistent 
efforts to ensure rail safety.
---------------------------------------------------------------------------
    \2\ These figures do not include highway-railroad grade crossing or 
trespasser accidents.
---------------------------------------------------------------------------
    FRA provides regulatory oversight of the safety of U.S. railroads, 
both passenger and freight. FRA develops and enforces regulations for 
the railroad industry that include numerous requirements related to 
safety, including requirements governing track; signal and train 
control systems; grade-crossing warning device systems; mechanical 
equipment, such as locomotives and tank cars; and railroad-operating 
practices. FRA also enforces hazardous materials regulations that 
relate to the safe transportation of such materials by rail.
    The Rail Safety Improvement Act (RSIA) of 2008 was the first 
authorization of FRA's safety activities since 1994 and is due to be 
reauthorized in 2013.\3\ RSIA overhauled Federal rail safety 
requirements by directing the FRA to, among other things, promulgate 
additional new rail safety regulations and guidance in areas such as 
railroad risk reduction plans, track inspections standards, and 
highway-rail grade crossing safety.
---------------------------------------------------------------------------
    \3\ Pub. L. No. 110-432, div. A, 122 Stat. 4848.
---------------------------------------------------------------------------
    RSIA also required railroads to develop and submit a plan to FRA 
for implementing a PTC system on rail lines that carry intercity or 
commuter passengers or toxic-inhalation-hazard cargo by December 31, 
2015.\4\ Under RSIA, FRA is responsible for approving railroads' PTC 
implementation plans and certifying PTC systems prior to installation. 
PTC is a communication-based system designed to prevent some accidents 
caused by human factors, including train-to-train collisions and 
derailments caused by exceeding safe speeds. It is also designed to 
prevent incursions into work zones and movement of trains through 
switches left in the wrong position. By preventing trains from either 
entering a segment of track occupied by another train or moving through 
an improperly aligned switch, PTC could prevent accidents such as the 
one in the Chatsworth neighborhood of Los Angeles, California.\5\ 
Railroads that are required to implement PTC can choose different PTC 
systems; however, railroads' PTC systems must be interoperable. This 
means that the components of different PTC systems must be able to 
communicate with one another in a manner to provide for the seamless 
movement of trains as they cross tracks owned by different railroads 
that may be using different PTC systems.\6\<SUP>,</SUP>\7\
---------------------------------------------------------------------------
    \4\ Failure to complete PTC system installation on track where PTC 
is required prior to the deadline is subject to a $16,000 penalty per 
violation and $25,000 per willful violation. See 49 C.F.R. Appendix A 
to Part 236.
    \5\ In September 2008, a commuter train operator missed a red 
signal, causing the train to collide with a Union Pacific freight 
train, resulting in 25 deaths and over 100 injuries.
    \6\ Major freight railroads in the United States are implementing 
Interoperable Electronic Train Management System (I-ETMS) and Amtrak, 
which provides intercity passenger rail and predominantly owns the 
Northeast Corridor track that runs from Washington, D.C., to Boston, is 
implementing Advanced Civil Speed Enforcement System (ACSES). Although 
ACSES and I-ETMS are functionally the same, they represent different 
technical approaches.
    \7\ GAO, Rail Safety: Federal Railroad Administration Should Report 
on Risks to the Successful Implementation of Mandated Safety 
Technology, GAO-11-133 (Washington, D.C.: Dec. 15, 2010) and Federal 
Railroad Administration, Report to Congress: Positive Train Control 
Implementation Status, Issues, and Impacts (August 2012).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
    Source: GAO.

    <SUP>a</SUP> Train location information is determined through 
various methods depending on the specific PTC system, including through 
satellite-based positioning systems and sensors installed along the 
track.

    <SUP>b</SUP> Although RSIA does not require PTC systems to issue 
such warnings, the PTC systems that most railroads are implementing 
will do so.

FRA's Rail Safety Framework Includes Data to Inform Its Rail Safety 
        Oversight Efforts but Faces Potential Oversight Challenges
FRA's Oversight Framework Primarily Uses Federal and State Inspectors 
        to Oversee Railroad Safety Efforts
    Our work to date indicates that FRA primarily monitors railroads' 
compliance with Federal safety regulations through routine inspections 
by individual inspectors at specific sites on railroads' systems. This 
inspection approach focuses on direct observations of train components, 
related equipment, and railroad property--including the track and 
signal systems--as well as operating practices to determine whether 
they meet FRA's standards. Inspectors also examine railroads' 
inspection and maintenance records. FRA's inspectors generally 
specialize in one of five areas, called inspection disciplines: (1) 
operating practices, (2) track, (3) hazardous materials, (4) signal and 
train control, and (5) motive power and equipment.\8\ Inspectors 
typically cover a range of standards within their discipline during 
inspections. FRA's policy is for inspectors to encourage railroads to 
comply with Federal rail safety regulations voluntarily. When railroads 
do not comply voluntarily or identified problems are serious, FRA may 
cite violations and in certain instances take enforcement actions, 
including the assessment of civil penalties, to ensure compliance.\9\
---------------------------------------------------------------------------
    \8\ Inspectors in this specialty inspect railroad locomotives, 
passenger and freight cars, and their safety appliances such as air 
brakes.
    \9\ For Fiscal Year 2012, FRA's final civil penalty assessments and 
settlements totaled about $16.6 million for about 6,400 violation 
reports.
---------------------------------------------------------------------------
    Our preliminary work has found that thirty states also employ 
railroad safety inspectors, who participate in a partnership program 
with FRA to conduct safety oversight activities, supplemental to FRA's 
activities, based on FRA rail safety regulations and to enforce state 
railroad safety laws. FRA trains and certifies state inspectors and 
includes them in its inspection planning efforts. However, FRA's 
relationship and coordination with each state is unique. For example, 
according to one state rail safety administrator we talked to, the 
Federal and state track inspectors have divided one state's territory 
to ensure that the inspectors' territories do not overlap. In addition, 
an FRA regional administrator mentioned that while his FRA and state 
inspectors' territories overlapped, effective coordination between 
inspectors avoids duplicative inspections. According to FRA officials, 
while state inspectors ensure compliance with state requirements, state 
inspectors are also responsible for ensuring compliance with Federal 
safety regulations.
    In addition to Federal and state inspectors, the railroads have 
their own inspectors who are responsible for ensuring that railroad 
equipment, track, and operations meet Federal rail safety standards. 
Each railroad has its own inspectors or contracts with third parties to 
conduct the required inspections depending on the railroad's resources 
and FRA-mandated inspection responsibilities.
    FRA is a small agency relative to the railroad industry, making the 
railroads themselves the primary guarantors of railroad safety. Based 
on our work to date, FRA has about 470 inspectors in its headquarters 
and regional offices, in addition to about 170 state inspectors.\10\ In 
contrast, the U.S. railroad system consists of about 760 railroads with 
about 230,000 employees and 200,000 miles of track in operation. FRA is 
also responsible for developing and enforcing regulations for commuter 
railroads and Amtrak.\11\ Amtrak and commuter railroads operating 
outside of the Northeast Corridor operate largely over freight railroad 
tracks and carry over 670 million passengers a year over 23 billion 
miles. The FRA works with railroads to get their input on proposed 
regulations and rules through the Railroad Safety Advisory Committee 
(RSAC) process.\12\ Several railroad officials we spoke with thought 
that the RSAC process was an improvement over the prior process, that 
they believe had been less collaborative and did not promote 
discussions among FRA, the railroads, and labor unions to share and 
understand each other's views on proposed Federal railroad safety 
regulations.
---------------------------------------------------------------------------
    \10\ Six of these states (California, Illinois, Ohio, Pennsylvania, 
Texas, and West Virginia) comprise over 50 percent of the total number 
of state inspectors.
    \11\ There are currently 28 commuter railroads.
    \12\ FRA established the Railroad Safety Advisory Committee (RSAC) 
in 1996 to develop new regulatory standards, through a collaborative 
process, with all segments of the rail community, including railroads, 
shippers and other stakeholders, to fashion mutually satisfactory 
solutions on rail safety regulatory issues.
---------------------------------------------------------------------------
FRA Targets Its Inspections Based on Analyses of Past Accident and 
        Inspection Data and Other Information
    In 2006, FRA implemented a risk-based approach, using its National 
Inspection Plan (NIP), to allocate its limited inspection resources to 
ensure rail safety. The NIP consists of three elements: (1) a baseline 
plan that establishes safety goals for each railroad and state, (2) 
review and adjustment by regional administrators, (3) monitoring and 
evaluation of inspection activity.
    The NIP's baseline plan attempts to minimize the predicted number 
and severity of railroad accidents given the number of available FRA 
inspectors in each FRA region. The quantitative model uses data 
including: (1) the most recent 3 years of accident data from reports 
that railroads are required to file about accidents that occur on their 
tracks; (2) data from FRA's inspection activity; and (3) information on 
railroad activities such as train miles and other data, to determine 
the scope of what FRA's inspectors should inspect in a given year.\13\ 
In the middle of each calendar year, FRA updates the NIP with new 
accident data to estimate where the highest safety risks are and uses 
the results to create annual inspection targets for each inspector.
---------------------------------------------------------------------------
    \13\ Railroads are required to report monthly accident data within 
a month of the accident occurring and it may take 2 to 3 more months 
for FRA to review the information and make it available for use in the 
NIP. The NIP excludes highway-rail grade crossing and trespasser 
accidents from its analysis.
---------------------------------------------------------------------------
    Our preliminary work indicates that after the baseline is 
established, FRA's regional management propose modifications to the 
inspection targets produced for each region using their judgment and 
knowledge of which railroads or disciplines may require more FRA 
oversight than the NIP's model indicates. Subsequently, FRA allows for 
a mid-year correction of the NIP, based on input from FRA's regional 
management. FRA regional administrators we spoke with indicated that 
this flexibility allows them to accommodate new or emerging rail safety 
risks by deviating from the original NIP targets. For example, they 
stated that they sometimes re-allocate inspectors to railroads that 
have had recent accidents, or because inspectors indicate a need for 
more oversight at a certain railroad based on assessments made during 
their regular inspection duties. Additionally, the effects of 
hurricanes, storms, or prolonged periods of adverse weather, such as 
heat or cold that could cause track failures, may require the 
reallocation of inspection resources. Throughout the year, FRA 
headquarters and regional management monitor the inspection activities 
against the modified inspection baseline to determine if the inspection 
targets are being met.
    FRA has also developed the Staffing Allocation Model (SAM), which 
is a planning and evaluation tool used to assess its inspection 
resources from a nationwide perspective. Our work to date shows that 
FRA uses the SAM to establish targets for the number of inspectors in 
each FRA region and inspection discipline. In using the targets to help 
allocate and balance staff among disciplines and regions, FRA expects 
to minimize the resulting casualties and estimated costs of train 
accidents. FRA uses the SAM results to determine where they may need to 
adjust the number of inspectors in a given region and discipline. FRA 
rebalanced its workforce using the SAM model in 2007 and officials 
stated that more recent SAM results have not indicated the need for 
major movements of inspectors between regions or disciplines. However, 
FRA officials stated that when the SAM has shown a change in the 
distribution of their inspectors they are somewhat constrained from 
implementing the model's results due to budget constraints. FRA 
officials also told us that while the SAM model has been refined based 
on what they have learned from making improvements to the NIP, the SAM 
is not designed to take into account certain changes--such as 
increasing freight train volume or accidents in a particular region--as 
the SAM uses past accident data to provide a baseline for the 
nationwide distribution of its inspectors. FRA officials stated that 
they handle those types of changes on an as-needed basis through 
temporary detail assignment of FRA inspectors from other regions or 
headquarters.
    In addition, our preliminary review indicates that FRA regional 
administrators also can provide input on the model's results based on 
their views on how many inspectors the region needs. However, FRA 
regional officials we talked to stated that the staffing decisions 
based on SAM results do not necessarily align their inspectors with 
their perspective of the needs in their region nor does it take a 
region's geography into account. While FRA headquarters officials 
anticipate that there may be minor variations from SAM's targets as a 
result of natural turnovers of inspectors (e.g., retirements), they do 
not believe that these variations will have long-term impacts on FRA's 
safety activities in the regions. However, regional administrators 
expressed concern over the staffing pressures this can create. For 
example, one FRA regional administrator stated that when the staffing 
decisions did not provide for a replacement for a certain discipline, 
he was forced to cover that discipline's inspection load with 
inspectors from other states for 3 years until a replacement could be 
approved, hired, trained, and qualified.
    As we continue our on-going work on rail safety oversight, we will 
further assess how FRA officials use these tools to accommodate 
changing rail safety risks and allocate inspectors across regions and 
inspection disciplines.
FRA Faces Several Potential Challenges to Its Rail Safety Oversight 
        Mission
    Based on our work to date, we have identified several potential 
challenges affecting FRA's rail safety oversight, including lack of a 
final rule requiring the submission of Risk Reduction Plans by 
specified railroads, lack of succession planning to ensure sufficient 
staff numbers and expertise, and other ongoing and emerging challenges.

Risk Reduction Plans
    RSIA required FRA to develop a rulemaking requiring certain 
railroads to submit risk reduction plans, within 4 years of enactment, 
which was October 2012.\14\ Our preliminary work has identified several 
reasons why a final rule has not yet been issued, according to FRA, 
including the need to resolve the issue of protection of sensitive 
business and safety information in the railroad's risk reduction plans. 
FRA officials told us that these plans would allow them to have a more 
proactive view of rail safety for these railroads that will complement 
FRA's current compliance-based approach. FRA officials also told us 
that they anticipate issuing a final rule in September 2014 and that 
they expect that the railroads will have risk reduction plans in place 
by 2016.
---------------------------------------------------------------------------
    \14\ Specifically, RSIA required all Class I freight, intercity 
passenger, and commuter railroads (as well as any railroad whose safety 
performance was determined to be inadequate by the Secretary of 
Transportation) to develop and submit plans for DOT to review that 
would identify and propose to manage the rail safety risks on the 
railroad, such as rail safety technology and human fatigue management.

Succession Planning
    Our work to date has found that FRA does not yet have a specific 
plan to replace its aging inspector workforce. According to FRA 
officials, in the next 5 years, 150 of FRA's 470 inspectors (about 32 
percent) will be eligible to retire. FRA officials told us, however, 
that they have been able to find and hire qualified candidates in the 
past. However, other FRA headquarters officials and regional 
administrators we spoke with stated that replacing qualified inspectors 
is difficult, especially for the signal discipline, and getting 
inspectors fully qualified takes time. For example, FRA regional 
officials stated that it takes about 1 to 2 years to find, hire, train, 
and certify a new experienced inspector and 3 to 4 years to get an 
inexperienced trainee certified by FRA as a qualified inspector. 
Additionally, FRA officials stated that budget constraints may prohibit 
their current practice of hiring new inspectors before retiring 
inspectors leave so that some overlap can occur to facilitate the 
transfer of knowledge.

Other Challenges
    Our preliminary work has identified several other ongoing and 
emerging rail safety challenges that FRA faces.

  <bullet> The effects of weather on railroad operations are an ongoing 
        challenge. FRA and the railroads continuously keep abreast of 
        adverse weather conditions that can cause accidents, such as 
        high temperatures that can cause tracks to go out of alignment 
        and cause a derailment. FRA has issued several weather-related 
        regulations concerning tracks, operating practices, and 
        railroad equipment, and the railroads we spoke with adjust 
        their operating practices to account for adverse weather.

  <bullet> All rail safety stakeholders face the continued challenge of 
        trying to reduce highway-rail grade crossing and trespasser 
        incidents. Reducing these kinds of accidents represents a 
        different challenge to FRA's current rail safety framework. 
        Rail safety stakeholders stated that this involves educating 
        the general public about the potential safety hazards that 
        trains represent to cars, trucks, and pedestrians at grade 
        crossings as well as cooperating with several other federal, 
        state, and local government agencies that have responsibility 
        for funding road projects or closing those crossings. Changes 
        to freight flows, such as the recent increase in train and 
        truck traffic experienced due to increased gas and petroleum 
        drilling in the upper Midwest, can add train or truck traffic 
        to previously low traffic areas increasing the risk of highway-
        railroad grade crossing accidents.

  <bullet> New technologies, such as PTC systems, are another challenge 
        that FRA will have to incorporate into its rail safety 
        oversight framework. For example, because PTC systems are 
        extremely complex command, control, and communications systems, 
        the FRA believes it will require a specialized inspector 
        workforce--which FRA currently does not have--to provide 
        adequate safety oversight.

    As we continue our on-going work, we will further assess the extent 
to which FRA is incorporating these existing and emerging challenges 
into its safety oversight framework.
Most Railroads Report They Will Miss the 2015 PTC Implementation 
        Deadline Due to a Number of Challenges
    Our work to date indicates that most railroads will not complete 
PTC implementation by the 2015 deadline due to numerous, interrelated 
challenges caused by the breadth and complexity of PTC.\15\ Of the four 
major freight railroads we included in our review,\16\ only one 
railroad expects to meet the 2015 deadline. Of the three remaining 
freight railroads we spoke to, representatives believe they will likely 
not have PTC fully implemented until 2017 or later. Commuter railroads, 
which primarily operate on routes that are owned and managed by freight 
railroads, generally must wait for freight railroads and Amtrak to roll 
out their PTC systems. Our preliminary analysis indicates that freight 
and commuter railroads' inability to meet the 2015 deadline is due to a 
number of challenges.
---------------------------------------------------------------------------
    \15\ In its May 2013 report, the Association of American Railroads 
noted that most railroads would not make the deadline.
    \16\ The four major freight railroads included in our review are 
BNSF, Norfolk Southern, CSX and Union Pacific--the largest Class I 
railroads based on operating revenue.

  <bullet> Developing PTC components and PTC installation: Some PTC 
        components are still in development--most notably the PTC back-
        office server. One or more of these servers will be installed 
        in over a dozen railroads' back offices and are needed to 
        communicate vital information between the back office, 
        locomotives, and waysides. According to the Association of 
        American Railroads (AAR) and the railroads, back office system 
        delays are due to system complexity, interfaces to other 
        systems, and lack of supplier resources. Nearly all of the 
        freight railroads included in our review anticipate they will 
        not have a final version of the back office system until 2014 
        and have identified it as one of the significant factors 
        preventing them from meeting the deadline. In addition, PTC 
        installation is a time-and resource-consuming process. For 
        example, railroads collectively will have to install 
        approximately 38,000 wayside interface units.\17\ According to 
        AAR and freight railroads, the volume and complexity of 
        installing these units is another significant reason most 
        railroads cannot meet the 2015 deadline. Our ongoing work has 
        found that railroads have also encountered unexpected delays 
        while installing PTC. For example, in May 2013, FRA officials 
        told us the Federal Communications Commission (FCC) recently 
        requested railroads to halt their construction of radio 
        antennae towers to allow FCC to clarify regulatory oversight of 
        the towers being installed for PTC.\18\ According to FRA 
        officials, FCC halted the construction of these towers to 
        ensure proper installation procedures were being followed 
        including consulting with either the tribal or state historical 
        authorities prior to the towers construction and installation. 
        FRA officials told us they did not anticipate this issue but 
        are working with FCC to resolve it as quickly as possible. 
        However, the impact of halting construction on the towers may 
        result in additional delays in railroads' time frames.
---------------------------------------------------------------------------
    \17\ Wayside interface units receive information from signals and 
in turn communicate signal aspect information to the locomotive 
directly or through railroads' back offices.
    \18\ According to the FCC website, new tower construction must go 
through an FCC approval process and also a three stage review process 
depending on its location which includes: 1) environmental impact 
review, 2) state historical impact review, and 3) tribal land impact 
review. FCC notifies federally recognized tribes, Native Hawaiian 
Organizations, and State Historic Preservation Officers of proposed 
communications towers and allows these organizations to respond 
directly to the companies about their concerns.

  <bullet> System integration and field testing: Our work to date 
        indicates that successful PTC implementation involves several 
        components working together, many of which are first-generation 
        technologies being designed and developed. All components must 
        function both independently and together, or the PTC system 
        could fail. To ensure successful integration, multiple testing 
        phases must be conducted by the railroads--first in a lab 
        environment, then in the field--before components are installed 
        across the network. Most of the freight railroads we spoke with 
        expressed concern with the reliability of PTC and emphasized 
        the importance of field testing to ensure the system performs 
        the way it is intended. Multiple phases of testing must take 
        place to identify any defects, which then must be analyzed and 
        corrected, and the system re-tested. One railroad 
        representative with whom we spoke said that the PTC system 
        components behaved differently in some field tests than in the 
        laboratory tests. Identifying the source of such problems, 
        correcting them, and re-testing could further contribute to 
---------------------------------------------------------------------------
        railroads not meeting the 2015 deadline.

  <bullet> FRA resources: Although most railroads we spoke with said 
        they have worked closely with FRA throughout the PTC 
        implementation process, some railroads cited concerns with 
        FRA's limited resources and the agency's ability to help 
        facilitate railroads' PTC implementation. Our work to date 
        indicates that these concerns were based around two activities: 
        field testing and certification. First, FRA officials must 
        verify the field testing of PTC. However, FRA reported that it 
        lacks the staffing resources to embed a dedicated FRA inspector 
        at each railroad for regular, detailed, and unfiltered 
        reporting on a railroads' PTC progress. To address the lack of 
        staff to verify field testing, FRA has taken on an audit 
        approach, whereby railroads submit field test results for 
        approval as part of their safety plans.\19\ Second, a PTC 
        system must be certified before a railroad can operate it in 
        revenue service. FRA certifies a PTC system by approving a 
        railroad's safety plan. FRA set no specific deadline for 
        railroads to submit the safety plans, and according to FRA, to 
        date only one railroad has submitted a final plan, which FRA 
        has approved. As FRA stated in its 2012 report to Congress, 
        FRA's PTC staff consists of 10 PTC specialists and 1 supervisor 
        who are responsible for the review and approval of all PTC 
        system certification documentation for 38 railroads. FRA has 
        expressed concern that railroads will submit their safety plans 
        to FRA at roughly the same time. Our initial analysis suggests 
        that this timing creates the potential that FRA's review of 
        these plans will become backlogged, since each of the 
        railroad's plans will consist of hundreds, perhaps thousands, 
        of pages of detailed technical information. FRA officials told 
        us that they are dedicated to the timely approval of safety 
        plans and that their oversight will not impede railroads from 
        meeting the deadline. However, railroads report that their time 
        frames are based on a quick turnaround from FRA; if quick 
        turnaround does not occur, it could further delay PTC 
        implementation.\20\
---------------------------------------------------------------------------
    \19\ The PTC safety plan must include information about planned 
procedures for testing the system during and after installation, as 
well as information about safety hazards and risks the system will 
address, among other requirements.
    \20\ Railroads have developed common portions of the safety plan 
and submitted drafts to FRA for preliminary review to expedite final 
review. This way FRA staff will be familiar with portions of the plan 
that are common across plans before the finalized plan is submitted.

    Based on our work to date, it appears that commuter railroads face 
these same PTC implementation challenges as well as others. First, 
because commuter railroads are generally using the PTC systems 
developed by freight railroads and Amtrak, they are captive in many 
respects to the pace of development of these entities and have few 
means to influence implementation schedules. In addition, commuter 
railroads also face challenges in funding PTC implementation due to the 
overall lack of federal, state, and local funding available to make 
investments in commuter rail. According to the American Public 
Transportation Association, PTC implementation will cost commuter 
railroads a minimum of $2 billion. Commuter railroads are non-profit, 
public operations that are funded by passenger fares and contributions 
from federal, state, and local sources. Economic challenges such as the 
recession have eroded state and local revenue sources that 
traditionally support commuter rail capital expenses, and competing 
expenses such as state of good repair upgrades, leaving the commuter 
railroads limited in their funding to implement PTC.
    Finally, commuter railroads report that obtaining radio frequency 
spectrum--essential for PTC communications--can be a lengthy and 
difficult process.\21\ The FCC has directed commuter railroads to 
secure spectrum on the secondary market.\22\ According to the FCC, 
spectrum is available in the secondary market to meet PTC needs.\23\ 
While freight railroads have secured most of the spectrum needed for 
PTC implementation, commuter railroads have reported difficulty 
acquiring spectrum in the 220 MHz band, which is required to operate 
the data radios that communicate information between PTC 
components.\24\ In particular, railroad officials have said that 
obtaining spectrum is a critical challenge in high density urban areas. 
Based on our preliminary work, without acquiring sufficient spectrum, 
railroads may be unable to adequately test their PTC systems, 
potentially causing further delays in meeting the 2015 PTC 
deadline.\25\
---------------------------------------------------------------------------
    \21\ Radio frequency spectrum is the medium for wireless 
communications and supports a vast array of commercial and governmental 
services. Commercial entities use spectrum to provide a variety of 
wireless services, including mobile voice and data, paging, broadcast 
television and radio, and satellite services.
    \22\ Secondary market policies and rules allow spectrum permit 
licensees to share their spectrum resource through spectrum lease 
arrangements. Users negotiate their own terms for sharing spectrum and 
FCC tracks these secondary market transactions. For more information on 
spectrum markets, see Spectrum Management: Incentives, Opportunities, 
and Testing Needed to Enhance Spectrum Sharing, GAO-13-7 (Washington, 
D.C.: November 2013).
    \23\ Presentation to the National Transportation Safety Board. 
``Positive Train Control: Is it on Track?'' FCC, February 27, 2013.
    \24\ Seven freight railroads (Norfolk Southern, Union Pacific, 
BNSF, CSX Transportation, Canadian National, Canadian Pacific, and 
Kansas City Southern) together comprise PTC 220 LLC, a company that 
owns spectrum licenses. According to a PTC 220 LLC representative, 
these seven freight railroads will lease spectrum from PTC 220 LLC and 
will lease spectrum to other railroads based on availability for a fee.
    \25\ Amtrak officials also report that securing spectrum has been a 
major challenge in PTC implementation for them and has led to 
implementation delays.
---------------------------------------------------------------------------
    Our work to date also indicates that by attempting to implement PTC 
by the 2015 deadline, railroads may be making choices that could 
introduce financial and operational risks to PTC implementation. 
Representatives from freight railroads and FRA told us railroads will 
not compromise the safety functions of the PTC system and will ensure 
that PTC is implemented meeting RSIA requirements. However, freight 
railroad representatives also told us that they compressed time frames 
and undertook processes in parallel rather than sequentially--
potentially increasing the financial and operational risk of PTC 
implementation. For example, railroads took a ``double touch'' approach 
to equipping locomotives, which involves taking locomotives out of 
service twice in order to begin installation while software was being 
developed.\26\ Railroad representatives told us this approach is more 
expensive than installing the equipment once after the software is 
fully developed, as it involves more labor hours and more time that 
locomotives are offline rather than in operation. In addition, 
representatives from all freight railroads we spoke to expressed 
concern regarding the reliability of PTC and noted the importance of 
field testing as much as necessary to identify and correct problems. 
These representatives noted that without adequate testing, PTC systems 
could potentially malfunction or fail more frequently, causing system 
disruptions. FRA officials also expressed concern that if pressured to 
meet the 2015 deadline, railroads may rush through field testing and 
potentially implement a PTC system that is not entirely reliable 
leading to operational inefficiencies through slower trains or 
congestion.
---------------------------------------------------------------------------
    \26\ ``Double touch'' installation refers to partially installing 
groundwork equipment on thousands of locomotives, which will later need 
to be taken out of service to install the remaining equipment.
---------------------------------------------------------------------------
    In its August 2012 report to Congress, FRA identified areas for 
consideration in the event that Congress chooses to amend RSIA. 
Specifically, FRA requested the authority to extend the deadline for 
certain rail lines, grant provisional certification of PTC systems and 
approve the use of alternative safety technologies in lieu of PTC.\27\ 
FRA officials told us these authorities could enable them to conduct 
oversight more effectively by acknowledging the current state of PTC 
implementation and better manage FRA's limited resources. Although to 
date there are few details on how these authorities would be applied, 
according to FRA officials, these authorities could assist in better 
managing resources allowing the agency to oversee and manage PTC 
implementation past the current deadline of December 31, 2015.
---------------------------------------------------------------------------
    \27\ According to FRA, this would allow a railroad to apply for 
provisional certification to operate a PTC system pending final 
submission, review, and approval of the railroad's safety plan by FRA.
---------------------------------------------------------------------------
    Based on our preliminary work, it appears unlikely that PTC will be 
implemented by more than a few railroads by the December 31, 2015, 
deadline. As we have discussed, PTC implementation is a massive, 
complex, and expensive undertaking--with valid challenges to meeting 
the deadline. However, although most railroads will not meet the PTC 
deadline, it does not necessarily suggest that they have not made a 
concerted effort to make progress in the implementation of PTC. 
Railroads and FRA both report continuing to search for ways to speed 
progress while maintaining safe rail operations in order to achieve 
complete deployment as soon as possible. Nonetheless, given the state 
of PTC technology and the myriad of PTC components that are required to 
work seamlessly in order for PTC to work reliably, concerns regarding 
the potential risks railroads may be taking in attempting to meet the 
deadline should be considered. Accordingly, FRA has requested 
authorities that could provide railroads the flexibility they need to 
successfully implement PTC.
    Chairman Blumenthal, Ranking Member Blunt, and Members of the 
Committee, this concludes my prepared remarks. I am happy to respond to 
any questions that you may have at this time.

    Senator Blumenthal. Thank you, Ms. Fleming, for calling 
attention to the array of potential dangers, in terms of rail 
safety, and, in particular, the succession problem, which is a 
major challenge for this industry. A lot of people have 
observed on it.
    And, Administrator Szabo, thank you for also highlighting 
the need to be concerned about the safety of the folks who work 
on our railroads.
    And with that in mind, let me begin by asking Chairman 
Hersman, if this shunt had been used at the time that Robert 
Luden was working in West Haven, and a rail traffic controller 
in New York returned to service the track on which he was 
working, would his life had been saved?
    Ms. Hersman. We believe if the shunt had been used 
properly, that both the controller in New York and a train 
trying to enter that track would have received an indication 
that that track block was occupied.
    Senator Blumenthal. And the train, therefore, would have 
been stopped?
    Ms. Hersman. Yes, we expect that those redundant safety 
measures could have saved that track worker's life.
    Senator Blumenthal. And that is the reason that you have 
recommended in the past that this kind of system, which by the 
way, I think costs about $200; am I right about that?
    Ms. Hersman. Yes, sir. That is correct.
    Senator Blumenthal. You have recommended that it be adopted 
by Metro-North and other railroads around the country?
    Ms. Hersman. That is right. MBTA experienced several worker 
fatalities in Woburn, Massachusetts when a shunt was not used, 
despite having shunting policies. The track was inappropriately 
released, a train entered that track, killing the track 
workers.
    Some railroads do use shunts, and we have recommended that 
all of them do it.
    Senator Blumenthal. And you have with you, do you not, the 
inspection report that was done on May 15, 2 days before the 
May 17 collision?
    Ms. Hersman. Yes, sir, I do.
    Senator Blumenthal. I would like to ask you to submit your 
copy for the record. You were very kind in providing me with a 
copy.
    And if there is no objection, I will ask that it be made a 
part of the record.
    [The information requested follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Blumenthal. Chairman Hersman, as you look at this 
report, calling your attention to the line that you pointed out 
to me yesterday when we discussed it, that makes reference to 
track 4, catenary 734, could you read that, so folks here can 
know what it says exactly?
    Ms. Hersman. There is a handwritten notation on this page, 
under insulated joints, frogs and switches, that says ``track 
4, catenary 734, insulated joint, hanging ties, pumping under 
load.''
    Senator Blumenthal. And if I understand correctly, I am 
going to try to put it in layman's terms, essentially, the tie 
was insufficiently supported. And, therefore, the track was 
unstable, so that the joint linking the two tracks at their 
connection was weakened by repeated travel over the track. And 
very likely, the cause of the derailment was eventually the 
splitting of that rail, when the joint failed to work properly. 
Is that correct?
    Ms. Hersman. The joint joins two separate sections of rail 
that are already separate. It is the joint bars that join those 
two sections of track. The hanging ties indicates that the rail 
and the ties were unsupported underneath, with insufficient 
ballast. And that concern, when they saw loads going over that 
section of track, the pumping that they describe, is that 
flexing that is occurring at the joint over and over again as 
the train wheels pass over that section of track, creating, 
certainly, a risk area and unstable condition.
    The NTSB identified the point of derailment at that 
location. We are examining those fractured joint bars in the 
rail in our lab now.
    Senator Blumenthal. So if I said to you, my view is that 
this defect caused the derailment, you wouldn't disagree with 
me, would you?
    Ms. Hersman. At the NTSB, we conduct a very thorough 
investigation, and we ensure that we gather all of the facts 
before we reach any conclusions.
    Yesterday, the NTSB held a Board Meeting on an accident 
that occurred in Oklahoma about one year ago, and this 
investigation contained facts relevant to the probable cause 
that were not revealed until months into the investigation.
    When we first went on scene in this investigation, we knew 
a crew had run a red signal, but we did not know why. When we 
looked at their medical records, they had passed the required 
vision and hearing tests, but we dug deeper to see if there was 
something else that we should understand about this.
    We issued requests for his medical records, and we found 
that this engineer, in the 33 months prior to the accident, had 
12 procedures on his eyes and over 50 visits to eye care 
providers. We did not get that from U.P. in the beginning of 
the investigation. But about halfway through from his 
optometrist, ophthalmologist, and physician, we were able to 
get this.
    We had a locomotive engineer who was colorblind and whose 
visual acuity would not pass the tests. He could not see the 
signals.
    Two years before the crash, he had told his eye doctors 
that he could not see train signals.
    In the end, our probable cause for that accident was based 
on his inability to see those signals. But we also defined, in 
our investigation, that the vision testing standards that 
currently exist, testing vision and hearing every 3 years, are 
not adequate. They are not consistent with what we see in the 
medical standards required for pilots, for mariners, and for 
truck drivers. We recommended changes that we would like to see 
the FRA and the railroads make.
    Our investigations do take a long time before we reach a 
probable cause, but the parties involved in an investigation 
can take action at any time to address safety issues.
    Metro-North and FRA can move immediately on the things we 
are finding today, and the NTSB can issue urgent 
recommendations, as we did in the West Haven accident.
    Senator Blumenthal. Don't you think your report and final 
conclusions ought to be done more quickly than 18 months after 
the May 17 and May 27 accidents?
    Ms. Hersman. Senator, I absolutely believe that we would 
like to have them done sooner. The reality is that, due to our 
workload, we simply cannot complete everything.
    I know you have two accidents. Senator Blunt, you have one 
that we are investigating.
    We have about 20 investigators in our rail pipeline and 
hazardous materials division, and they are handling 11 
concurrent rail accidents. Some of those investigators traveled 
straight from one accident site last month to another. They are 
handling multiple investigations at the same time.
    Our work requires us to take a look at a lot of different 
factors and really develop comprehensive solutions.
    Through our party process, we do make sure that people have 
information to act on quickly. Metro-North and FRA are parties 
to the investigation, and they can act on safety issues at any 
time.
    Just last week, I met with Metro-North. They are working to 
address over 200 of those joints on their property during the 
summer, to put them in a better state of safety.
    These improvements should take place immediately, and we 
support parties taking those actions.
    Senator Blumenthal. I am going to turn to Senator Blunt.
    Senator Blunt. Thank you, Senator Blumenthal.
    Mr. Szabo, Ms. Fleming said that on positive train control, 
if I heard her comments correctly, and I guess I could have 
checked the testimony, but I didn't, I think as I made notes 
here that PTC components were not available at this point, that 
field testing had not been done yet in an adequate way, that 
you had limited capacity to review what was happening, and the 
frequency to communicate had not been obtained yet. I guess I 
have a couple questions. One is, what have I left out of that 
list? And two is, do you think, based on those factors, it is 
workable to get there industrywide by 2015?
    Mr. Szabo. If you go back and take a look at the report 
that we provided to Congress last fall, it really articulates 
the range of challenges that the industry has in meeting full 
PTC deployment by December 31, 2015.
    And I think that is the key word there, full deployment. We 
absolutely believe that partial deployment can and will be 
achieved. But between the availability of spectrum; the 
availability of radios; the ability to get the technology 
necessary to set up back offices; the fact that the entire 
industry, as well as my agency sometimes, are competing for a 
very limited pool of expertise in implementing, there is no 
question that there are challenges that are going to be a 
roadblock to full deployment.
    I think Chairwoman Hersman said it well, that should 
Congress consider an extension? What we recommended in our 
report was that FRA be given limited flexibility to, in 
essence, extend on a case-by-case basis. It should not be a 
blanket extension.
    We really have to find this appropriate balance between 
keeping feet to the fire for expeditious implementation while 
also making sure that we allow the appropriate amount of time 
to ensure that it is done safely and reliably. And that is the 
challenge.
    And so we would like to have the ability to actually weigh 
that due diligence. Actually, the terms that the chairwoman 
used was accountability for actions or the lack of actions on 
implementation, to actually be able to measure that as we 
determine what type of extension might be necessary on a case-
by-case basis.
    Senator Blunt. But your view is that case-by-case extension 
made by your agency would be what you would prefer to see 
happen?
    Mr. Szabo. You know, again, it is part of ensuring that 
balance between timely implementation while also making sure 
that it is done safely and reliably.
    Senator Blunt. Do you have an estimate of cost of what this 
system--some of the notes I have here is over $10 billion, some 
say $12 billion. What is your----
    Mr. Szabo. I can provide it to you for the record, but you 
are in the right range. It is a significant cost. It presents a 
challenge for the commuter industry.
    Senator Blunt. Have you had any discussions with the 
Federal Communications Commission about this, the spectrum, and 
the permitting? And how would you characterize those 
discussions?
    Mr. Szabo. Yes, we have been having conversations with FCC 
on both of those, spectrum availability as well as the need to 
find a much better approach to siting these antennas.
    I would call the conversation on spectrum availability 
considerably more of a challenge. FCC is conflicted in their 
mandate between the need to ensure resources are used 
efficiently, government resources used efficiently, and the 
need, from their perspective, to not give it away, vs. what we 
believe is a legitimate public safety issue, in particular for 
the commuter agencies and public agencies.
    I think the conversations relative to siting the antennas 
are in a much better place, that there is a clear recognition 
now of the urgency of finding an alternative means, given the 
fact that there are some 22,000 antennas that need to be sited, 
and FCC's traditional process sites about 2,000 a year.
    And, in particular, given that the vast majority of these, 
better than 95 percent, I believe, by one estimate, are just 
stick antennas that have minimal obstruction, minimal 
environmental impact, that perhaps we can find a way to be much 
more expeditious in siting those as we work through an 
alternative approach on the bigger antennas that may have some 
environmental issues.
    Senator Blunt. Ms. Hersman, this is just to clarify for me, 
you mentioned I think one head-on collision where a train 
derailed, and 20 seconds later, another train hit it.
    Do I have that 20 seconds right?
    Ms. Hersman. Actually, in that one, there was a train that 
derailed, and it was struck by another train that was on a 
different track from the train that derailed.
    Senator Blunt. Headed in the opposite direction on a 
different track that they would have passed, right?
    Ms. Hersman. That is right. If the train had been upright, 
they would have passed each other. But the train was not 
upright and was fouling the track area, as the other train was 
passing through.
    Senator Blunt. I am just assuming that no system could 
totally prevent that, that you are going to have trains that 
pass each other in opposite directions, and at some second 
interval, no system is going to stop a train from derailing 
that does not get hit by the train that is approaching it? I am 
not sure how many seconds that would be, but 20--no system 
prevents that.
    But train maintenance, track maintenance, and other things 
go a long way toward anticipating it, and equipment 
maintenance. But not a system, am I right, in thinking that?
    Ms. Hersman. Absolutely. Attention to track and a 
maintenance could have prevented the initial derailment. This 
is not an accident that would have been prevented by positive 
train control. But I will tell you that the engineer on the 
oncoming train saved a lot of lives. He threw the train into 
emergency and was able to get it slowed down to 23 mph when the 
collision occurred.
    Senator Blumenthal saw firsthand the incredible damage, 
even at 23 mph. There would have been much more damage and 
potential lives lost if the train had not been slowed.
    Human beings are still very good at making decisions in 
unusual situations. And in this case, the engineer could see 
the threat ahead and stop the train.
    Senator Blunt. Right, but nothing in positive train control 
would stop----
    Ms. Hersman. No, sir, this was not----
    Senator Blunt.--trains from passing each other on opposite 
tracks at the same time, obviously, or you would not have a 
system that worked.
    Ms. Hersman. Right. That is true.
    Senator Blunt. You said in your testimony that some rail 
operators have already complied, or will have complied by 2015. 
You want to tell me what you are saying there?
    Ms. Hersman. Yes. We held a forum in February about the 
status of positive train control implementation. We heard from 
a number of witnesses. We asked the FRA who they thought would 
comply by the 2015 deadline. We were told that four operators 
would likely meet the 2015 deadline: Amtrak, Metrolink, Alaska 
Railroad and BNSF freight line.
    Senator Blunt. So, Ms. Fleming, in the case of all the sort 
of obstacles, there would be ways around all those obstacles 
for at least some people by 2015? The equipment availability, 
the testing, the FRA capacity, you think there is a way around 
that?
    Ms. Fleming. I think that Metrolink and BNSF are unique 
examples, in the sense that because of the accident, they were 
able to hit the ground running. BNSF has been using and testing 
PTC for decades, and so they have been on the forefront of 
that. Metrolink, right after the accident, really moved forward 
on that.
    And one or both of them basically is not waiting for the 
first generation back-office server and is in fact purchasing 
their own and doing things a little bit differently than some 
of the other railroads are. So they have made a conscious 
effort to put the money into it.
    Amtrak, it's our understanding that they will be in 
compliance with Michigan and the Northeast corridor, but they 
do not have the financial resources to actually equip their 
locomotives. So again, that is more of a partial 2015 
implementation.
    Senator Blunt. Thank you. I will probably have more 
questions for the record.
    Thank you, Chairman.
    Senator Blumenthal. We can also do a second round, a brief 
second round of questions, for this panel, because it is a very 
important panel.
    I'm going to call on Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Szabo, the FRA, do you do Pareto analysis, Pareto 
charts, on the causation? Or maybe NTSB, do you do that 
analysis of what is the primary cause of these accidents?
    Mr. Szabo. We do very deep root-cause analysis. In fact, if 
you take a look at the 43 percent reduction in accidents we 
have had over the past decade, it has been by aggressively 
using the data, the accident data that is available, to be much 
more strategic in coming up with our solutions.
    Senator Johnson. Can you tell us the top five categories of 
causes of rail accidents?
    Mr. Szabo. From the broadest standpoint, the number one 
risk area would be human factors. Second would be track-caused. 
And combined, those two probably are the chief causation for 
about 72 percent of all railroad accidents.
    So, so much of our efforts over the last 5 years have been 
on drilling down on human factors and track causation, because 
we believe that gives us the biggest opportunity for continuous 
safety improvement.
    Senator Johnson. I have heard the word resources used a 
couple times. I believe Ms. Fleming said limited resources, 
which is true.
    Does anybody have the information in terms of how much 
capital expenditure per year is available to the industry? How 
much do they spend on capital improvements?
    Mr. Szabo. We can get you that for the record. Perhaps Ed 
Hamberger on the second panel would be able to address that for 
the class I railroads, for the private railroads. And certainly 
we can get it to you for Amtrak and try to get it on the 
commuter railroads. But it is substantial.
    Senator Johnson. OK. There was an interesting article, a 
column written by George Will on May 31, 2013 I would like to 
enter into the record.
    [The information requested follows:]

                  ``A mandate that is off the rails''

                           By George F. Will

    WASHINGTON--Texting while driving is dangerous, especially if you 
are driving a train. A commuter train engineer was texting on Sept. 12, 
2008, near Los Angeles, when he missed a stop signal and crashed into a 
freight train. Twenty-five people died.
    Congress supposedly is incapable of acting quickly, and we are 
supposed to regret this. In 2008, however, Congress acted with 
dispatch. We should regret that it did. Herewith another lesson about 
the costs of the regulatory state, especially when it is excited, eager 
to make a gesture, and propelled by an uninformed consensus.
    On Jan. 6, 2005, nine people had been killed in Graniteville, S.C., 
by chlorine gas leaking from a derailed freight train, but Congress did 
not spring into action. In 2008, however, California's 53-person 
congressional delegation was 12 percent of the House, and 24 percent of 
a House majority. So in less than a month after the commuter train 
collision, Congress, with scant opposition from railroads, and without 
meaningful cost-benefit analyses, passed legislation requiring most 
railroads to implement, by 2015, Positive Train Control (PTC), a 
technology to stop trains by overriding some human mistakes.
    So far, railroads have spent more than $2.7 billion on a system 
estimated to cost $10 billion to $14 billion--plus perhaps $1 billion 
in annual maintenance. PTC has not been installed, partly because it is 
not sufficiently developed. CSX Corp., which includes railroads among 
its assets, says the railroad industry is the Nation's most capital-
intensive--and the $11 billion combined capital investments of all U.S. 
railroads in 2010 were approximately equal to the cost of PTC. The 2015 
mandate will not be met.
    The Federal Railroad Administration estimates that were PTC to be 
installed on thousands of locomotives and tens of thousands of miles of 
track, it would prevent perhaps 2 percent of the approximately 2,000 
collisions and derailments, preventing seven deaths and 22 injuries 
annually. But because a dollar spent on X cannot be spent on Y, the PTC 
mandate must mean the sacrifice of other investments crucial to 
railroad safety (and efficiency).
    Before returning to Harvard Law School, Cass Sunstein was Barack 
Obama's administrator of the Office of Information and Regulatory 
Affairs, measuring the benefits of regulations against their costs. 
Testifying to a House subcommittee on Jan. 26, 2011, Sunstein was asked 
if he could identify an administration regulation whose ``benefits have 
not justified the cost.'' He replied:

        ``There is only one big one that comes to mind. It is called 
        Positive Train Control, and it is a statutory requirement, and 
        the Department of Transportation had to issue it as a matter of 
        law even though the monetizable benefits are lower than the 
        monetizable costs. There aren't a lot like that.''

    Concerning Sunstein's sanguine conclusion, skepticism is permitted. 
Wayne Crews of the Competitive Enterprise Institute has recently 
published his ``Ten Thousand Commandments: An Annual Snapshot of the 
Federal Regulatory State.'' This year's 20th-anniversary edition notes 
that regulation, the ``hidden tax,'' costs almost $2 trillion not 
counted among the official Federal outlays. Using mostly government 
data, Crews concludes:

        The cost of regulations ($1.806 trillion) is now more than half 
        the size of the Federal budget and 11.6 percent of GDP. This 
        costs $14,768 per U.S. household, equal to 23 percent of the 
        average household income of $63,685. Regulatory compliance 
        costs exceed the combined sum of income taxes paid by 
        corporations ($237 billion) and individuals ($1.165 trillion). 
        Then add $61 billion in on-budget spending by agencies that 
        administer regulations.

    Crews' ``Anti-Democracy Index'' measures ``the ratio of regulations 
issued by agencies relative to laws passed by Congress.'' In 2012, the 
index was 29, meaning that 29 times more regulations were issued by 
agencies than there were laws passed by Congress. ``This disparity,'' 
Crews writes, ``highlights a substantial delegation of lawmaking power 
to unelected agency officials.''
    Congress relishes such delegation of lawmaking because 
responsibility is time-consuming and potentially hazardous politically. 
Hence the Senate refuses to pass legislation the House passed in 2011 
to require Congress to vote approval of any ``major'' regulation, 
defined as any with an economic impact of $100 million or more. If 
Congress were more clearly responsible for burdening the economy with 
such regulations, it would be less likely to pass them as sincerity 
gestures.
    Internal Revenue Service misbehavior in the regulation of political 
advocacy, combined with the imminent expansion of the IRS to enable it 
to administer the coercions that are Obamacare, is sensitizing 
Americans to some of the costs of the regulatory state. There are many 
others, hidden but huge.

George Will's e-mail address is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7512101a071210021c1919350214061d051a06015b161a185b">[email&#160;protected]</a>

    Senator Blumenthal. Without objection.
    Senator Johnson. He is talking about positive train 
control. The number he is using is that so far the railroads 
have spent about $2.7 billion on it. They are estimating 
somewhere between $10 billion and $14 billion of CapEx, about 
$1 billion per year in annual maintenance. He is listing that, 
in 2010, the total capital investment of the railroads is about 
$11 billion.
    He is also, in this article, saying that Cass Sunstein, who 
was the former administrator of the Office of Information and 
Regulatory Affairs, when he was testifying before Congress, 
talked about positive train control in this way, he said that 
it is a statutory requirement of the Department of 
Transportation issued as a matter of law, even though monetized 
benefits are lower than monetized costs. He said there are not 
a lot like that.
    So, I guess, with limited resources, I guess I just kind of 
want to get your evaluation, as much as we all love the concept 
of that, are we devoting too many resources, and are we 
imposing that too quickly? I mean, earlier in the column, he 
said this was really passed a month after a train accident in 
California, very rapid response by Congress.
    Did we think that thing through well enough? And are we 
really demanding the railroads put too much money toward this 
one, again, potentially lifesaving and very wonderful 
technology, but is that at the expense of other potentially 
more beneficial technologies or capital expenditures on other 
safety areas?
    Mr. Szabo. There is no question that PTC is a game changer 
in safety for the industry.
    When I talk about human factors being the number one 
causation for roughly 40 percent of all railroad accidents, 
that is exactly what PTC is designed to prevent.
    And so we have to recognize the tremendous safety benefits. 
It will, without question, drive down accident rates and lead 
to that continuous safety improvement. But we also have to be 
smart about how we implement it.
    And that is why we are looking to see it implemented as 
expeditiously as possible while ensuring that it is done safely 
and reliably.
    There is a balancing act here, Senator, and we have to make 
sure that we achieve it, that if we force deployment without 
having the chance to work the kinks out, we do run the risk of 
actually making the industry, on a short-term basis, less safe, 
as well as gumming up capacity.
    And so there is a lot that has to be balanced to make sure 
that it is done right, while also being done expeditiously.
    Senator Johnson. Do you disagree with Cass Sunstein's 
characterization that the monetized benefits are lower than the 
monetized costs?
    Mr. Szabo. No, he has the actual figures there. But again, 
this was a congressional mandate. So our job was to implement 
what Congress required of us, and do it in the most cost-
effective way possible.
    Senator Johnson. So again, you are not disputing the fact 
that this is going to cost more than the benefit, which is not 
a real good sign for Federal regulation.
    And the problem with that is that it is going to cost 
money, it's going to spend limited resources that may be spent 
better elsewhere. That is my question.
    Mr. Szabo. I do not dispute the numbers that are in the 
calculation there. They are our numbers. My economists came up 
with those numbers.
    But I will also say, in regulations of this nature, there 
are always benefits we believe that are not adequately 
measured.
    Let's not dismiss the game-changing impact PTC can have on 
railroads.
    Senator Johnson. Again, I am always concerned about 
unintended consequences. And the unintended consequence I am 
concerned about here is money spent on PTC not getting very 
good bang for the buck, relatively. Could that money be spent 
better elsewhere?
    That is really what I was talking about with the Pareto 
analysis, in terms of directing those dollars spent in 
different areas.
    I am just asking, what other areas would we be spending 
that money on, had you not been directed by Congress to spend 
it in PTC?
    Do you understand the question? I will open it up to 
anybody who would like to respond to that. Are there other 
areas that the industry would rather spend the money on to 
improve safety that might be more effective, that might 
actually have a better benefit than the cost?
    Mr. Szabo. I think the question would be better answered by 
the industry. But certainly, from our perspective, driving down 
human factors has to be first and foremost in our minds from a 
safety regime.
    Senator Johnson. Ms. Hersman, do you have anything to add 
to that?
    Ms. Hersman. Well, I would certainly defer to the industry 
to share what they would invest in otherwise.
    But I will say this is a technology that we have 
recommended since the 1970s. It is a technology that the 
Federal Government has been funding through pilot programs for 
decades. And we know that there will be more accidents that PTC 
would prevent.
    We are investigating accidents right now that could have 
been prevented by PTC.
    PTC prevents the most catastrophic accidents, the ones 
where you have loss of life. And yes, you are right, I think 
the last straw that finally triggered congressional action was 
the Metrolink accident that killed 25 in Southern California. 
We had a texting locomotive engineer who ran a red signal. It 
was a PTC preventable accident.
    But we also would like to see PTC prevent accidents that 
result in major hazmat releases and evacuations from 
communities, and the things that are the most catastrophic. We 
know that PTC is the solution to these catastrophic accidents. 
It is expensive, but it is important.
    Senator Johnson. Could you just name the one area that you 
might spend money on next then? If this is number one, what 
would be the number two?
    Ms. Hersman. I would agree with Administrator Szabo. When I 
look at the 11 investigations that we have ongoing right now, 
they basically break down into human factors and track.
    And so improving rail infrastructure, that is also an issue 
that the NTSB has focused on. We have 10 items on our most 
wanted list of transportation safety improvements. PTC is one 
of them, but so is maintaining the integrity of our nation's 
infrastructure.
    Senator Johnson. Thank you.
    Ms. Fleming. May I add a comment?
    Senator Johnson. Sure.
    Ms. Fleming. I think one thing that we are not talking 
about here is reducing highway rail grade crossing and 
trespasser accidents. And actually, if you look at that, it has 
obviously gone down as well, but it is actually a higher 
percentage of overall accidents and fatalities. And it is 
something that is difficult to address, but it really involves 
working with multiple stakeholders. But it is something that 
really has to be tackled.
    So I think when you think of rail safety, you have to 
really address it on a number of fronts.
    Technology, I think, PTC is very promising. Our point is 
that it has to be installed in a way that ensures that the 
system functions as intended and is reliable. Our work has 
shown that there are a number of interrelated challenges that 
also pose risk and should be considered.
    And I think other things, other technologies hold promise 
as well.
    So from our perspective, we can't overlook reducing highway 
rail grade crossings and trespasser accidents, and really make 
sure that PTC is ready for prime time.
    Senator Johnson. Can I just ask, what makes for the most 
dangerous rail crossing? Is it just traffic flow? Is there one 
big cause there?
    Ms. Fleming. I would probably defer to Administrator Szabo 
or Ms. Hersman. But I think, obviously, if you have a high 
traffic area, that certainly poses a risk. But I am probably 
not the best person to answer that.
    Mr. Szabo. I do not know if there is one definitive risk 
that drives grade crossing accidents. I mean, more than 50 
percent of them occur at grade crossings that are fully 
protected with gates and flashing lights and bells.
    Really, we are trying to advance the position that the 
safest grade crossing is one that does not exist at all. And we 
really need to take a look at a more systematic approach. We 
proposed in our budget proposal eliminating grade crossings, 
strategic placement of overpasses and underpasses. And this 
advances safety for the rail network, for vehicles, for 
pedestrians, and improves the fluidity of traffic for all of 
the above also.
    But the fundamentals in grade crossing safety come back to 
three Es: education, enforcement, and engineering. And so we 
need to continue to engineer improvements. We need to continue 
to work with local communities to enforce the laws that are in 
place. And we need to continue to work with educating drivers 
to not put themselves at risk by illegally trespassing through 
a crossing.
    Senator Johnson. Thank you very much.
    Senator Blumenthal. Thank you, Senator Johnson.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. In talking about PTC, and I know that 
before I arrived, you discussed it with Senator Blunt, about a 
case-by-case basis extension. To quote you in your last answer, 
you said that we have to be careful that we do not make it less 
safe and gumming up capacity.
    Aren't you a little bit worried that, rather than just 
biting the bullet and acknowledging that we are not going to be 
ready to roll this out in a way that is sound and safe and 
universal, that you are going to get a piecemeal approach that 
could do exactly what you indicated you are worried about 
doing, which is making it less safe and gumming up capacity?
    Mr. Szabo. Senator, obviously, we have responsibility to 
ensure that does not happen. Believe me, a lot of people are 
doing a lot of good work in making significant progress.
    And so the approach that we are proposing is to make sure 
that we find that right balance between ensuring that good 
progress continues to be made, that people are making that 
legitimate effort while also recognizing the challenges that 
are there, the risk to not getting it right, and making sure 
that the appropriate amount of time is provided for those 
tweaks that are necessary to ensure we get it right.
    Senator McCaskill. I think I kind of get it. You want and 
not let----
    Mr. Szabo. There cannot be a full ride.
    Senator McCaskill. You don't want to let the pressure off 
of getting this done.
    Mr. Szabo. Right.
    Senator McCaskill. I get that. You want to ``hold their 
feet to the fire'' to push. But my sense is that everyone is 
really working on this and trying to make this happen. And this 
is just one of those areas, we see it with available technology 
and capacity in many other areas that the Federal Government 
tries to influence in terms of rules and regulations.
    Do you get a sense that anybody is dragging their feet on 
this?
    Mr. Szabo. For the most part, I think the effort is there, 
in that due diligence is being applied. But we need to make 
sure that we do not create an environment where people feel 
that there is a free out, and that that effort can be reduced.
    Senator McCaskill. Well, I hope that you can do that in a 
way that does not lead to this case-by-case basis. Because 
first of all, case-by-case basis, whenever you do a case-by-
case basis with the Federal Government, you are talking about 
something that is hard on its face, because that means each 
individual company has to figure out the Rubik's cube of how do 
they get the extension. And the amount of time, energy, and 
resources that goes into figuring that out, when if a really 
thorough look at the efforts that are being made and the 
timetable that is reasonable would indicate that maybe 2015 is 
not the right moment in time to say everybody has to be 
compliant, maybe it is 2016, but with maybe some way you can 
have a--forcing them to show you, which I think they are doing 
now. Aren't they showing you the progress as it goes along?
    Mr. Szabo. Well, they have implementation plans, which we 
have reviewed and approved. But actually, we do believe that we 
can very systematically achieve this case-by-case approach that 
we are talking about by working with each one of the carriers 
on the amendments to their implementation plan. Since each one 
has already had to develop one now, all right, let's go back 
and do the assessment of where they are at, what are the very 
specific challenges that each railroad is facing, because while 
many of them are the same, some are different. And then work 
with them to make an amendment in each case to their 
implementation plans, and manage it accordingly.
    Senator McCaskill. Well, I think we obviously need to 
continue oversight in that way. And if you manage case-by-case 
basis without any byzantine bureaucratic problems, then we have 
got to somehow lift you up and celebrate you in this town, 
because I am not sure that a case-by-case basis is music to the 
ears of anybody who is regulated by the Federal Government. So 
hopefully we can accomplish that.
    I would also like to talk about the train horn rule. I 
promised one of my colleagues who is not on this committee that 
has strong feelings about this, Senator Bennet from Colorado, 
that I would inquire about this.
    I know that there is a workaround for communities for quiet 
zones, but can you talk a little bit about the flexibility on 
those workarounds and whether or not we have embraced 
sufficient flexibility where we obviously are protecting 
safety, but obviously the horn thing is a huge problem for many 
communities that are ``bedroom communities.''
    And what is being required of them in terms of a 
workaround, I think, in some instances may be slightly too 
onerous, but I am certainly willing and open to hear your views 
on it.
    Mr. Szabo. No, thank you for that question, because it is a 
great one. And as I said at the opening, I would like to remind 
you, I am a former mayor of what was a railroad community, two 
major rail yards, five railroads slicing through town. So I 
have lived both as a citizen as well as a municipal leader 
these challenges on a daily basis.
    We are open to the utmost, highest level of flexibility, 
provided that an equivalent level of safety can be achieved. 
And that is the goal. That is all we need, is that good science 
be applied to show that whatever creative approach a community 
is choosing to use will generate an equivalent or superior 
level of safety.
    There is no question, if you take a look at the statistics, 
that the whistleblower regulation has worked, how significantly 
grade crossing accidents have come down since my agency 
implemented that regulation about a decade ago.
    So we are here today talking about a tragic grade crossing 
accident in Baltimore. So we need to make sure that, you bet, 
we will provide flexibility. Our goal is to be performance-
based in our approach to safety. What we care about is the 
outcome, not telling you that you must do it this one and only 
way.
    Senator McCaskill. OK, thank you very much.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Mr. Chairman, thank you for holding the 
hearing today. We are here because we have had a lot of rail 
accidents of late, and that has brought additional attention to 
the importance of rail safety. And I want to thank our 
witnesses, both this panel and the one to follow, for coming 
today to tell us about some of the lessons we can learn from 
these accidents.
    I think it is important to look at the overall context of 
the rail industry over a long period of time. If you look since 
the passage of Staggers back in 1980, where the industry was 
partially deregulated, the train accident rate has fallen by 76 
percent. So there has been a lot of progress made, a lot of 
gains made.
    The railroads also last year invested $25 billion--I think 
somebody was asking a question earlier--in capital 
improvements. These are investments that help keep the railroad 
system safe, and ensure the efficient movement of freight 
throughout our country, which is something that many of us who 
represent states who are dependent upon railroads to move 
freight are very interested in.
    And I think it is important that we, as a Congress, be 
careful not to impose undue regulation on the railroad 
industry, especially if these regulations force the railroads 
to spend money that might otherwise be used for needed 
infrastructure improvements.
    I have been and continue to be especially concerned about 
the subject that my colleagues are talking about today, and 
that is the mandate that freight railroads and passenger rail 
lines install PTC technology by December of 2015. I think that 
is an overly aggressive timeline that railroads are going to 
have a very difficult time meeting for a number of reasons.
    In order to implement PTC by the date mandated, they are 
going to have to defer more pressing maintenance and 
infrastructure improvements.
    So I hope to introduce legislation in the coming weeks, 
along with others, that will reasonably extend the deadline for 
PTC implementation. I think we need to have additional 
flexibility for the railroads, if we truly want to see PTC 
systems installed in a manner that recognizes the technological 
challenges that currently exist for wide adoption and ensures 
that other necessary safety measures are not sidelined.
    So I guess I would count myself among those who have 
expressed concern about that mandate and what it is going to 
mean in terms of overall safety and the investment that could 
be made in other areas. So I appreciate the insights that you 
all are sharing with us today.
    And I guess I would like to ask, if I might, one question, 
and it has kind of been touched on in different ways today, Mr. 
Chairman. But this whole issue of case-by-case analysis vs. a 
sort of a blanket extension, there was a 5-year extension 
proposed in the House. The Senate had proposed allowing FRA to 
approve PTC extensions on a case-by-case basis.
    And, Mr. Szabo, I am interested in knowing, if the FRA were 
to consider extensions on a case-by-case basis, based on the 
technological, financial, and logistical challenges that would 
be associated with that, how long would it likely take FRA to 
consider an application and to make a decision?
    Mr. Szabo. You mean to get through our process?
    Senator Thune. Right.
    Mr. Szabo. Assuming all information was complete, we 
believe that we could have it done in 30 to 45 days.
    Senator Thune. And how much would you have to devote in 
terms of resources? Is that a resource-intensive process?
    Mr. Szabo. Well, it certainly consumes resources, but in 
our 2014 budget request, we are comfortable that we have 
requested the personnel necessary to execute our entire safety 
regime, which would include implementation of PTC.
    Senator Thune. Well, if I might just express a concern that 
has already been raised here, and that is there is not a high 
level of confidence, I would argue, right now, particularly, 
with regard to government agencies evaluating these issues on a 
case-by-case basis, which has already been alluded to. And it 
strikes me, at least, that it would make a lot more sense if we 
are talking about doing some sort of an extension for 
compliance with this, to do it in a way that recognizes that 
all the railroads are going to have to comply with that and do 
some sort of a blanket extension.
    But again, we certainly welcome your input as we consider 
that. And I think it is really important that this be done in 
the right way, because if it is not, if it is rushed, I think 
it puts, perhaps, people even at greater peril and greater 
risk.
    Mr. Szabo. Senator, ultimately, Congress acts, and we 
execute. So we will execute whatever direction Congress 
provides for us.
    And I think we are all saying the same thing, that, 
ultimately, it is about finding that right balance between 
ensuring that this is done expeditiously while also making sure 
that it is done in a safe and reliable manner.
    So I think we want the same outcome. And it is just a 
matter of working through details on how we get there.
    Senator Thune. Thank you.
    Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Thune.
    I have some additional questions, which I am going to ask 
now, as part of a brief second round, anyone else who has 
additional questions.
    But just very briefly, you are not saying, are you, 
Administrator Szabo, that you are willing to forgo or abandon 
PTC? It is just a question of timing?
    Mr. Szabo. Again, ultimately, that decision is made by 
Congress. But we believe that this is a game-changing safety 
technology. And again, if you take a look at where the biggest 
risk is in railroad accidents, it has a significant impact on 
safety for the public, as well as rail workers.
    Senator Blumenthal. And I want to bring you back, Chairman 
Hersman, to the report of December 15. As I read through this 
report, I see references to erosion of dirt, the same kind of 
weakness in ballast that almost certainly contributed to, if it 
did not cause that derailment and collision; the need for new 
ties; the need for other kinds of correction and repair on 
different parts of that track and neighboring tracks in that 
vicinity.
    Wouldn't you agree, and you spoke earlier of 
infrastructure, bringing it down to the real life, so to speak, 
isn't this a searing indictment of the quality of that track?
    Ms. Hersman. What this demonstrates is an inspection over 
30 miles of track. You have two employees riding in a high rail 
vehicle, and they are inspecting four lines, four separate 
tracks during a shift. They are identifying the defects that 
they have found.
    This is certainly indicative of what we see in our 
investigations, and I know what the FRA sees in the railway 
environment. The track environment is one that is constantly 
deteriorating. You have to maintain it. You have to be 
vigilant. You have to be on top of it. You have to identify 
these defects. You have to put them into your workplan, figure 
out how they are going to be addressed. It is important for 
them to do inspections.
    They are required to do inspections twice a week. Metro-
North told our investigators they were doing them three times a 
week.
    But yes, you are right. Here we have recorded defects that 
are similar to the one that we have identified that was near 
the point of derailment. These are all risks, and they need to 
be addressed.
    And so what we need to understand is, this is one 
inspection. The NTSB will look back at all previous 
inspections, to see if this is a chronic problem, if it was 
dealt with effectively over time, if the fixes were 
appropriate, if their prioritization was appropriate, if their 
inspection intervals were appropriate for the circumstances.
    This document tells us that they did an inspection and 
identified a number of defects. We have to understand if the 
FRA standards are adequate, or if things need to change and 
standards need to be strengthened.
    Mr. Szabo. Senator, if I may add, just one comment on that. 
To me, my bigger concern as we drill down on this is better 
understanding the safety culture that exists on the property. 
And in due time, we will determine for sure whether this was or 
was not a violation----
    Senator Blumenthal. Well, the safety culture, I do not mean 
to interrupt, but the safety culture is a somewhat vague term. 
There are FRA standards. And apparently, these defects did not 
violate those minimal standards.
    Mr. Szabo. And that is my point, Senator. That is actually 
the point I am trying to make, that we should not be 
approaching this as to whether it meets a minimal standard or 
not, but if something is identified that could cause risk, the 
culture needs to be that we immediately take the safe course of 
action.
    Senator Blumenthal. So if these were not violations of 
present FRA standards, maybe they should be?
    Mr. Szabo. That is possible. In fact, we are not willing to 
say yet that it is not a violation.
    I know NTSB has drawn that conclusion. We continue to hold 
that open.
    Senator Blumenthal. Let me----
    Ms. Hersman. Just to be clear----
    Senator Blumenthal. Yes, Chairman?
    Ms. Hersman.--this is Metro-North's position that it did 
not rise to the level of an FRA defect. If Metro-North believed 
that it had risen to the level of an FRA defect, it would have 
been noted on the front of the report that it was to be 
repaired immediately.
    The NTSB is still investigating. We are providing 
commentary on what Metro-North has presented.
    Senator Blumenthal. That is a very important point. You may 
well find that these defects violated the existing Federal 
standards.
    Mr. Szabo. That is correct.
    Senator Blumenthal. Let me just close by asking you, Mr. 
Szabo, speaking of standards and rules, my understanding is 
that the FRA missed deadlines set by law in a number of the 17 
rail safety rulemakings that were required by the FRA. In fact, 
your agency has yet to finalize nine remaining rules, that two 
out of the five compliance manuals have been completed, but 
three remain outstanding to be done, and in fact, in the final 
rules, the effective date of those rules have sometimes been 
postponed.
    Can you give us an explanation for the delays and the 
failure to meet deadlines?
    Mr. Szabo. Sure. The Rail Safety Improvement Act of 2008 
mandated FRA complete more than 40 rulemakings, major studies, 
reports. It also promised us 200 more individuals, and, 
ultimately, we were only allowed to hire 31 of those 200.
    But with more than 40 major rulemakings, reports, studies, 
we had to prioritize and try to work through them in a 
systematic order in approaching those first that we felt would 
have the most significant impact on safety, the greatest 
impact, the most immediate effect on safety.
    So obviously, positive train control was made the highest 
priority and consumed the majority of our resources.
    So we have continued to work down that list in a systematic 
manner. I look forward to completing the remaining work that is 
outstanding.
    Senator Blumenthal. Thank you. I know you do not disagree 
that meeting those Federal deadlines is important.
    Mr. Szabo. It is always important.
    Senator Blumenthal. Not just because it is the law, but it 
is important to the rail workers as well as passengers and 
businesses that depend on the reliability and safety of freight 
transportation.
    I want to thank all of this panel. I have additional 
questions that I am going to be submitting for the record. I do 
not want to keep both my colleagues and our next panel waiting, 
but I do want to just close by thanking all of the dedicated 
people who work for you in your agencies.
    I have worked, for example, with the NTSB folks who came to 
Connecticut in the wake of that collision and derailment, and I 
know how much time they put in and how promptly they responded.
    So thank you very much for your testimony, and thanks for 
the work that your agencies are doing. Thank you.
    We will follow with the next panel. Let me welcome our next 
panel, equally distinguished and important, and say to you, 
thank you for being here.
    First of all, let me introduce Ed Hamberger, who is 
President and CEO of the Association of American Railroads 
based here in Washington, D.C. Mr. Hamberger joined AAR in July 
1998. He was a Managing Partner in the office of Baker, 
Donelson, Bearman and Caldwell, and he came to that firm in 
1989 after serving as Assistant Secretary for Governmental 
Affairs at the Department of Transportation.
    He began his career in transportation in 1977 as General 
Counsel of the National Transportation Policy Study Commission. 
And in 1985, he was appointed as a member of the private sector 
advisory panel on infrastructure financing. And in 1994, he 
served as a member of the Presidential Commission on Intermodal 
Transportation. He has served on a variety of public service 
assignments. For example, he serves on a blue ribbon panel of 
transportation experts appointed by the National Surface 
Transportation Policy and Revenue Study.
    He received his juris doctorate and both master of science 
and bachelor of science in foreign service from Georgetown 
University.
    Kathryn Waters is Executive Vice President for Member 
Services at the American Public Transportation Association. She 
came to APTA in November 2007 from the Maryland Transit 
Administration in Baltimore, where she was Senior Deputy 
Administrator and responsible for all public transit operations 
departments, as well as the transit police.
    She has more than 25 years of experience in the transit and 
railroad industry, serving in positions of leadership, 
including vice president of commuter rail and railroad 
management with the Dallas Area Rapid Transit District. She 
worked for 20 years with MTA's MARC train service.
    Before joining the APTA staff, she chaired the APTA 
commuter rail committee and was Vice Chair of commuter and 
inner-city rail on APTA's executive committee. She too has been 
cited with numerous industry awards and recognition.
    And we welcome you here, Ms. Waters.
    Mr. James Stem is National Legislative Director of the 
transportation division, International Association of Sheet 
Metal Air, Rail, and Transportation Workers. His railroad 
career began in 1966 as a trainman for the Seaboard Air Line 
Railroad in Raleigh, and he joined the Brotherhood of Railroad 
Trainmen. He has worked as a trainman, switchman, hostler, 
helper, fireman, locomotive engineer, and he currently holds 
seniority as a locomotive engineer on CSX between Richmond, 
Virginia, and Abbeville, South Carolina.
    He became interested in the union movement and became 
active in Local 1129 in Raleigh. He worked part-time as a 
special UTU organizer from 1973 through 1976, and was elected 
Secretary-Treasurer of Local 1129 in 1975. He also held the 
elected position of local Chairman and Legislative 
Representative, and has served as a delegate to five UTU 
international conventions from 1979 to 1995.
    I want to extend a particular welcome to our next witness, 
Jim Redeker. He is Commissioner of Connecticut's Department of 
Transportation, and he has a long and distinguished career in 
transportation, most particularly, beginning with his career in 
the New Jersey Transportation Department. In 1978, he joined NJ 
Transit when it was first created. The following year he helped 
to build NJ Transit into the third-largest transit agency in 
the country.
    In 30 years since, he has held positions of increasing 
responsibility. His portfolio of experience includes strategic 
planning and policy, capital programming, transportation 
planning, transit service planning and scheduling, and many 
other areas of expertise and experience. But perhaps most 
prominently, and importantly, he has served with extraordinary 
dedication and success as the Commissioner of Transportation 
for Connecticut. He has pioneered and championed with great 
vision and courage new means of transit and new developments 
and investment in our Connecticut railroads and other areas of 
transit in Connecticut.
    He has been a very strong environmental steward, as well as 
a champion of better, cleaner, more efficient transportation in 
Connecticut, and has worked closely with me and other 
officials, members of our delegation and other State officials.
    And I thank Commissioner Redeker for joining us today and 
bringing to us the firsthand experience that he has had with 
some of the problems that we have been discussing with the 
earlier panel.
    And to Michelle Teel, also a very hearty welcome. She is 
now head of the Missouri Department of Transportation's 
multimodal division. She has worked at Missouri DOT for 15 
years and most recently as the local program's administrator 
for the design division, and assistant director of the motor 
carrier services division.
    In her new capacity, Ms. Teel will oversee the division 
responsible for administering State and Federal programs that 
fund and support aviation, railroads, transit, waterways, and 
freight development.
    She has a bachelor's degree in civil engineering from 
Washington University in St. Louis and a master's degree in 
business administration from the William Woods University in 
Fulton. And she is a licensed professional engineer and also a 
certified professional traffic operations engineer.
    We welcome all of you and will begin with Mr. Hamberger.

STATEMENT OF EDWARD R. HAMBERGER, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, ASSOCIATION OF AMERICAN RAILROADS

    Mr. Hamberger. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here on behalf of members of the Association 
of American Railroads.
    For our members, commitment to safety is job number one. It 
is not only good business, but it is the right thing to do, and 
we are committed to making sure that each of our 200,000 
employees gets home after their shift safely every day.
    And in fact, our record is good and getting better. 2012 
was the safest year on record, and that exceeded the previous 
safest year on record of 2011, which itself exceeded the 
previous safest year on record of 2010.
    According to data from the Bureau of Labor Statistics, 
railroads today have lower employee injury rates than other 
transportation modes and most other industries, including 
agriculture, mining, manufacturing, and construction.
    Available data also indicate that U.S. railroads are safer 
than most major foreign railroads.
    One of the reasons, and Senator Johnson put your finger on 
it, is the amount of money that we invest back into the 
infrastructure, $25 billion this year and $25 billion last 
year, $.40 of every dollar of private sector money back into 
the infrastructure.
    Now, what does that mean? In the last 5 years, we bought 
22,669 new state-of-the-art locomotives. We have installed 
nearly 77 million new crossties, 2.9 million tons of new rail, 
and poured nearly 61 million cubic yards of ballast.
    And I submit to you, Mr. Chairman, that the very foundation 
of rail safety is a network that is well-maintained. And if we 
did not believe that before, the testimony from the NTSB today 
certainly underscores that a well-maintained network is a safer 
network.
    Another product of industry investment is the development 
of trackside instruments and inspection vehicles that traverse 
over the rail. These use technologies such as acoustics, radar, 
machine vision, lasers, optical geometry to identify safety 
issues in the track, on the wheels, and on the axles as the 
cars go by.
    Many of these technological advances have been incorporated 
into the rail industries' equipment health monitoring 
initiative. It is a predictive and proactive maintenance system 
designed to detect and report potential safety problems and 
poorly performing equipment before they result in accidents or 
damage.
    As an aside, Mr. Chairman, much of this work is being done 
at the Transportation Technology Center in Pueblo, Colorado, 
which is a research center the AAR runs under contract to the 
FRA. And the center has just been hired by Metro-North to help 
them develop track inspection procedures, so we are pleased to 
be able to bring our expertise to bear.
    Let me turn to the technology that we have been talking 
about today, positive train control. Such a system requires 
highly complex technologies able to analyze and incorporate a 
large number of variables that affect train operations. A 
simple example: the length of time it takes to stop a train, 
what we affectionately call the breaking algorithm, depends on 
train speed, terrain, the weight and length of the train, the 
number and distribution of locomotives, the number of loaded or 
empty freight cars on the train, and other factors. This system 
must be able to take all these factors into account 
automatically, reliably, and accurately, and be able to do it 
across every operating railroad company, including passenger 
and freight.
    PTC development implementation includes a daunting array of 
tasks that railroads must perform and technologies that must be 
developed.
    I agree with both Chairwoman Hersman and Administrator 
Szabo, this must be a transparent process. And that is why last 
year, both APTA and the AAR submitted a white paper on the 
progress to date and the work yet to be done. As part of my 
testimony today, we have submitted an update as to where we are 
by railroad, what needs to be done by year.
    We want to be transparent, but we do believe that while 
there will be some PTC in operation by 2015, 60,000 miles, 
22,000 locomotives, the interoperability will not be 
achievable. Therefore, we are asking Congress to consider a 
straight 3-year extension from December 31, 2015, to December 
31, 2018. I agree with Senator McCaskill and Senator Thune, 
this cannot be done piecemeal.
    We are a network. One-third or more of our traffic 
intertwines between two railroads on any given day. We operate 
with commuter rail, Amtrak. This must be something we can 
depend on, some certainty in a 3-year extension.
    Beyond that, I think there could be some authority given to 
the Department of Transportation to extend, if something that 
we do not know about pops up. And so that would be something 
that the Department of Transportation could do for a year or 
two.
    And additionally, to ensure that railroads can operate 
safely and efficiently with the PTC system, the imposition of 
PTC-related operational requirements and associated penalties 
should be deferred until all PTC systems are fully integrated 
and testing has been completed.
    My last point, Mr. Chairman, and I will make it brief, the 
FCC and PTC antennas, I know Mr. Blunt brought that up with the 
first panel and with Mr. Wheeler yesterday at his confirmation 
hearing. We appreciate you putting that on his radar screen. We 
are meeting with the FCC and FRA over the next couple days. We 
hope to be able to resolve that so we can go forward. But right 
now, we are under a stop order to not install any of the 22,000 
antennas yet to be installed.
    Thank you, and I look forward to answering any questions, 
and I apologize for running a minute late.
    [The prepared statement of Mr. Hamberger follows:]

    Prepared Statement of Edward R. Hamberger, President and Chief 
          Executive Officer, Association of American Railroads
    On behalf of the members of the Association of American Railroads, 
thank you for the opportunity to discuss rail safety. AAR freight 
railroad members, which include the seven large U.S. Class I railroads 
as well as approximately 170 short line and regional railroads, account 
for the vast majority of freight railroad mileage, employees, and 
traffic in Canada, Mexico, and the United States. Amtrak and several 
commuter railroads are also members of the AAR. In my testimony below, 
I will discuss several important topics associated with rail safety, 
ways that railroads are working to advance safety in those areas, and 
steps that we believe policymakers should take to promote rail safety.
Overview of Rail Safety
    It's important to note at the outset that for our nation's freight 
and passenger railroads, pursuing safe operations is an absolute 
imperative. It makes business sense and it's the right thing to do. 
Through massive private investments in safety-enhancing infrastructure, 
equipment, and technology; cooperative efforts with rail labor, 
suppliers, customers, communities, and the Federal Railroad 
Administration (FRA); extensive employee training; and cutting-edge 
research and development, railroads are at the forefront of advancing 
safety.
    The rail industry's strong and pervasive commitment to safety is 
reflected in its excellent safety record. In fact, 2012 was the safest 
year ever for America's railroads, breaking the previous record set in 
2011. From 1980 to 2012, the train accident rate fell 80 percent, the 
rail employee injury rate fell 85 percent, and the grade crossing 
collision rate fell 82 percent. Since 2000, the declines have been 44 
percent, 51 percent, and 45 percent, respectively, indicating that rail 
safety continues to improve. 2012 saw record lows in each of these 
categories.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    According to data from the Bureau of Labor Statistics, railroads 
today have lower employee injury rates than other transportation modes 
(including trucks, inland water transportation, and airlines) and most 
other major industries, including agriculture, mining, manufacturing, 
and construction. Available data also indicate that U.S. railroads have 
employee injury rates well below those of most major foreign railroads.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Virtually every aspect of rail operations is subject to strict 
safety oversight by the FRA. Among many other areas, railroads are 
subject to FRA regulation regarding track and equipment inspections; 
employee certification; allowable operating speeds; and the 
capabilities and performance of signaling systems. Hundreds of FRA 
personnel perform regular inspections of rail facilities and operations 
throughout the country. In many states, FRA safety inspectors are 
supplemented by state safety inspectors. Railroads are also subject to 
safety oversight by additional Federal agencies, including the 
Occupational Safety and Health Administration, the Pipeline and 
Hazardous Materials Safety Administration, and the Department of 
Homeland Security.
A Healthy Balance Sheet is Important to Safety
    A commitment to safety demonstrated day in and day out in the 
workplace is critical to promoting safety. Railroads have this 
commitment. That said, a financially viable railroad is in a much 
better position to invest in safety enhancements and risk reduction 
strategies than a financially challenged railroad.
    In recent years, railroads have been reinvesting more private 
capital than ever before in their infrastructure and equipment, 
including a record $25.5 billion in 2012. From 2008 to 2012, Class I 
railroads purchased 2,669 new state-of-the-art locomotives and rebuilt 
another 845 locomotives to improve their capabilities. Over the same 
time period, railroads installed nearly 77 million new crossties, 
installed 2.9 million tons of new rail, and placed nearly 61 million 
cubic yards of ballast. In addition, as described later in this 
testimony, railroads in recent years have devoted substantial resources 
to developing and implementing innovative new technologies. These 
investments have made railroads much safer. In fact, as the charts 
below show, there is a clear correlation between rail reinvestments and 
rail safety improvements.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Positive Train Control
    The term ``positive train control'' (PTC) describes technologies 
designed to automatically stop or slow a train before certain accidents 
caused by human error occur. The Rail Safety Improvement Act of 2008 
(RSIA) requires passenger railroads and U.S. Class I freight railroads 
to install PTC by the end of 2015 on main lines used to transport 
passengers or toxic-by-inhalation (TIH) materials.\1\ Specifically, PTC 
as mandated by Congress must be designed to prevent train-to-train 
collisions; derailments caused by excessive speed; unauthorized 
incursions by trains onto sections of track where maintenance 
activities are taking place; and the movement of a train through a 
track switch left in the wrong position.\2\
---------------------------------------------------------------------------
    \1\ TIH materials are gases or liquids, such as chlorine and 
anhydrous ammonia that are especially hazardous if released into the 
atmosphere.
    \2\ A switch is equipment that controls the path of trains where 
two sets of track diverge.
---------------------------------------------------------------------------
Unprecedented Technological Challenge
    Positive train control is an unprecedented technological challenge. 
A properly functioning, fully interoperable PTC system must be able to 
determine the precise location, direction, and speed of trains; warn 
train operators of potential problems; and take immediate action if the 
operator does not respond to the warning provided by the PTC system. 
For example, if a train operator fails to begin stopping a train before 
a stop signal or slowing down for a speed-restricted area, the PTC 
system would apply the brakes automatically before the train passed the 
stop signal or entered the speed-restricted area.
    Such a system requires highly complex technologies able to analyze 
and incorporate the huge number of variables that affect train 
operations. A simple example: the length of time it takes to stop a 
train depends on train speed, terrain, the weight and length of the 
train, the number and distribution of locomotives and loaded and empty 
freight cars on the train, and other factors. A PTC system must be able 
to take all of these factors into account automatically, reliably, and 
accurately to safely stop the train.
    PTC development and implementation includes a daunting array of 
tasks that railroads must perform, including:

  <bullet> A complete physical survey and highly precise geo-mapping of 
        the 60,000 miles of railroad right-of-way on which PTC 
        technology will be installed, including geo-mapping of nearly 
        474,000 field assets (mileposts, curves, grade crossings, 
        switches, signals, and much more) along that right of way.

  <bullet> Installing PTC technology on approximately 22,000 
        locomotives.

  <bullet> Installing approximately 36,000 ``wayside interface units'' 
        (WIU) that provide the mechanism for transmitting information 
        to locomotives and the train dispatching office from signal and 
        switch locations along the right of way.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
  <bullet> Installing PTC technology on nearly 4,800 switches in non-
        signaled territory and completing more than 12,300 signal 
        replacement projects at locations where the existing signal 
        equipment cannot accommodate PTC technology.

  <bullet> Developing, producing, and deploying a new radio system and 
        new radios specifically designed for the massive data 
        transmission requirements of PTC at 4,200 base stations, 33,700 
        trackside locations, and on approximately 22,000 locomotives.

  <bullet> Developing back office systems and upgrading dispatching 
        software to incorporate the data and precision required for PTC 
        systems.

  <bullet> Installing more than 20,000 new antenna structures 
        nationwide to transmit PTC signals.

    Freight railroads have enlisted massive resources to meet the PTC 
mandate. They've retained more than 2,200 additional signal system 
personnel to implement PTC, and to date have collectively spent 
approximately $3 billion of their own funds on PTC development and 
deployment. Class I freight railroads expect to spend an additional $5 
billion before development and installation is complete. Currently, the 
estimated total cost to freight railroads for PTC development and 
deployment is around $8 billion, with hundreds of millions of 
additional dollars needed each year after that to maintain the system.
    Despite railroads' best efforts, due to PTC's complexity and the 
enormity of the implementation task--and the fact that much of the 
technology PTC requires simply did not exist when the PTC mandate was 
passed and has been required to be developed from scratch--much work 
remains to be done. Most of the effort to date has been directed toward 
development, deployment, and initial testing of technology that can 
meet the requirements of the legislation and which can be scaled to the 
huge requirements of a national system.
    The task is made particularly complex by the need to ensure that 
PTC systems are fully interoperable \3\ across all of the Nation's 
major railroads, and that the many potential failure points and failure 
modes in PTC systems are identified, isolated, and corrected--all 
without negatively affecting the safe movement of freight and 
passengers by rail throughout the country. In addition, the FRA must 
review each railroad's PTC safety plan and certify the railroads' PTC 
systems after the development and testing of the components are 
complete. Only then can a fully operable PTC installation be completed.
---------------------------------------------------------------------------
    \3\ Interoperability means that the PTC system on any railroad's 
locomotives can seamlessly interface with the systems of any other 
railroad.
---------------------------------------------------------------------------
The FCC and PTC Antennas
    Railroads also face non-technological barriers to timely PTC 
implementation. One such challenge that railroads are struggling to 
overcome right now involves regulatory barriers to the construction of 
antenna structures.
    As part of PTC implementation, railroads must install tens of 
thousands of new antenna structures nationwide to transmit PTC signals. 
Approximately 97 percent of these structures will be relatively small 
poles, between 6 and 60 feet high, installed on railroad rights-of-way 
alongside railroad tracks. The remainder, approximately three percent, 
will be larger base stations similar to traditional telecommunication 
towers. Depending on the location, these larger structures may or may 
not be located on a railroad's right-of-way.
    The Federal Communications Commission (FCC) maintains that all PTC 
antenna structures, regardless of their size or location on the right-
of-way, are subject to the National Environmental Protection Act (NEPA) 
and the National Historic Preservation Act (NHPA). The FCC's current 
interpretation of its rules implementing these acts would subject every 
PTC antenna structure to a separate environmental evaluation process at 
the FCC. Depending on the outcome of this evaluation, a more 
comprehensive environmental assessment (EA) might be required.
    According to the FCC, as part of each environmental evaluation, 
railroads must provide certain information on each antenna structure 
(height, location, etc.) to historic preservation officers within state 
governments and Native American tribes (depending on where the antenna 
structure will be installed) so that the state or tribe can determine 
if the installation will negatively impact areas of historic, cultural 
or religious significance. Notice of the construction must even be 
provided to tribes that do not currently reside along the railroad 
right-of-way but who have previously expressed interest in the county 
in which the antenna structure will be installed.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    On May 15 of this year, representatives of the railroads met with 
FCC staff to discuss the PTC antenna issue. The railroad 
representatives explained why the FCC's current approval process is 
unworkable for a deployment on the scale of PTC in the time-frame 
mandated by the RSIA and FRA's rules. Meanwhile, the FCC staff stated 
that railroads should not construct any antenna structures for PTC that 
have not gone through the complete environmental evaluation process, 
including tribal notice, while they consider ways to streamline the 
state and tribal approval processes. The railroad industry, the FRA, 
and the FCC are consulting to try to find a workable solution that will 
protect the interests of Native American tribes and allow the timely 
deployment of PTC. While the AAR is hopeful that a solution can be 
found, today construction of antenna structures is on hold. If our 
efforts with the FCC and the FRA cannot reach a workable solution to 
avoid antenna-by-antenna review, the timeline for ultimate deployment 
of PTC will be delayed.
Pending FRA Regulations
    There are important PTC regulatory issues that are unresolved. For 
example, the current rules inadvertently subject yard movements over 
PTC-equipped main line track to PTC requirements. There are a number of 
technical and operational reasons making PTC impractical for yard 
movements. It was never anticipated that yard movements would be 
subject to PTC and doing so would adversely affect the efficiency of 
rail transportation. Another issue concerns en route failures of 
locomotives equipped with PTC. The current regulations impose 
operational restrictions so severe that, again, the fluidity of the 
rail network would be drastically impaired, despite the existence of 
the underlying safety systems and additional safety precautions that 
could be put in place. Finally, the regulations purport to exempt lines 
where there are very small amounts of TIH traffic and no passenger 
traffic, but the de minimis regulations are constructed so that they 
fail to achieve this objective. It is important to resolve these issues 
and AAR appreciates that FRA is considering them in a current 
rulemaking proceeding.
Extending the Statutory Deadline
    In addition to the challenges presented by both the FCC and FRA 
issues, another critical variable to the successful implementation of a 
nationwide PTC network is the question of the proper operation of the 
system. Does the system work? To effectively answer this question, 
railroads will need adequate time to ensure that PTC works as intended 
and that the systems are communicating accurately. The industry 
believes it can achieve the objectives of the mandate with an 
implementation schedule that allows the technology to be developed as 
well as tested and proven so the safety and operational efficiency of 
the Nation's rail system are not put at risk.
    Freight railroads will continue to aggressively pursue the 
implementation, activation and testing of PTC systems. However, due to 
both technological and non-technological uncertainties associated with 
the development and installation of PTC, it is a challenge to identify 
an exact date of completion of all necessary components to ensure the 
successful implementation of an interoperable system. Critical aspects 
include, but are not limited to, the testing and activation of PTC 
systems.
    Consequently, the current PTC implementation deadline mandated by 
the Rail Safety Improvement Act of 2008 should be extended by at least 
three years from December 31, 2015, to December 31, 2018. Given the 
unprecedented nature of PTC and the uncertainties--both known and 
unknown--flexibility beyond December of 2018 should also be addressed, 
with the authority for that flexibility residing with the Secretary of 
the Department of Transportation. Additionally, in order to ensure that 
railroads can operate safely and efficiently with the PTC system, the 
imposition of PTC-related operational requirements and associated 
penalties should be deferred until all PTC systems are fully integrated 
and testing has been completed.
    Railroads have been working extremely hard to meet the 2015 
deadline. While the deadline for completion is important, ensuring that 
the testing and development of PTC proceeds appropriately is paramount. 
The intent and the goal is to ensure a new system that enhances safety.
    A December 2010 report by the Government Accountability Office 
supports this view. The GAO noted that ``implementing an immature 
system to meet the deadline could pose serious safety risks,'' and that 
``[i]dentifying and mitigating risks sooner, rather than later, would 
better ensure a reliable PTC system can be fully implemented to provide 
the intended safety benefits of this technology without resulting in 
unintended consequences.'' \4\
---------------------------------------------------------------------------
    \4\ Government Accountability Office, ``Rail Safety: Federal 
Railroad Administration Should Report on Risks to the Successful 
Implementation of Mandated Safety Technology,'' Report No. GAO-11-133, 
December 2010. The quotes are from pages 22 and 46, respectively.
---------------------------------------------------------------------------
    In an August 2012 report, the FRA confirmed that, ``Given the 
current state of development and availability of the required hardware 
and software, along with deployment considerations, most railroads will 
likely not be able to complete full RSIA-required implementation of PTC 
by December 31, 2015.'' \5\ The FRA report notes that PTC 
implementation on the scale required by the RSIA has never been 
attempted anywhere in the world.
---------------------------------------------------------------------------
    \5\ Federal Railroad Administration, ``Positive Train Control: 
Implementation Status, Issues, and Impacts,'' August 2012, p. 1.
---------------------------------------------------------------------------
    For a more thorough analysis and understanding of freight rail 
industry efforts, implementation progress, and existing challenges, the 
Association of American Railroads' 2013 report, PTC Implementation: The 
Railroad Industry Cannot Install PTC on the Entire Nationwide Network 
by the 2015 Deadline, is included as ``Attachment A.''
Highway-Rail Grade Crossings and Trespassers
    Collisions at grade crossings, along with incidents involving 
trespassers on railroad rights-of-way, are critical safety problems. 
These two categories typically account for more than 95 percent of 
rail-related fatalities. Although these incidents usually arise from 
factors that are largely outside of railroad control, and even though 
highway-rail crossing warning devices are properly considered motor 
vehicle warning devices there for the benefit of motorists, not trains, 
railroads are committed to efforts aimed at further reducing the 
frequency of crossing and trespasser incidents.
    Much success has already been achieved. From 1980 through 2012, the 
number of grade crossing collisions fell 82 percent; injuries 
associated with collisions fell 76 percent; and fatalities fell 72 
percent. Since 2000, the declines have been 44 percent, 24 percent, and 
45 percent, respectively, indicating that grade crossing safety 
continues to improve. The grade crossing collision rate has fallen 
nearly every year since 1980; from 1980 through 2012, it fell 82 
percent. And because total exposure (train-miles multiplied by motor 
vehicle-miles) has risen sharply over time, the reduction in crossing 
incidents and casualties per unit of exposure has been even higher.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    America's freight railroads spend hundreds of millions of dollars 
each year to maintain and improve grade crossings. They also:

  <bullet> Cooperate with state agencies to install and upgrade warning 
        devices and signals, and bear the cost of maintaining them in 
        perpetuity.

  <bullet> Help pay to close unneeded crossings.

  <bullet> Support Operation Lifesaver, a nationwide non-profit 
        organization that educates the public about the need for proper 
        behavior at grade crossings and on railroad property.

  <bullet> Work with law enforcement and others to keep grade crossings 
        safe.

  <bullet> Solicit assistance from the public. In June 2012, the FRA 
        issued a final rule requiring railroads to install signs at 
        grade crossings with telephone numbers the public can use to 
        alert railroads to unsafe conditions.

    Under the Federal ``Section 130'' program, $220 million in Federal 
funds are divided among the states each year for installing new active 
warning devices, upgrading existing devices, and improving grade 
crossing surfaces. Several years ago, FRA noted that the Section 130 
program ``has helped prevent over 10,500 fatalities and 51,000 nonfatal 
injuries.'' Those figures are surely much higher now.
    Without a budgetary set-aside like the Section 130 program, grade 
crossing needs would fare poorly in competition with more traditional 
highway needs such as highway construction and maintenance. Indeed, one 
of the primary reasons the Section 130 program was created in the first 
place was that highway safety--and especially grade crossing safety--
traditionally received low funding priority. The surface transportation 
bill signed into law on July 6, 2012 will continue dedicated funding 
for this important program for two more years and will mean more 
injuries averted and more lives saved.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The vast majority of grade crossing collisions are the result of 
motorists' actions. Consequently, grade crossing accidents can best be 
reduced through a mix of education, engineering, and enforcement.
    An organization that deserves special commendation for its efforts 
to educate the public about the dangers of grade crossings and 
trespassing on railroad rights-of-way is Operation Lifesaver. Operation 
Lifesaver--a non-profit whose mantra is ``look, listen, and live''--
started in Idaho in 1972 and now has chapters in the 48 contiguous 
states, Alaska, and the District of Columbia. Operation Lifesaver's 
presenters, many of whom are current or retired rail industry 
employees, have provided free safety presentations to millions of 
Americans, including school children, driver's education students, 
business leaders, truck drivers, and bus drivers. I urge you to 
generously fund this important educational organization. Railroads also 
believe that grade crossing safety should be part of commercial 
driver's license educational curricula.
    Education alone is not enough to reduce the number of tragic grade 
crossing accidents. Engineering and enforcement actions are also 
critical. Railroads support research regarding the effectiveness of 
innovative types of warning devices, such as four quadrant gates. 
Because maximum safety can be realized if crossings are eliminated, the 
closing of crossings (and, where appropriate, grade separation) is the 
ultimate engineering improvement. In that regard, we recommend that 
Congress consider measures that would help incentivize grade crossing 
closures. Finally, there should be tough penalties for grade crossing 
traffic violations.
    Grade crossing safety is only part of the public safety challenge. 
Trespassing is another area of concern. It is an unfortunate reality 
that too many people inappropriately use railroad property for short 
cuts, recreation, or other purposes, sometimes with tragic results. 
Railroads are engaged in ongoing efforts with Operation Lifesaver and 
others to educate the public that, for their own safety, they should 
stay off rail property.
The Transportation of Hazardous Materials by Rail
    Although many types of chemicals pose little or no threat to anyone 
or anything, some chemicals are classified as hazardous. Depending on 
the year, U.S. railroads transport around 1.8 million carloads of 
hazardous materials. ``Toxic inhalation hazard'' (TIH) materials--gases 
or liquids, such as chlorine and anhydrous ammonia, that are especially 
hazardous if released into the atmosphere--are a subset of hazardous 
materials. In 2010 (the most recent year for which data have been 
tabulated), U.S. railroads carried some 77,000 TIH carloads. Hazardous 
materials accounted for 6 percent of rail carloads in 2010; TIH 
materials accounted for 0.3 percent.
    The rail hazmat safety record is excellent. In 2010, 99.998 percent 
of rail hazmat shipments reached their destination without a release 
caused by a train accident. Rail hazmat accident rates are down 91 
percent since 1980 and 38 percent since 2000.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In fact, railroads are the safest mode for transporting hazmat. 
Railroads and trucks have roughly equal hazmat ton-mileage, but 
railroads have only about 5 percent of the hazmat incidents that trucks 
have. In other words, trucks are about 20 times more likely to have a 
hazmat incident than a train. Since 1982, railroads have incurred 15 
fatalities due to hazmat transport; trucks have incurred 113.
    Railroads and tank car builders are taking concrete steps to make 
chemical and hazmat transportation safer and more reliable. For 
example, they are enhancing tank car safety. Nearly half of all 
chemicals, and nearly all TIH materials, are transported in tank cars. 
Tank cars built today are vastly improved over earlier generations of 
tank cars, with higher grade steel, better thermal protection, improved 
valves and fittings, often thicker tanks, and many other improvements.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The industry committee responsible for establishing tank car design 
standards has adopted a proposal that will enhance the robustness of 
tank cars that carry TIH materials. That standard was the basis of a 
recent FRA rulemaking on TIH tank cars. Another proposed industry 
standard addresses ways to make petroleum and ethanol cars safer.
    The railroad industry is also a key partner in the ``Advanced Tank 
Car Collaborative Research Program'' (ATCCRP), a cooperative effort 
involving the railroads, shippers (represented by the American 
Chemistry Council, the Fertilizer Institute, and the Chlorine 
Institute), tank car builders and owners (represented by the Railway 
Supply Institute), and several U.S. and Canadian government agencies. 
The program is sponsoring cutting-edge research aimed at further 
improving TIH tank car safety.
    In addition, railroads work cooperatively with various Federal 
agencies--including the Pipeline and Hazardous Materials Safety 
Administration (PHMSA), the FRA, the Transportation Security 
Administration (TSA), and the Federal Emergency Management Agency 
(FEMA)--to help ensure safe and secure rail transport. For example:

  <bullet> FEMA, FRA, PHMSA, TSA, and the railroads have jointly 
        developed the Rail Corridor Risk Management System (RCRMS), a 
        sophisticated statistical routing model designed to ensure that 
        TIH materials are transported on routes that pose the least 
        overall safety and security risk. The model uses a minimum of 
        27 risk factors to assess the safety and security of rail 
        routes, including hazmat volume, trip length, population 
        density along the route, and emergency response capability. 
        When transporting TIH materials, railroads must use the routes 
        deemed safest and most secure by the routing model.

  <bullet> Railroads follow stringent TSA ``chain of custody'' 
        requirements for rail cars carrying TIH materials. Transfer of 
        TIH cars from a shipper to a railroad, from one railroad to 
        another, and from a railroad to a receiver must be carefully 
        documented. Rail cars carrying TIH materials cannot be left 
        unattended while in certain high-threat urban areas.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
  <bullet> TSA regulations require railroads to track TIH shipments. 
        Within five minutes following a TSA request, railroads must be 
        able to identify the location of a particular tank car carrying 
        TIH. Within a half hour, railroads must be able to report the 
        location of all TIH tank cars currently on the rail network.

  <bullet> PHMSA requires railroads to develop and implement security 
        plans that include an assessment of security risks for hazmat 
        shipments; background vetting and training of employees who 
        work in hazmat transport; measures to restrict unauthorized 
        access to hazmat cars; and coordination with shippers and 
        receivers to minimize the duration of storage in transit.

  <bullet> Railroads equip train dispatchers and crews with information 
        about hazmat on individual trains and detailed emergency 
        response information. In addition, railroads maintain contact 
        lists for local emergency response agencies.

  <bullet> Railroads provide hazmat awareness training to all employees 
        who are involved in hazmat transportation. Employees 
        responsible for emergency hazmat response efforts receive far 
        more in-depth training.

  <bullet> Rail industry personnel are in constant communication with 
        the TSA, other agencies within DHS, the Department of Defense, 
        DOT, the FBI, and state and local law enforcement agencies to 
        share intelligence and security information.

  <bullet> More than 25 years ago, the AAR established what is now the 
        Security and Emergency Response Training Center (SERTC), a 
        world-class facility that is part of TTCI in Pueblo, Colorado. 
        The SERTC has provided in-depth hazmat emergency response 
        training to more than 40,000 emergency responders and railroad 
        and chemical industry employees.

    The rail transport of crude oil, which is considered a hazardous 
material, has been the subject of much discussion lately. Over the past 
couple of years, technological advances, along with relatively high 
crude oil prices, have led to sharply higher U.S. crude oil production. 
Historically, most crude oil has moved from production areas to 
refineries by pipeline. However, much of the recent increases in crude 
oil output has moved by rail. In 2008, U.S. freight railroads 
originated just 9,500 carloads of crude oil. In 2012, they originated 
nearly 234,000 carloads. Based on the approximately 97,000 rail 
carloads of crude oil in the first quarter of this year, more than 
400,000 carloads are possible in 2013. Today, railroads transport 
approximately 10 percent of U.S. crude oil production, up from a 
miniscule percentage just a few years ago.
    Railroads have an excellent crude oil safety record. Based on data 
from PHMSA, the ``spill rate'' for railroads from 2002-2012 was just 
2.2 gallons per million crude oil ton-miles generated. The fact is, 
both pipelines and railroads are safe, reliable ways to transport crude 
oil. Each enhances our energy security and benefits consumers.
Safety-Enhancing Technologies
    At a very basic level, railroading today seems similar to 
railroading 150 years ago: it still consists of steel wheels traveling 
on steel rails. This apparent similarity, however, masks a widespread 
application of modern technology and a huge variety of ongoing 
initiatives to research, test, and apply advanced technologies to 
promote a safer and more efficient railroad environment.
    Many of these advancements were developed or refined at the finest 
rail research facility in the world: the Transportation Technology 
Center, Inc. (TTCI) in Pueblo, Colorado. TTCI is a wholly owned 
subsidiary of the Association of American Railroads. Its 48 miles of 
test tracks, highly-sophisticated testing equipment, metallurgy labs, 
simulators, and other diagnostic tools are used to test track 
structure, evaluate freight car and locomotive performance, assess 
component reliability, and much more. The facility is owned by the FRA 
but has been operated (under a competitively-bid contract with the FRA) 
by TTCI since 1984. TTCI is responsible for all the facility's 
operating costs and some capital costs. We extend a standing invitation 
to all members of this committee and others in Congress to visit TTCI 
and see firsthand the tremendous research and emergency response 
training that is being done there.
    Among many other things, TTCI has been actively involved in the 
rail industry's research and technology development efforts to improve 
the performance of track and freight car component designs and 
materials. The most significant of these are improved suspension truck 
designs, improved maintenance of the wheel-rail interface, wheel 
inspection and cleanliness standards, and improved wheel and rail 
metallurgy.
    In addition, TTCI continues to work with track suppliers and 
railroads to test and evaluate wear-and fatigue-resistant rail steels, 
innovative special track work and bridge designs, improved tie/fastener 
systems, and maintenance practices at its Facility for Accelerated 
Service Testing (FAST). As a result of these efforts, derailments 
caused by broken rails have decreased significantly over the past ten 
years.
    A few of the many other examples of new safety-enhancing rail 
technologies developed in recent years or now being developed include:

  <bullet> Wayside detectors identify defects on passing rail cars, 
        including overheated bearings and damaged wheels, dragging 
        hoses, deteriorating bearings, cracked wheels, and excessively 
        high and wide loads.

  <bullet> Trackside acoustic detector systems use ``acoustic 
        signatures'' to evaluate the sound of internal bearings to 
        identify those nearing failure. These systems supplement or 
        replace systems that measure the heat bearings generate to 
        identify those in the process of failing.

  <bullet> Rail defect detector cars detect internal flaws in rails 
        which are caused by fatigue and impurities introduced during 
        manufacturing. A prototype of an advanced system dubbed the 
        ``phased-array'' rail inspection system is being developed and 
        tested at TTCI to detect hard-to-find internal rail defects.

  <bullet> Advanced track geometry cars use sophisticated electronic 
        and optical instruments to inspect track alignment, gauge, 
        curvature, and other track conditions. A new system called the 
        ``vehicle track interaction system'' is also used to locate 
        difficult-to-find track geometry defects. This information 
        helps railroads determine when track needs maintenance.

  <bullet> Ground-penetrating radar is being used to help identify 
        problems below the ground (such as excessive water penetration 
        and deteriorated ballast) that hinder track stability.

  <bullet> Because a relatively small percentage of freight cars causes 
        an inordinately high percentage of track damage and have a 
        higher than usual propensity to derail, TTCI is working on ways 
        to use optical geometry detectors to identify poorly performing 
        freight trucks.\6\
---------------------------------------------------------------------------
    \6\ In terms of rail cars, ``truck'' refers to the complete four-
wheel assembly that supports the car body.

  <bullet> New automated detector systems are being tested and 
        evaluated at TTCI to inspect the under carriage, safety 
        appliances and truck components using machine-vision-based car 
---------------------------------------------------------------------------
        inspection systems.

  <bullet> Railroads are expanding their use of advanced communications 
        systems. For example, the Integrated Railway Remote Information 
        Service (InteRRIS), an advanced Internet database with wide 
        potential applicability, was developed at TTCI. An early 
        project using InteRRIS collects data from wheel impact load 
        detector systems (which identify wheel defects by measuring the 
        force generated by wheels on tracks) and detectors that monitor 
        the undercarriage of rail cars (which identify structural 
        defects or missing components such as key fasteners). InteRRIS 
        processes the information to produce vehicle condition reports.

    Many of these technological advances have been incorporated in the 
rail industry's Equipment Health Monitoring Initiative, a predictive 
and proactive maintenance system designed to detect and report 
potential safety problems and poorly performing equipment before they 
result in accidents or damage. In addition to reliably detecting cars 
that exhibit high levels of stress and reduce derailments, one of the 
purposes of EHMS is to work with freight car owners to develop 
efficient methods to proactively maintain the freight car fleet and 
keep out-of-service time to a minimum.
    Rail industry safety will also be enhanced by the Asset Health 
Strategic Initiative (AHSI), a multi-year rail industry program 
initiated in December 2011 that will apply information technology 
solutions and processes to improve the safety and performance of 
freight cars and locomotives across North America.
    In a nutshell, AHSI aims to improve safety and reduce costs across 
the rail industry by addressing mechanical service interruptions, 
inspection quality, and yard and shop efficiency. It is based on the 
recognition that improving asset health means more than just focusing 
on railcar and locomotive repair. Rather, it encompasses the entire 
rolling stock health cycle, incorporating prevention, detection, 
planning, movement, and repair.
    For example, the Comprehensive Equipment Performance Monitoring 
(CEPM) program, which is just one part of the AHSI initiative, is a 
web-based application that captures data for railcar equipment 
components, including repair histories, the mileage the freight cars 
incorporating the components have traveled, and the current and past 
health status of the equipment. CEPM will make it much easier to track 
the health of individual railcar components and will provide crucial 
information on the health of entire classes of components, making early 
identification of potential safety problems much more likely.
    As noted above, in recent years railroads have been reinvesting 
more than ever before back into their networks. These investments have 
had a pronounced positive impact on asset health and, as a result, 
improved safety. However, a strategic focus at the network level--like 
that provided by AHSI--will provide more significant returns and 
greater efficiencies than furthering incremental or local efforts. AHSI 
builds on existing industry capabilities and defect detector systems, 
including many of those described above, to provide a more 
comprehensive assessment of rail car and locomotive health. It's just 
one of many efforts by railroads to harness the power of advanced 
technologies for the benefit of their customers, their employees, and 
the communities they serve.
Safety and Passenger Rail
    In the United States, freight railroads provide the foundation for 
most passenger rail. Around 70 percent of the miles traveled by Amtrak 
trains are on tracks owned by freight railroads, and dozens of commuter 
railroads operate, or plan to operate, at least partially on freight-
owned corridors. In addition, most of the high speed and intercity 
passenger rail projects under development nationwide plan to use 
freight-owned facilities.
    Freight railroads agree that passenger railroading can play a key 
role in alleviating highway and airport congestion, decreasing 
dependence on foreign oil, reducing pollution, and enhancing mobility. 
But safety has to come first when it comes to passenger trains sharing 
track or rights-of-way with freight trains. Among other things, this 
means that in some cases--depending on train speeds and frequency, 
track standards, and other factors--separate tracks for passenger and 
freight trains might be needed. AAR believes that safety would be 
enhanced if these separate tracks were sufficiently far apart to 
minimize the likelihood that a derailment on one track could foul an 
adjacent track and lead to a collision involving a freight and 
passenger train.
Railroads and Fatigue
    Railroads want properly rested crews--it's not in a railroad's best 
interest to have employees who are too tired to perform their duties 
properly. That's why railroads have long been working to find 
innovative, effective solutions to fatigue-related problems. Combating 
fatigue in the rail industry is a shared responsibility: employers need 
to provide an environment that allows employees to rest during off-duty 
hours, and employees must set aside time when off duty to obtain the 
rest they need.
    Because factors that can result in fatigue are multiple, complex, 
and frequently intertwined, there is no single solution, and efforts to 
combat fatigue should be based on sound scientific research, not on 
anecdotes or isolated events. That's why railroads and their employees 
are pursuing a variety of scientifically-based fatigue countermeasures. 
Not every countermeasure is appropriate for every railroad, or even for 
different parts of the same railroad, because circumstances unique to 
each railroad influence the effectiveness and practicality of specific 
countermeasures. That said, individual railroads have been using the 
following countermeasures (among others) to help combat fatigue:

  <bullet> Increasing the minimum number of hours off duty and 
        providing more predictable calling assignments and rest 
        opportunities between shifts.

  <bullet> Focusing, when possible, on returning crews home rather than 
        lodging them away from home and making away-from-home lodging 
        more rest-inducing.

  <bullet> Allowing employees to request an extra rest period when they 
        report off duty if they feel excessively fatigued.

  <bullet> Devising systems (including websites, e-mails, pagers, and 
        automated telephone systems) to improve communication between 
        crew callers and employees.

  <bullet> Allowing employees who have been off work more than 72 hours 
        (e.g., on vacation) to begin their first shift in the morning 
        rather than at night.

  <bullet> Encouraging confidential sleep disorder screening and 
        treatment.

  <bullet> Offering fatigue education programs for employees and their 
        families. Education is critical, since the effectiveness of 
        fatigue initiatives depends on the actions of employees while 
        off duty. Employees must make appropriate choices regarding how 
        they spend their off-duty time, and education is important in 
        encouraging sound decision making.
Conclusion
    Railroads are proud of their safety record, which results from 
their recognition of their responsibilities regarding safety and the 
enormous resources they devote to its advancement. At the same time, 
railroads want rail safety to continue to improve. The rail industry is 
always willing to work cooperatively with you, other policymakers, the 
FRA, its employees, and others to find practical, effective ways to 
make this happen.
            Attachment A--Association of American Railroads
PTC Implementation: The Railroad Industry Cannot Install PTC on the 
        Entire Nationwide Network by the 2015 Deadline--May 2013 Update
                           Table of Contents
I. Introduction and Executive Summary

II. PTC Components

        A. Locomotives

        B. Wayside Technology

        C. Switches

        D. Communications

        E. PTC Back Office

                1. Back Office Server

                2. Geographical Information System (GIS)

                3. Dispatch

III. The Integration Challenge and Testing

IV. The Certification Process Could Take Considerable Time

V. Interoperability: The Current Implementation Schedules Could 
Adversely Affect the Reliability and Effectiveness of PTC

        A. Phasing in PTC

        B. Interoperability Standards

VI. Rolling Out PTC

VII. Conclusion
                                 ______
                                 
  PTC Implementation: The Railroad Industry Cannot Install PTC on the 
    Entire Nationwide Network by the 2015 Deadline--May 2013 Update
I. Introduction and Executive Summary
    On January 18, 2012, the Association of American Railroads (AAR) 
submitted a status paper to the Federal Railroad Administration (FRA) 
titled ``PTC Implementation: The Railroad Industry Cannot Install PTC 
on the Entire Nationwide Network by the 2015 Deadline'' (``ISP,'' 
Attachment A). The ISP discussed the challenges faced in developing an 
interoperable PTC system and provided detailed data showing the 
progress that had been made.\1\ The ISP concluded by stating that a 
nationwide, interoperable PTC network cannot be completed by the 
December 31, 2015, statutory deadline.
---------------------------------------------------------------------------
    \1\ This paper is based on information provided by the following 
eight railroads, which have to install PTC on routes over which TIH or 
passengers, or both TIH and passengers, are transported: the Alaska 
Railroad (ARR), BNSF Railway (BNSF), Canadian National (CN), Canadian 
Pacific (CP), CSX Transportation (CSX), Kansas City Southern (KCS), 
Norfolk Southern (NS), and Union Pacific (UP). passengers, or both TIH 
and passengers, are transported: the Alaska Railroad (ARR), BNSF 
Railway (BNSF), Canadian National (CN), Canadian Pacific (CP), CSX 
Transportation (CSX), Kansas City Southern (KCS), Norfolk Southern 
(NS), and Union Pacific (UP).
---------------------------------------------------------------------------
    On February 10, 2012, the American Public Transportation 
Association (APTA) filed a companion paper with FRA, concurring with 
AAR that a nationwide interoperable PTC network is not achievable by 
December 31, 2015. In addition, in August 2012 FRA issued a report to 
Congress titled, ``Positive Train Control Implementation Status, 
Issues, and Impacts.'' In this report, FRA reached a similar 
conclusion, stating, ``[b]ased on the results of this report, FRA 
believes that the majority of railroads will not be able to complete 
PTC implementation by the 2015 deadline.''
    This paper updates the ISP and the tables that were attached to the 
ISP.\2\ While enormous challenges remain in regard to developing a 
nationwide interoperable PTC system, there were many positive 
developments during 2012. These include:
---------------------------------------------------------------------------
    \2\ This 2013 Update is intended to be read in conjunction with and 
as a supplement to the ISP. Attachment B updates the information in the 
various tables that were included in the ISP.

  <bullet> the first Geographical Information System (GIS) subdivision 
---------------------------------------------------------------------------
        validations with FRA;

  <bullet> the development and manufacture of 220 MHz radios;

  <bullet> significant progress with locomotive installations;

  <bullet> improvements in the availability of Wayside Interface Units 
        (WIUs);

  <bullet> radio frequency propagation studies of Chicago, Kansas City, 
        Los Angeles, New Orleans, New York, Minneapolis, St. Louis, 
        Toledo, and other congested metropolitan areas have been 
        completed or are in progress;

  <bullet> FRA's modification of its regulations that permits railroads 
        to base PTC installation on projected traffic in 2015;

  <bullet> progress on the PTC Safety Plan that must be submitted to 
        FRA before a PTC system can be certified; and

  <bullet> FRA's recognition that activation of PTC should proceed from 
        less complex to more complex areas.

    Despite the positive developments in 2012 and the railroads 
spending approximately $2.8 billion to date to install PTC, the year 
confirmed and increased our understanding of the challenges that remain 
to completing a nationwide, interoperable PTC system. The most 
significant are:

  <bullet> Wayside implementation continues to be constrained by the 
        limited number of firms that provide signal design services. 
        The signal system must still be individually redesigned and 
        replaced at more than 7,000 locations before PTC wayside 
        technology can be installed at those locations. Approximately 
        26,000 WIUs remain to be installed. This work must be 
        accomplished without compromising signal system safety or the 
        ability of the railroads to efficiently move the Nation's 
        freight. Based on current experience and available resources, 
        it is likely that wayside design and installation will extend 
        into 2018.

  <bullet> The track database, including critical features such as the 
        presence of signals and switches, must be validated. The 
        railroads must ensure that what is displayed to the train crew 
        via the track database and onboard system reflects what is 
        shown by railroad signals. It is a time-consuming and labor-
        intensive process.

  <bullet> There is limited expertise available to accelerate design 
        and development. The railroads have been developing expertise 
        as they build the onboard, wayside, and back office segments.

  <bullet> Core software delivery dates continue to slip, particularly 
        in connection with the Back Office Server (BOS) for I-ETMS. The 
        railroads do not expect the final release of core software, 
        which is necessary before the PTC system can be lab and field 
        tested, certified, and used in revenue service, until mid-2014.

  <bullet> Full system testing will likely continue into 2015, as will 
        the need to address issues with PTC components and software 
        identified by the testing.

  <bullet> Over 75 percent of the industry's employees must receive PTC 
        training. From the perspective of the employee retaining the 
        material and understanding its relevance, the optimal time to 
        train an employee is when PTC is rolled out on the employee's 
        territory.

  <bullet> Once testing is complete, the limited number of FRA 
        personnel available to work on PTC must still review each 
        railroad's individual Safety Plan and certify the PTC system. 
        While the provisional certification concept advanced by FRA 
        could reduce the delay associated with certification, even a 
        provisional certification will require time and review by FRA.

  <bullet> Portions of the PTC regulation are still not final, with 
        potential changes that could impact the scope of the 
        implementation effort.

  <bullet> As the potential for failure of individual components became 
        clear, systems have been designed with more redundancy, thus 
        lengthening the design process.

  <bullet> PTC cannot be rolled out on an entire railroad all at once. 
        Implementation of PTC must occur in phases and location by 
        location, starting with less complex areas and proceeding to 
        the more operationally complex areas, incorporating lessons 
        learned at each step.

    It is abundantly clear that the railroad industry cannot install 
interoperable PTC on the entire nationwide network by the December 31, 
2015, deadline.
II. PTC Components
A. Locomotives
    Approximately 22,000 locomotives, which constitute most of the 
Class I railroads' locomotive fleet, must be equipped with PTC 
technology.\3\ The ISP identified several reasons why equipping 
locomotives with PTC technology is taking longer than projected in the 
railroads' original implementation plans.\4\ However, several of those 
challenges were resolved or became less of a concern in 2012:
---------------------------------------------------------------------------
    \3\ All the estimates in this paper are premised on the PTC 
regulations in existence on April 1, 2013. The industry has requested 
amendments to those regulations that would reduce certain estimates, 
including the number of locomotives that would need to be equipped with 
PTC.
    \4\ ISP at 4.

  <bullet> vendor supply chain issues and capacity have improved and 
        available hardware (but not software) components are generally 
---------------------------------------------------------------------------
        being delivered on time;

  <bullet> production of the 220MHz locomotive radio began in 2012; and

  <bullet> hardware design changes necessary to support the messaging 
        system on some railroads were completed.

    These positive developments aided the railroads in making 
significant progress on their ``double touch'' strategy for equipping 
locomotives in 2012.\5\ Over 3,000 locomotives were equipped or 
partially equipped in 2012; over 6,000 locomotives have been equipped 
or partially equipped to date. While the good news is that the number 
of equipped or partially equipped locomotives continued to climb in 
2012, most of these locomotives were only partially equipped and will 
have to be cycled back through a shop to complete installation and 
perform PTC commissioning tests.
---------------------------------------------------------------------------
    \5\ ``Double touch'' refers to shopping locomotives twice to equip 
them with PTC, partially installing PTC equipment at the first 
shopping.
---------------------------------------------------------------------------
    A significant development hurdle remains with the development of 
the onboard software that runs on the Train Management Computer (TMC) 
for the railroads using I-ETMS. The complexity of the software, 
combined with the many interfaces with other components of the PTC 
system, has resulted in multiple reviews of the design. The delivery 
date for this critical software component slipped several times over 
the course of 2012 and at the present time there is no delivery date 
for the final version of the onboard software. Nevertheless, sufficient 
progress has been made so that railroads plan to begin fully equipping 
locomotives with all necessary PTC equipment in 2013 rather than 
continuing to employ the double touch strategy.
    While much work remains to be done in regard to equipping 
locomotives, the industry plans to have approximately \3/4\ of the 
locomotives required to be equipped with PTC technology fully equipped 
by December 31, 2015.\6\
---------------------------------------------------------------------------
    \6\ See Table 1 in Attachment B.
---------------------------------------------------------------------------
B. Wayside Technology
    For the reasons described in the ISP, tens of thousands of miles of 
existing signal system infrastructure still need to be replaced. As 
discussed previously, each of the approximately 12,300 replacement 
projects is complicated and lengthy, requiring individual analysis and 
design and signal replacements or upgrades before the WIU's can be 
installed at these locations.\7\
---------------------------------------------------------------------------
    \7\ ISP at 6.
---------------------------------------------------------------------------
    Qualified signal personnel are needed for design, installation, and 
validation, both in the lab and in the field. The limited number of 
qualified signal design firms and personnel available to the railroad 
industry continues to constrain how quickly railroads can complete the 
design, upgrade, installation, and testing required for PTC signal 
projects. The railroads have hired over 2,200 signal personnel 
specifically for PTC.\8\ However, the great majority of these new hires 
provide assistance only with the installation of PTC at wayside 
locations, not with the more complicated analysis and design work that 
is typically handled by established signal design firms. Personnel 
hired for installation work are, of course, limited to performing work 
at locations where designs have been completed. Product availability 
has improved, although it continues to be a concern along with the 
extensive lab and field testing required for these products.
---------------------------------------------------------------------------
    \8\ See Table 2 in Attachment B.
---------------------------------------------------------------------------
    Despite these factors, railroads made considerable progress with 
installation of wayside technology in 2012. Over 7,000 WIU's were 
installed in 2012, bringing the total installed to approximately 9,700. 
That leaves approximately 26,000 WIU's of the approximately 36,000 
total WIU's needed remaining to be installed.\9\ Similarly, 
approximately 3,700 signal replacement projects were completed in 2012, 
bringing the total completed to over 5,000. However, that still leaves 
over 7,000 of the approximately 12,300 PTC signal replacement projects 
identified by the industry to be completed.\10\ The sheer volume and 
complexity of this safety-critical work, which impacts the functioning 
of railroad signal systems as well as PTC, is one of the most 
significant reasons that the railroad industry cannot meet the 2015 
deadline. This work is expected to extend into 2018.
---------------------------------------------------------------------------
    \9\ See Tables 3 and 4 in Attachment B.
    \10\ See Table 5 in Attachment B.
---------------------------------------------------------------------------
C. Switches
    Most of the work involved in upgrading switches in non-signaled 
territory remains. In analyzing the technology required for switches, 
railroads have determined that these will be mostly turnkey solutions 
currently under development by several suppliers. In 2012, 227 switches 
were equipped with power, bringing the total so equipped to 436; 236 
were equipped with WIU's, bringing the total so equipped to 361; and 36 
were equipped with switch monitors, bringing the total so equipped to 
148. Over 4,400 switches still need to be equipped with power and WIUs, 
and approximately 3,400 switch position monitors still need to be 
installed.\11\
---------------------------------------------------------------------------
    \11\ See Table 6 in Attachment B.
---------------------------------------------------------------------------
D. Communications
    As explained in the ISP, all PTC wayside locations and all PTC-
enabled locomotives must be equipped with a complex, interoperable, 
wireless communications infrastructure.\12\ Railroads have created a 
private radio frequency network capable of transmitting and receiving 
the data necessary to support an interoperable PTC network using 
spectrum in the 220 MHz band as the interoperability communications 
standard. To date, the seven Class I railroads have invested 
approximately $40 million in acquiring and managing 220 MHz spectrum.
---------------------------------------------------------------------------
    \12\ ISP at 8.
---------------------------------------------------------------------------
    Production quantities of PTC radios were first available in May 
2012. Since then, railroads have been procuring and installing them. In 
parallel, railroads have undertaken numerous associated activities, 
including coverage analyses, site selection, antennae installation, and 
upgrading power supplies.
    One of the key challenges that has emerged is deploying a national 
220 MHz communications network for PTC that includes adequate 
coordination between railroads to avoid interference. Various tools are 
being developed to help mitigate interference, but this will continue 
to be a substantial task.
    Some additional complexities associated with the design and 
implementation of the communications system became apparent in 2012. 
Complete signal wayside design and GIS data and train movement data are 
all necessary to properly design the radio network; each of these data 
elements must be taken into account to ensure there is adequate 
capacity to handle all the data. In addition, as new users roll out 
their PTC systems in locations where other railroads are already 
testing or using PTC, railroads will likely have to re-engineer their 
radio networks to address potential interference and ensure the 
additional demand for data can be met. Another issue that has emerged 
is the potential for delays associated with the Federal Communications 
Commission's environmental rules, including the separate completion of 
the environmental and historic preservation processes for each of the 
over 20,000 antenna structures required for PTC.
    Four railroads have invested approximately $180 million to date in 
the development and installation of 220 MHz radios for base stations, 
wayside locations, and locomotives, each of which requires a distinct 
type of radio. Still, over 3,800 base station radios, over 31,000 
wayside radios, and over 21,000 locomotive radios need to be 
manufactured and installed.\13\
---------------------------------------------------------------------------
    \13\ See Table 7 in Attachment B.
---------------------------------------------------------------------------
    Finally, in 2012 railroads studied spectrum needs in congested 
metropolitan areas and confirmed that railroads will need to acquire 
additional spectrum in Chicago. Other areas being studied include 
Kansas City, New York, Toledo, St. Louis, Minneapolis-St. Paul, and New 
Orleans. The adequacy of coverage in congested metropolitan areas will 
not be fully known until the PTC system is implemented and operational 
in those areas.
E. PTC Back Office
    The pace of development of the Back Office Segment and PTC-related 
back office systems remains challenged by design complexity, 
availability of supplier resources, and scalability of the solution. 
Insofar as the I-ETMS BOS is concerned, the railroads and their 
contractors continued development in 2012, but a ``final'' version is 
not expected to be available until mid-2014.
    The need to test thoroughly the PTC back office systems, including 
the BOS, and address issues and defects identified during the testing 
process also significantly impact the pace of development. Lab testing 
of the related technologies and systems will generally find some 
defects, as was the case with the initial software release for the BOS, 
requiring subsequent revisions of the technologies or systems that fix 
the defects. Unavailability of the final production version of the BOS 
is one of the critical factors preventing the railroads from installing 
PTC on the entire nationwide network by the current 2015 implementation 
date.
1. Back Office Server

    For the over one dozen railroads implementing the I-ETMS BOS, the 
software version that includes essential requirements for vital overlay 
PTC system certification is now scheduled to be ready for testing in 
mid-2014. A production version of the BOS software will be unavailable 
until after the required lab testing, likely late 2014 at the earliest. 
While the railroads are considering all possible strategies to expedite 
this schedule, at this time there is no apparent alternative strategy 
or approach that would significantly accelerate the delivery date. As 
with the software for the locomotive, the complexity of the BOS 
software combined with the many interfaces with other components of the 
PTC system has required detailed design and analysis to ensure proper 
operation.
2. Geographical Information System (GIS)

    The railroads made substantial progress with respect to the GIS 
component of PTC systems in 2012. The industry developed a common 
approach to validation and verification of the data to ensure all 
essential data elements are captured. A common approach facilitates 
review by FRA and also provides non-Class I railroads a template they 
can use. Over 13,000 track miles were GIS mapped in 2012, bringing the 
total miles GIS mapped to approximately 80,000; approximately 15,800 
track miles were data processed in 2012, bringing this total to over 
41,000; and over 6,000 track miles of GIS data were converted to PTC 
subdivision files in 2012, bringing the total of converted track miles 
to over 9,000. However, much work remains to be done. Over 17,000 track 
miles remain to be GIS mapped; almost 56,000 miles remain to be data 
processed; and almost 88,000 miles remain to be converted to the PTC 
subdivision files needed for the locomotive's PTC system.\14\ 
Furthermore, substantial work remains to be done to develop and 
implement sustainable processes to document and update the GIS 
coordinates every time one of the over 470,000 critical PTC assets are 
moved by more than 1 foot.
---------------------------------------------------------------------------
    \14\ See Table 8 in Attachment B.
---------------------------------------------------------------------------
3. Dispatch

    The dispatch system must interact with the PTC system via a common 
interoperable interface with the BOS. For some railroads, the 
enhancements needed for the dispatch system are extensive and have 
taken considerable analysis and effort to design, code, and test. 
Additionally, changes made to the BOS require an analysis of the effect 
on the interface of the dispatch system with the PTC system. At least 
four railroads will not have a PTC-capable dispatch system until 
2014.\15\
---------------------------------------------------------------------------
    \15\ See Table 9 in Attachment B.
---------------------------------------------------------------------------
III. The Integration and Testing Challenge
    The challenges and risks associated with integrating and testing 
the many components of PTC have not diminished. Many of the 20 plus PTC 
components have been tested by the supplier and some ``nearest 
neighbor'' testing of interfacing components has started with 
preliminary releases of software during 2012. However, end-to-end 
testing of the final system of interoperable software, with all known 
hazards mitigated, is still one to two years away.
    Railroads have been nimble in adjusting to the testing challenge. 
As component releases are delayed due to the complexity of the design 
or the need to fix defects, the interaction of those components can 
quickly get out of sync on the release cycle timeline. Nevertheless, 
railroads have revised test plans and realigned resources to conduct 
nearest neighbor testing with intermediate versions of software as 
software delivery schedules have slipped. They have taken advantage of 
opportunities to test releases of software and hardware to ferret out 
defects and issues early in the release continuum, when more extensive 
integration testing is not yet possible. To keep the schedule moving 
forward to the extent possible, railroads have undertaken preliminary 
testing using software written to interim versions of ``interface 
control documents'' (ICDs) and written translators to bridge the gap 
between the different ICDs.\16\ In some cases these stop-gap 
assemblages of software have been tested in the field with a hi-rail 
vehicle.
---------------------------------------------------------------------------
    \16\ ICDs contain the format for how systems communicate with each 
other.
---------------------------------------------------------------------------
    Railroad testing has identified more than 600 software defects to 
date, underscoring the importance of thorough testing to ensure the 
integrity of the PTC system. While these efforts successfully 
identified potential defects, only true end-to-end testing with final 
software will determine whether the integration of all the PTC 
components is effective. Based on current schedules, this will not 
begin until late 2014. At that time any additional defects discovered 
will have to be analyzed and remediated, further delaying the time at 
which widespread PTC implementation can proceed.
IV. The Certification Process Could Take Considerable Time
    AAR remains concerned that the certification process could take a 
considerable amount of time and that FRA will not have the resources to 
review and certify PTC systems expeditiously. As FRA acknowledged in 
its August 2012 Report to Congress, FRA will need at least 6 to 9 
months to review PTC Safety Plans, and approximately 38 railroads will 
need certification.\17\ In an attempt to expedite final review, in 2012 
the Class I railroads' Joint Rail Safety Team (JSRT) developed a format 
and common portions of a PTC Safety Plan and submitted drafts for FRA 
review and comment. In addition, in 2012 FRA and the JRST began holding 
quarterly meetings to facilitate communications between the parties, 
discuss FRA's concerns about implementation, and clarify FRA's 
interpretation of the PTC regulations. The meetings continue to foster 
a good working relationship between the industry and FRA. However, 
while this joint effort of the railroads and FRA is helpful, each 
railroad will have a unique PTC safety plan that FRA will need to 
review and approve. Furthermore, while railroads have been and will 
continue partial installation of PTC equipment prior to certification, 
the time required for FRA certification is one of the critical elements 
impacting the date by which the PTC mandate can be implemented.\18\
---------------------------------------------------------------------------
    \17\ FRA Report to Congress, p. 41. Based upon the nearly 18 months 
that it took for FRA to approve the PTC Development Plan, a less 
complex document, the approval period could take even longer than 
estimated by FRA.
    \18\ FRA in its August 2012 Report to Congress suggested a 
legislative change that would permit FRA to provisionally certify PTC 
systems. Once provisionally certified, a railroad could operate its PTC 
system pending final review. While a constructive suggestion that could 
assist in evaluating PTC systems in operation, this change would not 
alter the fact that the railroads cannot install PTC on the entire 
nationwide network by the 2015 deadline. Even provisional certification 
will require a review and approval process for FRA. It is difficult to 
imagine that process will take less than 6 months.
---------------------------------------------------------------------------
    As FRA also noted in its Report to Congress, the shortage of 
qualified people extends to FRA. FRA noted that its PTC staff consists 
of 10 PTC specialists and 1 supervisor, who are responsible for 
monitoring PTC system installation and testing nationwide and for the 
technical review and approval of all documentation associated with the 
statutorily-required PTC system certification.\19\ Railroads will be 
submitting PTC Safety Plans, amendments to their PTC filings, and other 
related documents. FRA, as do the railroads, faces the challenge of key 
personnel retiring as well as other resource constraints that impact 
the agency's ability to review, comment, and approve the required 
documentation. As FRA noted in its Report to Congress, the industry 
remains concerned that the continued shortage of FRA resources could 
delay the implementation of an interoperable PTC system.
---------------------------------------------------------------------------
    \19\ FRA Report to Congress, p. 41.
---------------------------------------------------------------------------
    V. Interoperability: The Current Implementation Schedules Could 
Adversely Affect the Reliability and Effectiveness of PTC
A. Phasing in PTC
    Attachment B to the ISP discussed problems that could arise from 
implementation schedules under which PTC is deployed first in locations 
presenting complex interoperability issues. The railroads suggested a 
phased approach to PTC under which PTC will be implemented in less 
operationally complex areas first, which is a departure from current 
implementation plans. FRA has indicated that it agrees with this 
general approach. Accordingly, the railroads intend to update the 
implementation schedules in their respective PTC Implementation Plans 
to take these complex interoperability issues into account.
    The PTC Reliability Study recently provided by AAR to FRA raises 
significant concerns over the reliability of the fully assembled PTC 
system. The Study underscores the need for a phased approach for 
implementation that will allow the railroads to assess the PTC system 
in operation so that failures, while they will occur, can be reduced to 
the extent possible and the efficiency of the railroad network 
maintained to the greatest extent feasible. The time needed to phase in 
PTC is another reason why the industry cannot meet the current 2015 
deadline to implement PTC on the entire nationwide network.
B. Interoperability Standards
    Ensuring the interoperability of PTC requires numerous 
interoperability standards. AAR and its member railroads made 
considerable progress towards developing those standards in 2012. 
Attachment C describes the status of the interoperability standards 
required for PTC. Of the 34 standards being developed, 18 have been 
finalized. Drafts of 12 more have been published for public comment.
    In 2012 it became clear that the railroads also need to adopt 
industry standards for the ongoing use and operation of PTC. These 
standards are necessary in order for the railroads operating a PTC 
system to ensure that updates to PTC hardware and software are 
acceptable. In the absence of such standards, there is no assurance 
that upgraded PTC components and software will be compatible with and 
continue to work with other components of the PTC system or that 
interoperability will be maintained.
VI. Rolling Out PTC
    As noted above and in the ISP, PTC cannot be rolled out on an 
entire railroad system at the same time. It must be implemented in 
phases and location by location, typically on a subdivision basis.
    Furthermore, as also stated in the ISP, training employees remains 
a daunting task that places practical limits on the speed with which 
PTC can be safely and effectively rolled out across a railroad system. 
While training courses and materials continue to be developed, the 
railroads recognize that this training must occur in a phased approach. 
Employees on each subdivision will have to receive significant training 
immediately prior to activation of PTC on the subdivision where they 
work. On the Class I railroads alone, approximately 68,000 engineers 
and conductors, 7,200 signal employees, 2,500 dispatchers, and 
thousands of others, including mechanics, electricians, and 
supervisors, will have to be trained on PTC. Delays in designing and 
installing PTC affect the pace of training railroad employees.
VII. Conclusion
    The railroad industry has invested a tremendous amount of time, 
effort and money to complete a nationwide interoperable PTC-system as 
quickly as possible. As of the end of 2012, the railroads had invested 
approximately $2.8 billion (up from $1.6 billion at the end of 2011) 
and had also devoted millions of man-hours to the development of 
PTC.\20\ However, as demonstrated above, the railroads will not be able 
to implement PTC on the entire nationwide network by December 31, 2015.
---------------------------------------------------------------------------
    \20\ See Table 10 in Attachment B.
---------------------------------------------------------------------------
    Because of all the uncertainties associated with the development 
and installation of PTC, it is impossible to set forth a precise 
timeline for completion of a nationwide, interoperable PTC network. 
Factors that affect a railroad's timeline for completion of PTC on its 
system, include variations in geography; type and age of the railroad's 
wayside signaling infrastructure (legacy relay technology must be 
converted to solid state technology); the density of train operations; 
the number of rail-to-rail interlockings; the number of connections 
with other railroads; and the number of operating environments (with 
different combinations of these factors) that must be addressed. In 
addition, until a railroad tests and installs its PTC system, it is 
impossible to know what other difficulties will be encountered and how 
they might affect progress in completing the railroad's PTC network. As 
discussed previously, the critical software for the back office server 
for I-ETMS will not be fully tested and ready to be installed until 
late 2014 at the earliest. Finally, the scope of the PTC network will 
impact a railroad's ultimate completion date.
    Taking into account the above factors, the eight railroads 
providing data for this paper anticipate that by December 31, 2018, all 
PTC hardware will be installed and PTC will be in operation on most of 
the mandated PTC routes. (The date by which PTC will be in operation on 
all of a railroad's mandated PTC routes will vary by railroad.) The 
industry continues to seek ways to speed progress while maintaining 
safe operations in order to achieve complete deployment as soon as 
possible. Thus, while current projections show that a portion of the 
PTC network will not be completed by the end of 2018, that certainly 
could change.
    Keeping in mind the uncertainty in projecting a completion date, 
Table 11 shows the railroads' current expectations regarding future 
annual PTC expenditures and annual installations of wayside interface 
units, base station radios, and PTC equipment on locomotives, as well 
as the number of employees they expect will be trained. (Table 11 is 
premised on the PTC network required by the current regulations.) Table 
11 also shows by year the extent to which the railroads will have 
installed PTC on the routes that will have PTC capability. The year 
``2018 and beyond'' column includes data for what the railroads 
currently project will remain to be done in and beyond 2018. The eight 
railroads anticipate they will have spent $8 billion by the end of 2018 
on PTC.
    This paper shows that the railroad industry has done its utmost to 
install a nationwide, interoperable PTC network. However, much work 
remains to be done. While substantial progress toward completing the 
network will have been made by the end of 2015, the entire project will 
not be complete by that date.
                              Attachment B
PTC Data \1\
---------------------------------------------------------------------------
    \1\ The data in this Attachment is based on estimates as of 
December 31, 2012, current PTC implementation plans on file with FRA 
(including amendments to plans that have been approved by FRA), and the 
regulations in existence on December 31, 2012.

                                    Table 1.--Equipping Locomotives with PTC
----------------------------------------------------------------------------------------------------------------
            Railroad               ARR      BNSF      CN       CP      CSX      KCS       NS       UP     Total
----------------------------------------------------------------------------------------------------------------
# to be equipped                      54    4,000    1,000    1,143    4,100      591    3,811    7,267   21,966
# partially equipped to date          53      917       58      163    1,705       40    1,383    1,591    5,910
# fully equipped                       0      146        0        0        0        0        0        0      146
----------------------------------------------------------------------------------------------------------------


    Table 2.--Railroad Signal Personnel Hired or Retained Due to PTC
------------------------------------------------------------------------

------------------------------------------------------------------------
ARR                                                                    4
BNSF                                                                 820
CN                                                                    32
CP                                                                    35
CSX                                                                  494
KCS                                                                   36
NS                                                                   300
UP                                                                   539
------------------------------------------------------------------------
Total                                                              2,260
------------------------------------------------------------------------


                                      Table 3.--Integrated WIU Installation
----------------------------------------------------------------------------------------------------------------
            Railroad               ARR      BNSF      CN       CP      CSX      KCS       NS       UP     Total
----------------------------------------------------------------------------------------------------------------
# integrated WIUs required to         54    5,709    1,061      491    5,029      620    4,249   11,895   29,108
 be deployed
# integrated WIUs deployed to          0    4,518       67       49      487      238      597    3,003    8,959
 date
# integrated WIUs remaining to        54    1,191      994      442    4,542      382    3,652    8,892   20,149
 be deployed
----------------------------------------------------------------------------------------------------------------


                                     Table 4.--Stand-alone WIU Installation
----------------------------------------------------------------------------------------------------------------
            Railroad               ARR      BNSF      CN       CP      CSX      KCS       NS       UP     Total
----------------------------------------------------------------------------------------------------------------
# stand-alone WIUs required to        38    1,180      699      620    1,167      217    1,096    1,934    6,951
 be deployed
# stand-alone WIUs deployed to         0      209        0       15       10       42       39      452      767
 date
# stand-alone WIUs remaining to       38      971      699      605    1,157      175    1,057    1,482    6,184
 be deployed
----------------------------------------------------------------------------------------------------------------


                                      Table 5.--Signal Replacement Projects
----------------------------------------------------------------------------------------------------------------
            Railroad               ARR      BNSF      CN       CP      CSX      KCS       NS       UP     Total
----------------------------------------------------------------------------------------------------------------
# locations of signal                  0    3,965      134       66     1724      364    1,850    4,200   12,303
 replacement required
# locations replaced to date           0    2,490       89       26      561      180      597    1,255    5,198
# locations remaining to be            0    1,475       45       40    1,163      184     1253     2945    7,105
 replaced
----------------------------------------------------------------------------------------------------------------


                                 Table 6.--Switches in Non-Signal PTC Territory
----------------------------------------------------------------------------------------------------------------
               Railroad                   ARR     BNSF     CN      CP      CSX     KCS     NS      UP     Total
----------------------------------------------------------------------------------------------------------------
                         # needed         64     1,180     227     481     973     148     728     974    4,775
----------------------------------------------------------------------------------------------------------------
# non-signaled      # equipped with          4      209       0      11      85      30      39      58      436
 switch locations    power to date
 needing power &
 WIUs
                   ---------------------------------------------------------------------------------------------
                    # remaining to be       60      971     227     470     888     118     689     916    4,339
                     equipped with
                     power
                   ---------------------------------------------------------------------------------------------
                    # equipped with          4      209       0      11      10      30      39      58      361
                     WIUs to date
                   ---------------------------------------------------------------------------------------------
                    *# remaining to be      60      971     227     470     963     118     689     916    4,414
                     equipped with
                     WIUs
                   ---------------------------------------------------------------------------------------------
# non-signaled      # needed                 0        0     227     481     973     148     728     974    3,531
 switch locations
 needing switch
 position monitors
                   ---------------------------------------------------------------------------------------------
                    # equipped to date       0        0       0      11      10      30      39      58      148
                   ---------------------------------------------------------------------------------------------
                    # remaining to be        0        0     227     470     963     118     689     916    3,383
                     equipped
----------------------------------------------------------------------------------------------------------------


                                       Table 7.--Communications Deployment
----------------------------------------------------------------------------------------------------------------
              Railroad                 ARR     BNSF     CN      CP      CSX     KCS      NS       UP      Total
----------------------------------------------------------------------------------------------------------------
                       # needed        33      731      181     134    1,285    120      700    1,036     4,220
----------------------------------------------------------------------------------------------------------------
# Base station     # installed            3      297       0       0      30        0      62        4       396
 220 MHz radios
                  ----------------------------------------------------------------------------------------------
                   # of future           30      434     181     134   1,255      120     638    1,046     3,838
                    installations
                    needed
                  ----------------------------------------------------------------------------------------------
# Wayside          # needed              78    5,863   1,751     687   5,299      828   5,478   13,700    33,684
 location 220 MHz
 radios
                  ----------------------------------------------------------------------------------------------
                   # installed            0    1,282       0       0     748        0      78      102     2,210
                  ----------------------------------------------------------------------------------------------
                   # of future           78    4,581   1,751     687   4,551      828   5,400   13,598    31,474
                    installations
                    needed
                  ----------------------------------------------------------------------------------------------
Locomotive 220     # needed              54    4,000   1,000   1,143   4,100      591   3,811    7,267    21,966
 MHz radios
                  ----------------------------------------------------------------------------------------------
                   # installed            0      146       0       1      20        0       0        2       169
                  ----------------------------------------------------------------------------------------------
                   # of locomotives      54    3,854   1,000   1,142   4,080      591   3,811    7,265    21,797
                    remaining to be
                    equipped
----------------------------------------------------------------------------------------------------------------


                                                          Table 8.--Status of PTC GIS Projects
--------------------------------------------------------------------------------------------------------------------------------------------------------
                           Railroad                              ARR      BNSF       CN        CP        CSX       KCS       NS         UP       Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
     # PTC assets to be *  mapped and extracted  for GIS        2,800    95,925    25,630    17,802    114,731    9,641    77,000    130,000    473,529
                         consumption                          ------------------------------------------------------------------------------------------
--------------------------------------------------------------
# track miles  required  to be                                   600     13,925      80        865      21,455    1,977    16,107     25,000     80,009
          GIS  mapped               # miles mapped to date
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                # miles to be mapped                 0    10,562     4,300     1,871        110      250         0          0     17,093
--------------------------------------------------------------------------------------------------------------------------------------------------------
# track miles required to be    # miles processed to date          600     9,758        20       273      7,742      153       231     22,500     41,277
 data processed
                               -------------------------------------------------------------------------------------------------------------------------
                                # miles remaining to be              0    14,729      4300     2,463     13,823    2,074    16,107      2,500     55,996
                                 processed
--------------------------------------------------------------------------------------------------------------------------------------------------------
# track miles GIS data to be    # converted to date                600     6,455         0       273      1,420      153       231        300      9,432
 converted to PTC subdiv files
                               -------------------------------------------------------------------------------------------------------------------------
                                # remaining to be converted          0    18,032     4,300     2,463     20,145    2,074    16,107     24,700     87,821
--------------------------------------------------------------------------------------------------------------------------------------------------------
* The calculation of assets to be mapped includes the following: integer mileposts; signals; crossings; switches; interlockings/control point locations;
  permanent speed restrictions; the beginning and ending limits of track detection circuits in non-signaled territory; clearance point locations for
  every switch location installed on the main and siding tracks; and inside switches equipped with switch circuit controllers.


            Table 9.--Status of PTC Dispatch System Projects
------------------------------------------------------------------------
           Railroad                  Date System will be PTC-capable
------------------------------------------------------------------------
ARR                             April 2013
BNSF                            Completed
CN                              1st quarter 2014
CP                              June 2014
CSX                             3rd quarter 2014
KCS                             1st quarter 2014
NS                              3rd quarter 2013
UP                              Completed
------------------------------------------------------------------------


                        Table 10.--PTC Investment
------------------------------------------------------------------------
                                       PTC investment through  December
              Railroad                           31, 2012 ($)
------------------------------------------------------------------------
ARR                                                           34,000,000
BNSF                                                         739,694,000
CN                                                            55,900,000
CP                                                           102,340,000
CSX                                                          585,000,000
KCS                                                           50,374,000
NS                                                           443,466,772
UP                                                          $759,000,000
------------------------------------------------------------------------
Total                                                  $2,769,774,772.00
------------------------------------------------------------------------

                              Attachment C

----------------------------------------------------------------------------------------------------------------
                                                                                        Revised and
                                                                                           Sent to
                                                                            Delivered     Railway       Final
                                                                           to  AAR and  Electronics    Version
             ITC Sourced Specifications                Total     Started     Published    Standards    Released
                                                                               for       Committee      by AAR
                                                                             Comment        for
                                                                                          Adoption
----------------------------------------------------------------------------------------------------------------
Interface Control Documents                                  8          8            4            3            3
Requirements Specifications                                 14         14           12            9            8
Architectural Specifications                                 2          2            2            2            2
Database Definitions                                         2          2            4            3            2
Protocol Specifications                                      3          3            3            3            2
Recommended Practices                                        1          1            1            0            0
Test Plans                                                   1          1            1            1            1
Test Reports                                                 0          0            0            0            0
----------------------------------------------------------------------------------------------------------------
Total Specifications                                        31         31           27           21           18
----------------------------------------------------------------------------------------------------------------


                        Table 11.--PTC Timeline Based on PTC Regulations as of 12/31/2012
----------------------------------------------------------------------------------------------------------------
                Railroad                   Class
-----------------------------------------    1s                                                   2018
                                         ---------   2013     2014     2015     2016     2017     and     Totals
                Component                   Thru                                                beyond*
                                            2012
----------------------------------------------------------------------------------------------------------------
Locomotives Partially Equipped              6,031    4,242    1,365      678      650      314       77   13,357
Locomotives Fully Equipped                    224      987    6,948    7,425    4,425    1,509      448   21,966
Percent Complete                               1%       6%      37%      71%      91%      98%     100%
Wayside Interface Units installed           9,726    5,300    4,950    5,837    4,210    3,988    2,048   36,059
Percent Complete                              27%      42%      55%      72%      83%      94%     100%
Base Station Radios Installed                 403      976    1,285    1,267      222       52       34    4,239
Percent Complete                              10%      33%      63%      93%      98%      99%     100%
PTC Route Miles Implemented                   207    1,085    8,320   15,516   11,983   12,760   12,341   62,213
Percent Complete                               0%       2%      15%      40%      60%      80%     100%
Employees Trained                           5,724    4,013   10,930   28,692   16,520   13,276   17,545   96,700
Percent Complete                               6%      10%      21%      51%      68%      82%     100%
PTC Spending ($M)                           2,770    1,377    1,403    1,221      572      393      241    7,978
----------------------------------------------------------------------------------------------------------------
Cumulative Spending ($M)                    2,770    4,147    5,549    6,771    7,343    7,736    7,978
----------------------------------------------------------------------------------------------------------------
* The year 2018 and beyond column includes data for what the railroads currently project will remain to be done
  in and beyond 2018.Because of all the uncertainties associated with the development and installation of PTC,
  it is impossible to set forth a precise completion date. The railroads currently project that by the end of
  2018, all hardware will be installed and PTC will be in operation on approximately 90 percent of the mandated
  PTC routes, by mileage. The industry continues to seek ways to speed progress while maintaining safe
  operations in order to achieve complete deployment as soon as possible.
Assumptions:
1--70% confidence factor in accomplishing the above metrics.
2--No FRA accomodation on yard movements in PTC territory. The spreadsheet only reflects the cost of equipping
  yard locomotives. The spreadsheet does not reflect the potential cost of operational impacts such as reduced
  operational efficiency and potential expenses that will be associated with resolving technical issues such as
  overloaded communications systems and the potential impossibility of accommodating PTC equipment on remote
  control locomotives.
3--Costs represent capital expenses only, no operating or maintenance expenses.


    Senator Blumenthal. Thank you, Mr. Hamberger.
    Ms. Waters?

          STATEMENT OF KATHRYN WATERS, EXECUTIVE VICE

              PRESIDENT, MEMBER SERVICES, AMERICAN

               PUBLIC TRANSPORTATION ASSOCIATION

    Ms. Waters. Good morning, Chairman Blumenthal, Senator 
Blunt, and members of the Committee. On behalf of the American 
Public Transportation Association, I thank you for the 
opportunity to testify on commuter rail safety. You have our 
written submission, and I will now try to summarize the key 
points.
    As you said, my name is Kathryn Waters. I am APTA's 
Executive Vice President for Member Services. Before coming to 
APTA, I served as Senior Deputy Administrator in the Maryland 
Transit Administration in Baltimore. Before that, with Dallas 
Area Rapid Transit as Vice President for Commuter Rail and 
Railroad Management, where I had responsibility for the 
commuter rail system between Dallas and Fort Worth. And for 
many years, I worked in different capacities with the MARC 
train service in Maryland, culminating as Chief Operating 
Officer.
    APTA is committed to safety. Passenger and employee safety 
is our number one priority for our commuter railroads.
    Since 1882, APTA and its predecessor associations have been 
advocates for safety improvements. With that said, we are 
always working to make our industry safer.
    While our testimony speaks to PTC, an effective safety 
system is about more than one specific procedure or technology. 
A culture of safety begins with a commitment by the senior 
leadership working with employees to adopt and adhere to common 
safety goals and practices. APTA's voluntary standard 
development program and the safety audit program are examples 
of the ways that the industry promotes safety. Both programs 
are described in my written statement.
    APTA has consistently supported the concept of PTC, long 
before the Rail Safety Improvement Act of 2008, provided that 
proven technology, resources, and radio spectrum were 
available. APTA is working with its member railroads as we 
speak to meet the law's requirements on the Nation's commuter 
railroads.
    We want to work with this committee on the best way to get 
PTC systems installed on commuter railroads. PTC, as you know, 
is defined as a system designed to prevent train-to-train 
collisions, overspeed derailments, incursions into established 
work zone limits, and the movement of a train through a switch 
left in the wrong position.
    Some commuter railroads already have collision avoidance 
systems, some of which have been in place for many years. 
However, there is still no off-the-shelf technology capable of 
achieving all of the law's safety objectives today.
    Key components of PTC systems, such as the software 
upgrades and revisions, and the roadway worker protection 
components, are still under development. This technology is 
also heavily dependent on the transmission of huge amounts of 
digital data, requiring newly designed radios and significant 
amounts of radio spectrum to deliver information to trains.
    All of this is essentially untested in the actual commuter 
rail operating environment. Moreover, implementation costs are 
challenging, especially for publicly operated commuter 
railroads trying to deal with hundreds of state-of-good-repair 
projects unrelated to PTC, but many of which impact directly 
and significantly on the safety of operations.
    Congress has appropriated only $50 million of the $250 
million authorized for PTC, while implementation costs for 
commuter railroads are well in excess of $2 billion, and that 
excludes operating and inspection costs. As you know, many 
railroads in the East Coast are now also trying to deal with 
repair and rehabilitation costs related to Hurricane Sandy.
    We have known about these challenges for some time. We have 
told Congress for several years that we are concerned about our 
ability to implement PTC by the deadline. We sought Federal 
funding to help commuter rail pay for the costs of the 
implementation. We have asked the FCC and Congress to provide 
radio spectrum without cost for PTC implementation. We have 
also recommended the deadline for implementation be extended 
from 2015 to 2018.
    And as Mr. Hamberger mentioned, we have been working with 
the FRA and with the freight railroads. We did do a report 
jointly with AAR concerning the challenges of meeting the 
deadline.
    In its report to Congress, FRA recommended that it be 
allowed to approve a railroad to use alternative safety 
technologies on specified line segments in lieu of PTC, 
particularly in areas with low safety risk, if appropriately 
and properly justified to FRA. We support the FRA's 
recommendation to make such decisions.
    We have also urged Congress to provide resources needed to 
do FRA inspections and reviews for approval of PTC systems, and 
to ensure that open standards on PTC technology are in place so 
that railroads can buy equipment and services in a competitive 
marketplace.
    I appreciate the opportunity to testify today and would be 
happy to answer any questions.
    [The prepared statement of Ms. Waters follows:]

Prepared Statement of Kathryn Waters, Executive Vice President, Member 
          Services, American Public Transportation Association
Introduction
    Chairman Rockefeller, Senator Thune, Acting Chairman Blumenthal and 
Senator Blunt, and members of the Commerce, Science and Transportation 
Committee, on behalf of the American Public Transportation Association 
(APTA) and its more than 1,500 member organizations, I thank you for 
this opportunity to testify on rail safety as it relates to the 
nation's commuter railroads. In particular, I will update the Committee 
on progress and challenges related to the implementation of positive 
train control (PTC) on the nation's commuter railroads.
    My name is Kathryn Waters. I am APTA's Executive Vice President, 
Member Services, here in Washington, D.C. Before coming to APTA, I was 
Deputy Administrator at the Maryland Transit Administration in 
Baltimore, where I was responsible for all transit operations 
departments. Previously, I worked at the Dallas Area Rapid Transit 
(DART) in several positions, including Vice President--Commuter Rail 
and Railroad Management, and earlier, for MARC Train Service in 
Maryland, culminating as manager and chief operating officer.
    As an APTA member, I served as chair of APTA's Commuter Rail 
Committee, and on APTA's Executive Committee as vice chair--commuter 
and intercity rail. I have represented APTA for more than 15 years on 
the rail safety advisory committee of the Federal Railroad 
Administration.
Overview
    First and foremost, please let me state that APTA is unequivocally 
committed to safety: passenger and employee safety is the number one 
priority on our Nation's commuter railroads. Since its inception, APTA 
and its predecessor associations have been vocal advocates and active 
instigators for safety improvements. In the mid-1990s, APTA developed 
the Passenger Rail Equipment Safety Standards (PRESS) program to 
develop safety standards for commuter rail cars. More recently, our 
commitment to safety was heralded by the rail industry regulator, 
Federal Railroad Administrator (FRA) Joe Szabo, who announced safety 
statistics citing that 2012 was the safest year in railroad industry 
history. With that said, we are always working to make our industry 
safer.
    APTA consistently supported the concept of positive train control 
(PTC) long before the Rail Safety Improvement Act (RSIA) of 2008, 
provided that proven technology, resources and radio spectrum necessary 
were available to put PTC into practice. We are working with our member 
railroads to meet the law's requirements that all of the Nation's 
commuter railroads have federally approved systems that help protect 
against accidents. We urge the Committee to focus on how to best 
install these still developing systems on an enormous and complicated 
network of interconnected railroads in a way that maximizes all of an 
operator's safety considerations while efficiently moving toward 
implementation. Commuter systems provide important transportation in 
and around many of our metropolitan regions, and demand for service and 
ridership continues to grow.
    Commuter rail safety has improved in recent years, but we continue 
to strive for improved safety. Commuter rail ridership has grown by 42 
percent since 1990, going from just under 328 million trips then to 
more than 466 million trips in 2012, and safety on the Nation's 
commuter systems has improved. Over the past 10 years, fatalities have 
declined from just above 0.9 per 100 million passenger miles to 0.5 per 
100 million miles in 2011. While commuter rail operators will always 
seek to improve and enhance safety, it is clear that travel by commuter 
railroad is among the safest modes of travel in the U.S.
About APTA
    The American Public Transportation Association is a non-profit 
international association of more than 1,500 public and private member 
organizations, including transit systems and high-speed, intercity, and 
commuter rail operators; planning, design, construction, and finance 
firms; product and service providers; academic institutions, transit 
associations and state departments of transportation. APTA members 
serve the public interest by providing safe, efficient and economical 
transit services and products. More than 90 percent of the people using 
public transportation in the United States and Canada are served by 
APTA member systems.
Culture of Safety
    While we address in this testimony a very significant element of 
the RSIA in the requirement to implement PTC, it is important that we 
make clear that PTC is but one element of an overall integrated 
approach to system safety. An effective safety culture is more 
important than any one specific procedure or technology. It begins with 
the commitment of the organization and senior leadership, working in 
collaboration with employees and labor in adopting common safety goals 
and expectations. It involves recognition that responsibility for 
safety lies at all levels and with all staff. One way our commuter rail 
agencies demonstrate their commitment is by having a comprehensive 
safety plan in place. It includes having sound policies and procedures, 
training, maintenance practices that include asset management and state 
of good repair considerations, data tracking for monitoring trends in 
operational, equipment, and infrastructure performance, and systems in 
place for auditing and assessing that performance. The transit and 
commuter rail industries have been leading on safety improvements over 
a 20 plus year evolution during which a great deal of attention and 
effort has been directed toward development of standardized systems and 
approaches to the delivery of safe service and work environments.
    As an example, all commuter rail agencies have developed Safety 
Management Program Plans, the framework of which was based upon APTA's 
Safety Audit Program. The APTA Safety Audit program is a voluntary, 
comprehensive program developed over a decade ago when a number of 
North American rail transit systems requested APTA to develop and 
implement a standardized format for rail system safety and to provide 
an auditing service that would enable a transit system to determine the 
degree to which the standardized elements for rail transit system 
safety were being addressed. By way of the adaptation of existing 
industry best practices and system safety standards from the aerospace 
industry, the APTA Rail Safety Audit Program was inaugurated in 1989. 
This program was subsequently adopted in 1996 by the U.S. Department of 
Transportation Federal Transit Administration as the base guideline for 
its Federal state safety oversight requirements.
    Currently there are dozens of rail transit systems and bus transit 
systems participating in APTA safety audit programs. These systems 
include mass transit/subway systems, light rail systems, automated 
guide-ways, heavy rail commuter systems, and bus transit operations 
across North America and Asia. Modal programs have been developed that 
are specific to urban rail, commuter rail, and bus safety management 
processes. The benefits derived from participation in the APTA Safety 
Management Program include:

  <bullet> Adoption of safety management practices that have been 
        established as an industry standard;

  <bullet> Building and enhancing safety management processes for 
        service delivery and workplace safety;

  <bullet> Providing a tool for demonstrating transit system diligence 
        for safety; and

  <bullet> Providing a mechanism for continual improvement of system 
        safety

    Effective Safety Program Implementation includes policies and 
procedures on: Facilities Maintenance and Inspection; Vehicle 
Maintenance, Inspection and Repair; Rules and Procedures Review; 
Training and Certification; Emergency Planning and Response; Workplace 
Safety Program; Passenger and Public Safety; Rail Corridor Operational 
Study; and Environmental Management Programs. These are just a portion 
of the lengthy list of considerations involved in ensuring a safe 
system.
    Additionally, industry developed standards (such as PRESS and 
others) are contributing greatly to ongoing safety improvement. APTA 
has written over 270 standards and recommended practices, 71 of which 
address particular safety needs for mainline rail equipment, and over 
111 for rail transit alone. Standards help improve the safety of public 
transportation systems by addressing vehicle crashworthiness, passenger 
door systems, emergency lighting and evacuation, and new standards to 
improve the safety of vehicle interiors including seat attachment 
strength and safer workstation tables. APTA has initiated new efforts 
within its standards body to improve current standards on vehicle 
design affecting derailments and has initiation new studies to better 
understand the potential for derailments at slow operating speed. 
Standards also define safe operating practices, inspection and 
maintenance of equipment, train control maintenance requirements, 
electrical propulsion system design, catenary electrical distribution 
wire maintenance, and wheel and axle assembly procedures among many 
other areas of a general nature including cyber and physical security, 
railcar procurement, tunnel ventilation, and sustainability.
    Finally, APTA partners with the FRA, AAR and labor in developing 
rules to help design, build and operate safe transportation systems. In 
this regard, APTA is very active as an industry representative within 
the Rail Safety Advisory Committee (RSAC). Recently FRA and industry 
have collaborated on the development of language for new safety rules 
particular to high speed rail equipment. The public transportation 
industry and especially our commuter rail agencies will continue to 
maintain a strong emphasis on safety.
RSIA and PTC
    As the members of this committee know, the Rail Safety Improvement 
Act (RSIA) of 2008 mandated that PTC technology be implemented on 
passenger railroad and certain freight railroads by December 31, 2015, 
and it authorized funding of $250 million over five years to assist 
with implementation. As defined in the statute, a positive control 
system is a ``system designed to prevent train-to-train collisions, 
over speed derailments, incursions into established work zone limits, 
and the movement of a train through a switch left in the wrong 
position.'' When the RSIA was drafted in 2008, there was no off the 
shelf technology capable of achieving these safety objectives for all 
railroads--as is still the case today. Yet many commuter railroads have 
long made use of collision avoidance systems that would have protected 
against accidents that have occurred in recent years. Since the 
enactment of RSIA, APTA and its commuter rail members across the 
country have aggressively pursued the funding and technology necessary 
to implement this safety mandate by the current statutory deadline. 
However, challenges beyond our control have presented obstacles to 
implementation.
    The initial conservative estimate for PTC implementation on 
commuter railroads was more than $2 billion, with more than 4,000 
locomotives and passenger cars with control cabs and 8,500 track miles 
to be equipped. Since this initial estimate, as commuter railroads have 
begun their contracting and technology acquisitions, the estimated 
costs of implementation have risen well beyond the initial $2 billion 
estimate. These estimates do not include costs related to the 
acquisition and operation of the radio spectrum necessary to meet the 
interoperability requirements set forth under RSIA and they do not 
include costs associated with operating PTC systems.
    To date, Congress has only appropriated $50 million of the total 
authorized amount. At a time when critical State of Good Repair 
backlogs are creeping above nearly $80 billion dollars on our nations 
public transportation systems, commuter railroads are being forced to 
choose between performing critical system safety maintenance projects 
and implementing PTC by 2015. Insufficient funding is a significant 
impediment to implementation for publicly funded railroads.
    While Congress authorized $250 million for PTC implementation in 
the five Fiscal Years 2009 to 2013, only $50 million was appropriated 
during those years. It has also been suggested that Federal funding for 
high-speed rail projects can be used for PTC implementation costs, but 
this is only the case where existing commuter rail service and 
potential high-speed intercity passenger rail alignments are identical, 
and unfortunately that is not the case for most of the Nation's 
commuter rail operators. Similarly, debt financing and Railroad 
Rehabilitation & Improvement Financing (RRIF) loans have been suggested 
as a way to pay for PTC implementation, but many of the agencies 
charged with installing PTC on their commuter rail systems are carrying 
enormous debt service and many have substantial state of good repair 
capital projects--which are also necessary to ensure safe operations--
that are competing for scarce resources.
    Key components of PTC systems are still in the developmental phase, 
such as software upgrades and revisions, and roadway worker protection. 
Absent these essential elements, full implementation by 2015 will be 
impeded, even for those railroads that have secured the necessary 
funding. Moreover, the inability of most commuter railroads to acquire 
necessary radio spectrum is also impeding full implementation by 2015. 
The FCC has not responded to APTA's requests to make available spectrum 
available as a public safety imperative and insisted that the necessary 
bandwidth can be purchased on the open market. One railroad purchased 
spectrum only to have it now held up while the courts decide who owns 
the rights to sell the spectrum.
    In 2011, after several years of working towards implementation and 
complying in good faith with FRA reporting requirements on PTC 
implementation plans, the APTA Commuter Rail CEOs committee concluded 
that the industry would not be able to fully implement interoperable 
PTC systems on all commuter railroads by the current deadline. Thus, 
APTA approved a policy position recommending that the deadline for PTC 
implementation be extended to December 31, 2018. It is important to add 
that APTA's position also states that extending the deadline shall not 
inhibit efforts to implement PTC on some commuter railroads prior to 
the existing deadline and in fact urges Congress to prioritize funding 
for those efforts. The hope was that lessons learned from early 
implementers such as Metrolink, would serve to facilitate and expedite 
implementation for other commuter railroads. Other APTA positions 
adopted in 2011 included recommendations that Congress appropriate 
Federal funding to cover 80 percent of PTC implementation costs for 
commuter railroads and direct the Federal Communications Commission 
(FCC) to provide radio spectrum, without cost, required for PTC 
implementation by publicly funded commuter railroads.
    I should note that representatives from commuter rail systems 
across the Nation and APTA staff have conducted numerous meetings with 
Members of Congress and staff from congressional committees of 
jurisdiction to explain APTA's views and the challenges faced trying to 
implement PTC. While we have always expressed a commitment to implement 
PTC technologies, industry experience indicated that it would be 
difficult, if not impossible, to implement PTC on all of the Nation's 
commuter railroads by the 2015 deadline. We believe we acted 
responsibly by coming to Congress well before the deadline, rather than 
waiting for the deadline to become imminent.
    Further, in January 2012, APTA shared a report with Congress which 
documented the technical challenges of implementing PTC. This report, 
which was written jointly with the Association of American Railroads 
(AAR), also outlined the technical challenges that freight railroads 
are experiencing in their effort to implement PTC and reached the 
shared conclusion that implementing a fully interoperable PTC network 
was not achievable by December 31, 2015.
Federal Railroad Administration Report to Congress
    Under the Rail Safety Improvement Act, the FRA was statutorily 
required to transmit a PTC implementation status report to Congress in 
2012. The goal of the report was to update Congress on the status of 
implementation, to identify major issues and to offer potential risk 
mitigation solutions. The FRA report which was issued in August 2012, 
stated, as part of the report's executive summary recommendations: 
``Based on the results of this report, FRA believes that a majority of 
railroads will not be able to complete PTC implementation by the 2015 
deadline.'' It went on to say: ``FRA recommends that it be allowed to 
approve a railroad to use alternative safety technologies on specified 
line segments in lieu of PTC, particularly in areas with lower safety 
risks, if appropriately and properly justified to FRA.'' Further, in 
its report to Congress, the Federal Railroad Administration recommended 
that:

        ``Congress consider legislation that allows FRA to approve the 
        use of alternative risk mitigation technologies in lieu of a 
        PTC system on specified line segments if:

    <bullet> The use of the alternative technologies will not result in 
            a decrease in the level of safety from that which currently 
            exists.

    <bullet> The alternative technologies proposed provide an 
            appropriate level of risk mitigation with regards to 
            preventing train-to-train collisions, overspeed 
            derailments, protection of roadway workers within their 
            authorized work zones, and movement of a train through 
            misaligned switches.

    <bullet> The alternative risk mitigation technology implementation 
            plan, submitted as part of a petition to substitute 
            alternative risk mitigation technologies for a PTC system, 
            implements the alternative risk mitigation technologies in 
            order from areas of least risk to areas of greater risk.

    <bullet> The alternative technologies are installed as soon as 
            feasible.

    APTA strongly supports the language contained in the FRA Report to 
Congress and recently adopted a policy in support of the FRA's 
recommendation to Congress. As adopted, the policy requests the FRA be 
allowed to consider alternative technologies in lieu of a PTC system on 
specified line segments. We believe that the statutory mandate for PTC 
implementation will only be strengthened by taking a system safety 
approach, rather than a ``one size fits all'' approach.
Additional APTA Recommendations
Alternative Risk Mitigation Technology
    All APTA member railroads fully support initiatives that enhance 
safety. Not all railroads have the same operating environments, safety 
challenges or risk exposures. Some commuter railroads already have 
collision avoidance systems in place (some for many years) that protect 
against the occurrence of a train to train collisions such as 
Chatsworth. APTA in no way supports any blanket exceptions in this 
regard, but supports the FRA's recommendation that it be permitted to 
examine the feasibility of the use of alternative technologies on a 
line by line basis, and permit such uses only after rigorous analysis 
and evaluation of overall risk reductions.
    While the vast majority of railroads would still require PTC, there 
would be some that could then prioritize their safety enhancement 
projects to address their most urgent safety risks first; freeing up 
the pipeline for procurement of PTC components and other resources in 
order to expedite implementation for other railroads.
    In terms of any concerns regarding interoperability, there is 
nothing in the APTA policy or in the FRA's report to Congress that 
would change the statutory and regulatory requirements for 
interoperability. Any railroad's controlling locomotive that operates 
on another railroad must be able to communicate with and respond to the 
PTC system that will be installed. Similarly, if FRA is able to approve 
any alternative technologies, then any controlling locomotive operating 
on a line or segment where the alternative technology is installed must 
be able to communicate with that technology. If rolling stock will 
operate on lines with different technologies or even different PTC 
systems, more than one type of onboard equipment may need to be 
installed. For example, some commuter railroads that operate on the 
Northeast Corridor and a freight railroad must be able to interoperate 
with both the Advanced Civil Speed Enforcement System (ACSES) PTC 
system used by Amtrak as well as the Interoperable Electronics Train 
Management System (I-ETMS) PTC system being used by freight railroads, 
and anticipate having to install onboard equipment for both types of 
PTC systems to achieve interoperability.
    In this regard, and while the National Transportation Safety Board 
(NTSB) is still conducting its investigation and has issued no 
findings, the unfortunate accident on the Metro-North Railroad in 
Connecticut makes clear that there is no one size fits all approach to 
rail safety for all situations. While we cannot comment on the details 
of the accident before the NTSB completes its investigation, their 
press release dated May 24, 2013 stated: ``Positive train control is a 
technology that prevents two trains, traveling on a single track, from 
colliding with one another. The Metro-North trains involved in this 
accident were traveling on two separate but parallel tracks. The 
collision occurred after the eastbound train derailed. Because the 
trains were not traveling on a single track, it is not believed that 
PTC would have prevented the accident.'' We should also note that the 
Metro-North passenger rail cars damaged in the accident were designed 
according to specific strength requirements for the ends of cars that 
are intended to protect occupants in such a collision. They performed 
as designed, according to standards developed in part under the 
Passenger Rail Equipment Safety Standards (PRESS) program that APTA 
developed and administered in cooperation with FRA in the 1990s, as 
mentioned earlier in our testimony.
Open Standards/Federal Inspections
    In addition to language concerning alternative technologies, APTA 
also recently approved policy positions requesting the FRA to 
promulgate open interface and communication standards permitting 
interoperability of products within PTC system hardware architecture to 
foster competition among providers. APTA also approved language put 
forth by Metrolink, requesting that Congress allocate additional 
funding to the FRA and other regulatory bodies to ensure adequate 
resources are available to inspect, review and authorize PTC 
implementation.
Conclusion
    In closing, we want to reiterate the long standing and continued 
commitment the public transportation and commuter rail industry has for 
advancing the safety of our riders, employees and communities. We would 
also underscore that none of the PTC policies adopted by APTA are 
intended to prevent early implementation by those commuter railroads 
which seek to implement by or before the existing deadline. In fact, 
APTA has a long-standing policy and record of urging Congress to 
prioritize funding for early implementation efforts. As with any major 
initiative for nationwide implementation of a complex new technology, 
PTC implementation has posed, and is certain to continue to create, 
challenges that could not have been foreseen by legislators, regulators 
or implementers at the time of enactment.
    On behalf of APTA and its members, we appreciate the work that this 
committee has done to enhance safety on our Nation's railroads. We look 
forward to continuing to work with you and your staff on this and many 
other common issues that face public transportation agencies.

    Senator Blumenthal. Thank you, Ms. Waters.
    Mr. Stem?

STATEMENT OF JAMES A. STEM, JR., NATIONAL LEGISLATIVE DIRECTOR, 
      TRANSPORTATION DIVISION, SHEET METAL, AIR, RAIL AND 
                  TRANSPORTATION (SMART) UNION

    Mr. Stem. Good morning and thank you. Thank you, Senators 
Blumenthal and Blunt and Johnson. I am going to focus my verbal 
comments this morning on PTC and fatigue.
    From the employee's viewpoint, any discussion concerning 
rail safety should always start with employee fatigue as a 
first topic. Our railroad corporations, as you heard this 
morning, are reinvesting more than $20 billion annually in 
upgrading, maintaining, and expanding their infrastructure, but 
are unwilling to invest anything in resolving the most pressing 
human factor and fatal safety issue. That is unpredictable work 
schedule, coupled with employee availability policies applied 
to the operating crews.
    The Federal Railroad Administration, rail management, and 
rail labor, all agree that passenger hours of service 
regulations should be separated from freight hours of service 
regulations, because of the significant safety advantages of 
the predictable work schedules in passenger service.
    The new passenger hours of service regulation also 
requires, for the first time, the use of scientific models to 
help create safe and efficient work schedules for operating 
crews. The resulting predictable work schedules in passenger 
service resolve most fatigue issues for these crews.
    Contained in my packet of testimony were the 
recommendations from NTSB for two groups of issues, fatigue and 
positive train control.
    A review of these recommendations leads to the obvious 
conclusion that fatigue of operating railroad employees was the 
basis for most of the recommendations, both for positive train 
control and for fatigue mitigation programs.
    Before 1970, operating railroad employees could work and 
were often required to work 16-hour shifts, 7 days a week. The 
Rail Safety Improvement Act of 1970 changed that and reduced 
that so that our crews could only be required to work 12 hours 
a day, 7 days a week.
    During the conversations and conferences that occurred 
after the RSIA of 2008 passed the House, the railroads' only 
suggestion for improving the predictability of work schedules 
and mitigating fatigue was to limit the total hours that a 
safety critical employee could be required to work to 276 hours 
each month. That is 23 12-hour shifts. That 276-hour limit made 
its way into the RSIA and was signed into law.
    The RSIA did contain provisions for two pilot projects 
sponsored by FRA for improving work schedules and employee 
notification. We have urged all the class I railroads to 
participate in a pilot project, but have not had a single 
railroad agree to do that.
    Our suggested solution to the employee fatigue provides 
three options. Number one, give the employee that works in 
safety critical service a regular start time, so he or she 
knows days in advance when they must come to work. A large 
majority of our members have a regular start time and do not 
consider fatigue to be a safety issue. Employees with regular 
start times are not the employees who are dying in fatigue-
related collisions that Ms. Hersman discussed earlier today.
    If number one is not available, the second option that we 
are proposing is to notify the employee before going off duty 
what time they will be required to return to work for their 
next tour of duty. This option actually improves the 
availability of the employee by allowing the employee to return 
to service after only 10 hours off duty.
    If neither one or two options are available, then we are 
suggesting move the required 10 hour of undisturbed rest that 
now immediately follows service to 10 hours of rest immediately 
preceding service. This is a 10-hour call which provides a 
significant improvement in the predictability of the work 
schedule. The result is the employee has at least 10 hours to 
rest and prepare for service.
    The high level of professionalism and dedication of the 
operating crews running our railroads today are the only 
reasons that accidents like the one at Chaffee, Missouri, and 
the other ones highlighted here today aren't more frequent.
    Positive train control. There are a few segments of our 
industry, as you have heard, that are asking Congress to grant 
a blanket extension of 3 to 5 years. The current required date 
for implementation is more than 30 months away today and was 7 
years and 3 months from the time RSIA was passed.
    If Congress chooses to grant a blanket extension for PTC, 
the railroads that are behind on their implementation schedule 
today will further slow or just stop the process until that new 
extension also expires.
    Some railroads, including Amtrak, BNSF, and Metrolink, and 
Alaska Railroad, have announced that they will be able to meet 
the statutory deadline. Others will be partially complete.
    The key point here that I have not heard in any other 
testimony is that, if PTC were applied today to the industry, 
it only requires implementation on 39 percent of the total 
mainline track.
    So when Mr. Hamberger and others refer to 20,000 
locomotives and thousands of miles of track, keep in mind that 
the current regulation only requires 39 percent of the track be 
implemented.
    PTC also would end a very unsafe practice of using after-
arrival blocks. That is a separate topic that was discussed in 
my testimony.
    And I also want to point out and acknowledge that BNSF CEO 
Matt Rose was in the room earlier this morning. He had to 
leave. I think he was embarrassed that Mr. Hamberger would not 
give him his seat.
    [Laughter.]
    Mr. Stem. But I would encourage this committee and each 
individual Senator to discuss with Matt Rose the thought 
processes and how they arranged to have the deadline complied 
with by BNSF.
    Thank you.
    [The prepared statement of Mr. Stem follows:]

    Prepared Statement of James A. Stem, Jr., National Legislative 
                Director, SMART--Transportation Division
    Chairman Rockefeller, Ranking Member Thune, Subcommittee Chairman 
Blumenthal, Senator Blunt, Members of the Commerce Committee, my name 
is James Stem and I am the National Legislative Director of the 
Transportation Division of the Sheet Metal, Air, Rail, Transportation 
Union (SMART) The SMART Transportation Division, formally the United 
Transportation Union, is an organization representing approximately 
80,000 transportation employees with active rail members working in all 
operating crafts (engineers, conductors, yardmasters, trainmen, 
switchmen). Our members have a vested interest in the policies that 
impact our freight and passenger national rail network. Our 
organization has worked jointly with the rail industry and government 
entities for almost 150 years on transportation policies.
    Thank you for the opportunity to testify today and present our 
views on improving rail safety. The rail industry is the source of tens 
of thousands of good middle-class union jobs. Railroad jobs are more 
than just jobs. . .they are careers with many of our members working 
30, 40 and even 50 years for a single employer. These jobs are highly 
skilled with many of them requiring Federal certification.
    Overall we are optimistic about the future prospects of the 
railroad industry. The freight side of the industry is investing more 
than $20 billion annually in its infrastructure and is well positioned 
to handle any additional freight that comes its way. One bright example 
of growth is oil shipments from the Bakken oil fields, where railroads 
are now shipping between 60 and 70 percent of that crude oil to 
destinations across the country. The oil boom in North Dakota would not 
be nearly as robust if it were not for the ability of the two railroads 
there to ship the crude out of the state. Coal shipments on the other 
hand are down and could be reduced dramatically in the coming months 
and years because of low natural gas prices and very challenging 
environmental regulations. Passenger rail is also doing well. With 
America's continued population growth, passenger rail is in a good 
position to respond to our Nation's mobility needs. We are excited 
about the numerous passenger rail service expansions that are occurring 
across the country and Amtrak's continued success.
    America's passenger and freight railroads are involved in a rail 
renaissance that should bring decades of growth to both.
    We are proud to be a part of the industry today, positioned to 
handle the additional freight which must come to rail from our 
highways, and also, prepared to provide flexible services like ``mobile 
pipelines for oil'', and efficient handling of multi-modal 
containerized shipments. With a significant growth in our population, 
passenger rail is the most economic and environmentally friendly 
alternative to the mobility challenges facing our country. Our career 
rail employees have earned the equity to participate in the policy 
decisions that will impact our industry.
    We are pro-active in our support for the industry and take an 
active role in policy discussions supporting the expansion of freight 
and passenger rail across the country. We also work with all segments 
of our rail and transit industries in legislative activities designed 
to highlight the advantages of rail. The long term growth and stability 
of the industry also relies upon safe and reliable operations.
    While we are optimistic about rail's future and we take a pro-
active role in supporting the industry, the long term growth and 
stability of the industry relies upon operating our railroads safely. 
UTU (SMART) and most of rail labor have a long history of cooperation 
and joint efforts in partnership with all segments of the rail industry 
on a variety of pertinent issues. We think one of the success stories 
of partnership that should be recognized is the Rail Safety Advisory 
Committee (RSAC) that is sponsored by the Federal Railroad 
Administration. The RSAC was originally chartered during the Clinton 
administration, and was the first time that railroad management, rail 
labor, rail suppliers, and the FRA were all gathered together in an 
informal setting to participate in problem solving, an exchange of 
thoughts, and an opportunity for suggestions on improved safety, with 
the conclusion being a collaborative rule making process. RSAC 
continued to function productively through the Bush administration, and 
continues today. Our rail industry today is safer because of RSAC.
Employee Fatigue
    Any discussion concerning rail safety should rightfully always 
start with Employee Fatigue as the first topic. Our railroad 
corporations are re-investing more than $20 billion annually in 
upgrading, maintaining, and expanding their infrastructure, but are 
unwilling to invest anything in resolving the most pressing and fatal 
of safety issues--Unpredictable work schedules coupled with employee 
availability policies.
    The Federal Railroad Administration, rail management, and rail 
labor all agreed that Passenger Hours of Service regulations should be 
separated from freight hours of service regulations because of the 
significant safety advantages of the predictable work schedules in long 
distance and commuter rail passenger service. The new passenger hours 
of service regulation also requires the use of scientific models to 
help create safe and efficient work schedules for operating crews. The 
predictable work schedules in passenger service prevent most issues 
with fatigue for these crews.
    However, work needs to be done on the freight side. There is no 
single issue that will provide more positive movement in safety 
improvement than resolving the employee fatigue issues associated with 
freight rail operations and many freight rail accidents in recent 
years. The first NTSB recommendations for implementation of Positive 
Train Control (PTC) in the early 1990s were a result of numerous rail 
accidents caused by employee fatigue and totally unpredictable work 
schedules of operating rail employees.
    The safe movement of a freight train or a passenger train today is 
a complex operation requiring train handling skills, years of training 
and territorial qualifications over the specific track segment, and the 
ability to manage multiple priorities of speed restrictions, normal 
radio communications, and roadway worker authorities, highway crossings 
at grade, signals, and track authorities. One momentary lapse of 
situational awareness by a member of the operating crew can have 
disastrous results.
    A working definition: ``Fatigue means a complex state that is 
characterized by a lack of alertness and reduced mental and physical 
performance, often accompanied by drowsiness.''
    The unpredictable work schedules that apply to a large majority of 
crews operating trains between terminals require the crews to report 
for duty with two hours of notification, or less, regardless of the 
commitments that the railroad had made to the effected employees with 
previous lineups and forecasts. Aggravating this dangerous practice 
even further are the new terminologies of ``Dropped Turns'' and ``Paper 
Deadheads''. These terms are interchangeable and used by all the 
railroads to identify when the crew management system made a unilateral 
change in the employees' position for call. These new practices are 
used to justify holding the employee accountable for being in place for 
call well in advance of when his designated position should be called.
    The practical application of this process is to require a safety 
critical employee to come to work when called out of turn, or face 
disciplinary sanctions which often times include suspension and 
termination.
    Also directly connected to the unpredictable work schedules and the 
new practices of ``Dropped Turns'' and ``Paper Deadheads'' are the 
railroads unilateral ``Attendance Policies'' that can only be intended 
to require a safety critical employee to come to work when they are 
fatigued or sick.
    If the current FRA regulation proposal for PTC were implemented, it 
would only require PTC be installed on less than 39 percent of the main 
line track in this country, with more than 60 percent of main line 
track continuing with the same system of operation, and, unfortunately, 
the same failed process of employee utilization. The railroads response 
to requests for pilot projects and improvements in predictable work 
schedules for the unassigned employees that work on call has been more 
of the same failed policies. As the amount of freight continues to grow 
in coming years, the non PTC main line track will have to absorb a 
large percentage of the growth with this major safety issue of fatigue 
unresolved.
    Today, an employee working in unassigned service receives a ``train 
lineup'' when going off duty that is intended to provide an estimate 
about when their next reporting time will be. These lineups are 
accurate sometimes, but more often the lineups are inaccurate by many 
hours.
    A human being can prepare for irregular work schedules if they know 
when they must start the tour of duty, but even our youngest and 
strongest employees cannot function safely if told they will go to work 
at 7 AM in the morning and then are called to work at 10 PM the night 
before. Predictable reporting times and notifying the employees when 
they are going to work are the only solution to this major safety 
issue.
    We look forward to working with this Committee during the 
reauthorization of the Rail Safety Improvement Act to address these 
needed improvements in employee fatigue. For the past 18 years, the 
employees have been asking Congress and the railroads for a solution to 
fatigue but have met with little success.
    When our operating employees are asked about safety improvements, 
the number one response is always ``Just tell me when I must come to 
work. I will manage my personal life to be rested and alert if I only 
know when I must report.''
    Our suggested solution to employee fatigue provides three options:

  (1)  Give the employee a regular start time so he/she knows days in 
        advance when they must come to work. A large majority of our 
        employees have a regular start time and do not consider fatigue 
        to be a safety issue. Employees with regular start times are 
        not the employees who are dying in fatigue related collisions. 
        Or

  (2)  Notify the employee before going off duty what time the employee 
        will be required to return to work for the next tour of duty. 
        This option actually improves the availability of the employee 
        by allowing the employee to return to service after only ten 
        hours off duty. And if neither (1) or (2) are not a viable 
        option, then

  (3)  Move the required ten hours of undisturbed rest immediately 
        following service that is now required to ten hours of 
        undisturbed rest immediately preceding service by giving the 
        employee at least ten hours of notification prior to reporting 
        for service. This is a ten hour call which provides a 
        significant improvement in the predictability of the work 
        schedule. The result is the employee has at least ten hours to 
        prepare for service.

    The high level of professionalism and dedication of the operating 
crews running our railroads today are the only reasons that accidents 
and collisions are not more frequent. Attached with this testimony are 
references concerning accidents that have recently occurred where 
fatigue was a contributing factor, like the ones that occurred near 
Chaffee, Missouri on May 25, 2013, near Goodwell, Oklahoma in late 
June, 2012, and also near Two Harbors, Minnesota on September 30, 2010.
    Also attached with this testimony are the numerous recommendations 
(177) that the NTSB has made to railroads over the past few decades to 
deal with employee fatigue. Most of these recommendations are still 
pending.
Positive Train Control
    There are a few segments of our industry that are hoping Congress 
will grant a blanket extension of three--five years for PTC 
implementation. The current required date for implementation is more 
than 30 months away now on December 31, 2015.
    If Congress chooses to grant a blanket extension for PTC, the 
railroads that are behind on their implementation schedule will further 
slow their progress, or just stop the process until that new extension 
expires.
    Some railroads, including Amtrak, BNSF, and Metrolink in 
California, have announced that they will be able to meet the statutory 
deadline and are continuing the implementation and testing of the PTC 
components.
    Any extension for PTC implementation should be on an individual 
basis, short in duration, and only after identifying the exact reasons 
that the current implementation date is not obtainable.
    The PTC systems that are being implemented today contain all the 
information on the display screen that is necessary to operate a train 
safely. This will be the first time that the operating crews on the 
locomotive will have all that information contained in one place and 
displayed in real time. The quality of that information on the screen 
will significantly reduce the complexity of safely operating the train. 
The information contained on the screen is the crux of the safety 
advantage, not the enforcement of the system.
    PTC has been debated for more than 20 years as a significant safety 
overlay for rail operations. It is time for PTC to be implemented to 
preserve the lives of rail operating crews and the safety of the 
communities served by our rail industry.
    Attached with this testimony are two relevant documents for this 
discussion on implementation of PTC. First are the numerous 
recommendations (27) that NTSB has made the Federal Railroad 
Administration (FRA) to mandate PTC, and to our railroads concerning 
the need for PTC Second, is the presentation made at the February 27, 
2013 NTSB Public Forum on Positive Train Control Systems by retired FRA 
Associate Administrator of Safety Grady Cothen. Mr. Cothen is 
recognized as one of the leading authorities on PTC, and it is with his 
permission that I attach this document for guidance and reference; this 
document is a summary of the history of PTC.
Amtrak
    I need not remind this Committee about the importance of Amtrak. 
It's America's passenger railroad, rising up from the ashes of a cadre 
of bankrupt private service providers and charged with providing vital 
rail passenger service across America.
    Amtrak is a partner with our private freight railroads, and has 
negotiated operating agreements with them for more than 40 years. 
Amtrak's employees, many of whom are federally certified, know and 
understand the complex operating rules that govern freight railroads, 
making Amtrak the right fit to operate this vital nation-wide service.
    Since its inception, Amtrak has done a remarkable job with often 
inadequate resources. While setting ridership records in recent years 
their safety record remains solid. Amtrak's growing passenger volumes 
has made them far more self-sufficient than in the past recovering 79 
percent of their operating costs from ticket revenue. The high price of 
fuel, growing highway and airport congestion, and the significant 
increase in the number of passenger rail options, all contribute to the 
constant increases in ridership on Amtrak.
    Even with their remarkable progress Amtrak has had no shortage of 
congressional critics who expect Amtrak to be the world's only 
profitable passenger railroad. We ask that your Committee take a fresh 
look at this American success story and work with the leaders of Amtrak 
and others to help ``America's Railroad'' build on their 40 plus years 
of success. Amtrak was created because the demand for rail passenger 
services remained strong, and the private railroads could not make a 
profit operating their own passenger trains.
Hazardous Material Shipments
    The safest and most efficient form of movement of commodities that 
qualify as hazardous materials is by rail. These haz mat shipments 
require special handling by our rail operating crews, which include 
documentation and secure hand off procedures at interchange or crew 
change points. These products are given the extra attention that they 
require when moved by rail.
    As our American manufacturing industries grow, these industries 
will require new chemical products that are available today. An 
increase in the quantity and number of products that qualify as 
hazardous materials is the expectation, and this will result in 
significant increases in rail hazmat shipments.
    Switching haz mat cars also requires additional precautions. As 
some major shippers seek Congressional support for switching haz mat 
cars much more frequently in and out of trains to somehow achieve lower 
freight rates, we want to make sure that you understand the significant 
safety concerns that are involved in those choices. Switching and 
interchanging containers of very dangerous substances packaged in 
containers weighing 100 tons or more, is not an academic or a sanitary 
exercise.
    We would like the opportunity to offer additional input to this 
Committee, should the consideration of mandating additional switching 
of haz mat cars to require changes in freight rates come before this 
Committee. The employees do have ``skin in the game'' when significant 
increases in switching of haz mat cars is under consideration. From our 
vantage point, this debate is not just about one group of large 
corporations attempting to involve Congress in their negotiations with 
another group of large corporations; rather, this debate centers on the 
safety of the operation and the current processes involving the proper 
handling of placarded hazardous materials. We hope this conversation 
never occurs in this Committee.
New Technology
    Our railroads have historically been very slow in accepting and 
applying new technologies in the industry. Change is the hardest thing 
to accept in most work places, and it is also the only thing constant 
in continuing operations.
    The use of new technologies for detection of flaws in wheels and 
hot journals is not universally applied, or required by FRA regulation. 
Most railroads choose to use some type of defect detectors, but the 
latest technologies are applied in very few locations.
    New technology for detection of internal flaws in rail also is not 
required by regulation and used infrequently. The frequency of track 
inspections by Sperry Rail Services and similar rail flaw and track 
geometry detectors is an appropriate subject for additional questions. 
When a detector of any type discovers a flaw in a segment of rail, the 
FRA regulations require that defect to be either repaired or protected 
immediately. This process often means a multitude of ten mile per hour 
slow orders on a subdivision immediately following the Sperry rail 
inspections or similar operations. Some railroads indicate that not 
knowing about the defects and not having many slow orders in place are 
preferable to the new inspection technologies; the defects are then 
repaired when discovered through traditional means, including signal 
indications, visual inspections, or derailments.
    Also, deferred maintenance normally brings concerns about rail 
flaws and cross tie replacements into many accident investigations. 
Rail replacement and routine track maintenance schedules are based on 
the amount of train traffic, weather conditions, and the stability of 
the road bed.
    Our rail industry is also dealing with the distractions that some 
new technology brings to our workplace. The use of cell phones and 
Smart phones that allow texting and Internet connections have proven to 
be safety concerns for safety critical employees. We are working with 
the industry and FRA to get the best from technology and eliminate the 
distractions from inappropriate use.
Training
    With tens of thousands of new employees coming into the freight and 
passenger rail industry in the near future, adequate and appropriate 
training is a major safety concern.
    One requirement of the RSIA of 2008 was to require FRA to implement 
training standards for safety-related employees. The RSAC process 
collaboratively developed proposals for FRA to consider and on February 
7, 2012 FRA issued an NPRM. Under the proposed rule, railroads will be 
required to develop comprehensive training programs for safety-related 
employees and then submit those programs to FRA for review and 
approval. Since the rule has not been finalized and thus there have 
been no training programs submitted the effectiveness of this effort is 
unknown. We are however happy to see that there is this focus on the 
need for the adequate training or our members.
    Our experience is that the training of our members varies widely 
from railroad to railroad. Some of the larger railroads are reported to 
have excellent initial training programs for conductors and engineers 
and then rely almost exclusively on computer based training for follow-
up training or what I call ``training on your own.'' Railroads no 
longer use the traditional model of mentoring or apprenticeship where a 
new employee has the advantage of working with more mature employees 
with experience, skills, and good technique.
    Forty years ago there were five members of a train crew and you 
spent years working as a brakeman before becoming a conductor and 
likewise years as a fireman before becoming an engineer. Today the 
standard crew size is two. Now railroads hire people off the street and 
train them to be a conductor in several short months. Then oftentimes 
this conductor moves right into training to become an engineer and in a 
year's time he is operating a locomotive at high speed across the 
country. We have reports of crews where both the conductor and engineer 
have very little experience and are charged with operating trains in 
challenging operating conditions. We are concerned about the long term 
impact of insufficient training processes that create employees that 
lack the confidence in their abilities to stop the movement when they 
suspect something is wrong.
    It's expensive to train new people, so like some American 
companies, railroads when left to their own desires, will reduce 
training costs as much as possible for the short term gains involved.
Truck Size and Truck Weight Increases
    Increasing truck weight limits would have serious implications for 
our environment. Many transportation professionals are working to find 
innovative ways to shift more freight shipments from our highways to 
our railroads as a congestion mitigation strategy, and also as a 
highway maintenance schedule strategy. Railroads move cargo nearly four 
times as far as trucks per gallon of fuel and emit one-third the 
pollutants per ton mile when compared to trucks. By allowing heavier 
trucks on the road and increasing taxpayer subsidies, Congress would be 
incentivizing more shipments of freight by trucks using public highways 
rather than by more fuel-efficient modes like rail. This is the reason 
why increases in truck weights have never resulted in fewer trucks on 
our highways.
    Our railroads today do an excellent job of moving heavy loads 
around our country on privately owned and privately maintained rights 
of way. Our public infrastructure cannot absorb this additional burden.
    An increase in highway maintenance expense and highway bridge 
replacements triggered by ignoring the current DOT bridge formulas and 
the engineering specifications for highways and bridges that created 
the current limits on truck size and weight will also have a negative 
impact on railroad safety. As many commuter rail authorities are 
seeking help in the funding of new safety technologies, including PTC, 
any increase in highway and bridge maintenance costs will absorb 
potential sources of revenue for safety improvements of rail passenger 
operations.
    We urge this committee to take no action on any consideration of 
increases in truck size and truck weights until DOT completes the 
mandated study of costs. We think a required decrease in truck weight 
will be the conclusion drawn by the study.
Conclusion
    As Congress struggles to deal with problems of inadequate and 
crumbling infrastructure, environmental concerns and energy issues, we 
ask that you keep in mind railroads as an important means to help 
address all these problems.
    If many of us sitting in this room today had been successful over 
the past twenty years in getting a National Transportation Policy and a 
National Energy Policy, there is no argument that both freight and 
passenger rail would be a focus for energy efficiency, relieving 
highway congestion, preserving existing highway and bridge maintenance 
schedules, and also providing flexible viable options as our population 
continues to grow. The lack of either a Transportation or Energy policy 
has contributed to the struggle for appropriate solutions for our 
constant transportation problems.
    As the price of fuel in this country continues to spiral upwards, 
we look forward to working with this Committee to find fresh ideas on 
how best to improve Amtrak and other rail passenger services to provide 
new travel options for our citizens around the country. Each time I 
pass through a major airport, I marvel at the number of flights listed 
on the board for destinations that are 350 miles or less from that 
airport. Higher speed rail and high speed rail would complement, not 
compete, with air travel services. If we shifted the passengers that 
are scheduled to fly 300 miles to higher speed rail, in most cases the 
passenger would arrive in the same amount of time. Open airport slots 
could then be filled with longer distance flights, and postpone the 
construction of new airports or new runways.
    Faced with the problem of highway congestion, part of the answer 
should be to develop policies that shift freight and passenger traffic 
to railroads. A single freight train can take 280 trucks off the 
highway with a greatly improved use of fuel resources. The railroads 
have shared the fact that today our railroads can move one ton of 
freight almost 500 miles with one gallon of fuel oil. A high speed rail 
corridor can transport as many passengers as eight new lanes of 
interstate highway.
    Looking at ways to address environmental concerns, keep in mind 
freight and passenger trains produce a fraction of the pollutants that 
trucks and automobiles use in moving the comparable number of tons and 
passengers.
    In attempting to make America energy independent, consider trains 
are almost five times more fuel efficient than trucks. Another point 
should be under consideration--trains operate on privately owned and 
maintained rights of way and pay 100 percent of the cost of their use 
of that right of way. It is not the rail industry that is asking 
Congress to rebuild all the off ramps of the Interstate Highway system 
and forgive the extra bridge maintenance needed to increase the size 
and weight of big trucks moving on our highways.
    When deciding about whether or not to pour new seas of concrete at 
airports and around cities, I urge this Committee to think about the 
less expensive and better alternative of building high and higher speed 
rail. A new commuter rail system is one of the solutions to local 
highway congestion.
    Thanks again for the opportunity to appear here today and we look 
forward to working with this Committee to find ways to meet our 
Nation's transportation needs.
    I will be happy to answer any questions the Committee members may 
have.
                               Exhibit 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit 2

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               Exhibit 4

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Exhibit 5

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Blumenthal. Thank you, Mr. Stem.
    Commissioner Redeker?

   STATEMENT OF JAMES P. REDEKER, COMMISSIONER, CONNECTICUT 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Redeker. Good morning, Senator Blumenthal, Senator 
Blunt, Senator Johnson. I am honored to be here this morning, 
representing the Connecticut Department of Transportation, as 
well as the Chair of the Northeast Corridor Commission.
    Connecticut's rail freight and passenger freight system is 
significant. The New Haven line is the busiest rail line in the 
country for commuter trains. We also have Shoreline East, 
several branch lines, and Amtrak intercity service operates on 
the Northeast Corridor and through the inland route to 
Springfield.
    The State of Connecticut has a unique role in the Northeast 
Corridor, as we are the owner of 46 miles of the Northeast 
Corridor, second only to Amtrak in ownership.
    As owner, we have invested significant amounts of money to 
provide a safe infrastructure. In the last 10 years alone, we 
have invested over $3.2 billion in the New Haven line while 
Amtrak has invested only $64 million.
    Of the $3.2 billion, $2 billion comes from State of 
Connecticut bond dollars, while the remainder is Federal 
Transit Administration rail formula or discretionary funding.
    Despite the progress, there is a $4.5 billion backlog in 
critical state-of-good-repair that needs to be addressed in the 
near term. A critical priority is the replacement of cab signal 
automated train control. And while this system is extremely 
effective, it must be upgraded, and this occurs at the same 
time as the implementation of positive train control, which, as 
you heard, has both financial and implementation challenges.
    I should note that PTC is estimated to cost Connecticut 
$130 million in addition to cab signal upgrades, and that it 
will impact our ability to continue the pace of investment and 
state-of-good-repair.
    Now, Connecticut is not alone in addressing the backlog of 
state-of-good-repair investments. The Northeast corridor relies 
on over 1,000 bridges and tunnels, many of which were 
constructed over a century ago, and in desperate need of 
repair.
    Key segments are at capacity or overcapacity. In 2010, the 
Northeast Corridor infrastructure master plan identified a need 
for an expenditure of $2.6 billion in annual expenditures over 
20 years to achieve state-of-good-repair.
    The Northeast Corridor Commission is now updating that 
capital plan report. There is a critical needs and 
infrastructure report that identifies long-term needs and will 
be delivering a 5-year plan at the end of this year.
    Now turning to the maintenance and operation of the New 
Haven line, Connecticut has an operating agreement with Metro-
North to provide for the delivery of operations, as well as the 
maintenance of facilities, track, bridges, power signals, and 
rolling stock. Amtrak maintains its portion.
    Metro-North's track inspection programs all comply with 
relevant Federal guidelines and standards. All track is 
inspected twice each week or more. All bridges are inspected 
annually. And our track inspectors are trained to identify 
deviations and defects. And critically, they have the 
responsibility and authority to take a track out of service or 
to repair it immediately, if necessary.
    Metro-North also inspects with specialized equipment, 
Sperry rail cars and track geometry cars, twice a year, which 
exceeds the Federal Railroad Administration.
    Our track inspectors meet all the qualifications of FRA. 
They are all foremen possessing high level of skills and 
experience, so they can detect deviations from track standards.
    And we are in compliance with all the Rail Safety 
Improvement Act of 2008 programs that have had deadlines 
established for them.
    With regard to employee safety, Metro-North has worked to 
completely transform the safety culture and has been actually 
commended through the APTA audit of safety and been given kudos 
for its clearly demonstrated leadership in the safety and 
security of customers and employees as a top priority.
    Now the derailment that occurred on May 17 has been talked 
about before. When we look at what happened there, I should 
note that service had to be suspended on the entire Northeast 
Corridor in Connecticut. The derailment destroyed track signals 
and catenary, and the remaining two tracks that could have been 
used were out of service due to long-term repairs that 
Connecticut is investing in to deal with the backlog of the 
state-of-good-repair.
    Now, amazingly, we put 2,000 feet of track back in just a 
couple days. And within 5 days, full service was restored.
    A critical point: Connecticut's level of investment in that 
state-of-good-repair is programmed over the next decade to take 
care of that backlog. But it will take a decade where two 
tracks may still be out of service on the Northeast Corridor's 
busiest commuter rail line--two out of four tracks for a 
decade.
    The incident with the track foreman that was struck and 
killed was an unfortunate incident. Metro-North has taken many 
procedures in place to try to address the safety protocols to 
prevent that in the future.
    A preliminary report on June 4 noted that Metro-North 
inspectors, they found a defect 2 days before the derailment. 
But, as noted, that was not a requirement to immediately take 
it out of service. It was just, rather, put into a priority for 
future maintenance, as are all inspections in terms of their 
protocols.
    With regard to the latest NTSB finding and recommendation, 
Metro-North has acted upon that immediately. And they are 
taking both technological and procedural aspects of their 
protocols to prevent any future incidents.
    I will commend Metro-North for taking action well in 
advance of any NTSB findings and working with the 
Transportation Technology Center doing extra inspections, 
increasing the right-of-way inspections, and exploring 
solutions to better employee safety.
    And I am convinced that together, Connecticut DOT, Metro-
North, and NTSB will work together to significantly and even 
more improve the quality and safety of our right-of-way and our 
service.
    And I appreciate this time, and appreciate any questions at 
the end of the testimony.
    [The prepared statement of Mr. Redeker follows:]

         Prepared Statement of James P. Redeker, Commissioner, 
                Connecticut Department of Transportation
    Good morning Senator Blumenthal, Ranking Member Blunt, and Members 
of the Subcommittee. I am Jim Redeker, Commissioner of the Connecticut 
Department of Transportation (CTDOT). I am also the current Chair of 
the Northeast Corridor Commission. I am honored to have the opportunity 
to discuss passenger and freight rail safety on the Northeast Corridor 
and in particular, on the rail lines within the State of Connecticut.
Connecticut's Rail Infrastructure and Investments
    Connecticut's rail freight and passenger system is strategically 
located between New York City and Boston. There are numerous freight 
railroads, ranging from a large Class I railroad to shorter regional 
and local railroads. There are also three passenger rail operations; 
the New Haven Line (NHL) commuter service operates between New Haven, 
Connecticut and Grand Central Terminal in New York City with connecting 
branches to New Canaan, Danbury, and Waterbury; the Shore Line East 
(SLE) commuter service which operates between New Haven and New London; 
and Amtrak intercity passenger service provided along the Northeast 
Corridor (NEC) between Washington and Boston, and the inland route 
between New Haven and Springfield, Massachusetts.
    The State of Connecticut has a unique role on the NEC, since the 
state owns 46 miles of the NEC infrastructure between New Haven and the 
New York border as well as three branch lines. In total, Connecticut 
owns 235 track miles on the NEC and the three branch lines.
    As the owner, Connecticut has invested significant state and 
Federal resources to upgrade the rail infrastructure, including track, 
catenary and bridges. Connecticut has funded the complete replacement 
of 405 New Haven Line electric passenger vehicles and the construction 
of related new maintenance facilities to support that fleet. As a 
result of the State's investment, progress toward a State of Good 
Repair has been strong. It is important to note that the Connecticut 
portion of the NEC is not part of the Amtrak capital program. As a 
result, almost all of the funding for the infrastructure is solely a 
state responsibility. In the last 10 years, Connecticut has invested 
over $3.2 billion in the NHL, while Amtrak has invested $64 million in 
track-related. Of the $3.2 billion, two-thirds, or over $2 billion has 
been funded by state bond funds, while the remainder is Federal Transit 
Administration rail formula or discretionary funding.
    Despite the progress, there is an estimated $4.5 billion backlog in 
critical State of Good repair needs that have to be addressed in the 
near-term. Included in this backlog are catenary replacement, four 
major moveable bridges between Greenwich and New Haven as well as 
numerous fixed bridges on the line. The State has invested substantial 
dollars over the years to maintain these bridges in order to meet the 
demand for passenger and freight service on one of the most heavily 
traveled rail lines in the country. A critical priority is replacement 
of the cab signal automatic train control system; while this system is 
extremely effective, it must be upgraded. This occurs at the same time 
as the implementation of Positive Train Control (PTC). PTC requirements 
present both financial and implementation challenges. CTDOT continues 
to work collaboratively with MNR to advance this effort by the 2015 
deadline. I should note that PTC is estimated to cost CTDOT $130 
million in addition to the cab signal upgrades, and that will impact 
our ability to maintain the pace of SOGR normalized replacement of 
assets as well as desired capacity improvements.
Northeast Corridor Infrastructure and Investments
    Connecticut is not alone in addressing the backlog of SOGR 
investments. The NEC relies on over 1,000 bridges and tunnels, many of 
which were constructed over a century ago and are in desperate need of 
replacement or repair. Key segments of the NEC are operating at or near 
capacity, such as the Hudson River Tunnels between NY and NJ, which 
carry over 70,000 riders daily and have no space for additional trains 
during rush hour. Major components of the NEC's electrical and 
signaling systems date back to the 1910s, making service on the line 
highly susceptible to malfunctions and delay. Major investment in the 
Corridor is essential to reduce delays, achieve a state-of-good-repair, 
and build capacity for growth. In 2010, the NEC Infrastructure Master 
Plan (Master Plan) estimated that the Corridor required approximately 
$2.6 billion in annual expenditures over twenty years ($52 billion 
total) in order to achieve state-of-good-repair and build 
infrastructure capable of supporting passenger rail demand forecasts 
for 2030. Investment levels over the past several decades have been 
critical in supporting the NEC's enviable record of continuous safe 
operation but have barely covered the costs of normalized replacement 
of basic components. They fall far short of the levels needed to 
address repair backlogs and meet future needs. The NEC Commission is 
currently in the process of developing an updated capital investment 
plan for the NEC that will address the needs of freight, commuter and 
intercity services. A copy of a report entitled, ``Critical 
Infrastructure Needs on the Northeast Corridor'' is available on the 
NEC Commission website at www.nec-commission.com. The Commission is 
scheduled to complete the capital plan by the end of this year.
Safety of Connecticut Rail Operations
    Turning to operations and maintenance of the NHL, CTDOT has an 
operating agreement with the Metropolitan Transportation Authority's 
Metro-North Railroad (MTA/MNR) to operate the NHL. This agreement 
assigns responsibility to MNR for maintenance of rail facilities 
including track, bridges, culverts, power and signals, and rolling 
stock. AMTRAK is responsible for maintaining the infrastructure they 
own and provides those services as part of the operating agreement 
CTDOT has for Shore Line East service.
    Metro-North's track inspection programs are designed to comply with 
all relevant Federal guidelines and standards. All track is visually 
inspected twice each week. All bridges are inspected annually. Track 
inspectors are trained to identify deviations and defects. Critically, 
they have the authority and responsibility to take immediate action, if 
necessary, such as reducing train speeds or taking the section of track 
out of service entirely. In addition to defects that require immediate 
action, FRA guidelines and standards require track inspectors to make 
note of ANY deviations to the basic track structure. These other types 
of deviations are noted so that there can be follow-up--either by 
programmed maintenance or in the next visual inspection. MNR also 
inspects the right-of-way with specialized equipment (track geometry 
car/Sperry Rail Car) twice a year--exceeding FRA requirements.
    Federal track safety standards also identify requirements for the 
qualifications of inspectors. All of MN track inspectors are qualified 
foremen, possessing a higher level of experience and knowledge so that 
they can accurately detect deviations from track standards.
    I would also note that MNR is in compliance with all provisions of 
the Rail Safety Improvement Act of 2008 that have had program 
implementation dates established. There are elements of RSIA--such as 
PTC--that are still in process, but we are in compliance with the 
interim deadlines required under the Act.
Employee Safety
    With regard to employee safety, Metro-North has worked to 
completely transform the safety culture throughout MNR over the past 
two decades. As a result, there has been a drastic reduction of FRA 
reportable employee injuries from 1,000 per year in the early 1990s to 
the current, sustained annual average of below 200 per year since 2008 
(a reduction of 500 percent). MNR was the last recipient of the MTA 
Chairman's Safety Award (2011) for its stellar safety record amongst 
the MTA family.
    In 2011, the American Public Transit Association (APTA) conducted 
an audit of the MNR System Safety Program Plan (SSPP) which resulted in 
the following commendation, ``APTA commends the management staff at MNR 
for its commitment and openness to further improve its system safety 
and security programs. MNR has clearly demonstrated that the safety and 
security of its customers and employees are its first priority. This 
open commitment to improving safety and security provides an excellent 
foundation for a proactive safety and security culture that is 
ultimately supported by all employees. APTA supports this proactive 
management approach to continuous improvement in the areas of safety 
and security performance.'' Moving forward, MNR will continue to focus 
on customer and employee safety as the railroad's top priority.
Recent Derailment and Employee Fatality
    Despite an excellent safety record and maintenance efforts, MNR 
experienced two safety events this May. At approximately 6 p.m. on May 
17, an eastbound NHL passenger train derailed and was struck by a 
westbound train between Bridgeport and Fairfield, Connecticut. About 
250 passengers were on each train at the time of the incident. 73 
passengers and 3 MNR personnel were transported to area hospitals with 
injuries. The NTSB arrived at the scene within hours of the incident.
    Service on the NHL was suspended between South Norwalk and New 
Haven and Amtrak NEC service was suspended between Boston and New York. 
The derailment destroyed track, signal and catenary systems on two 
tracks. The remaining two tracks are out of service due to a CTDOT 
project to replace 100 year old catenary and fixed bridges in the area 
of the derailment. As a result, the 4 track capacity of the NEC was 
reduced to 2 tracks, and both of those were fouled by the derailment. 
Amazingly, 2,000 feet of the 2 track infrastructure was completely 
rebuilt, tested and restored to service four days later and full 
service was restored the following day.
    I would like to pause to make an important point. CTDOT's current 
level of state and rail formula funding has been programmed over the 
next decade to address the backlog of replacement or major 
rehabilitation of the NHL infrastructure. That includes 20 moveable and 
fixed bridges, 80 miles of catenary replacement, a new signal system, 
and PTC. Without additional funding, CTDOT anticipates that additional 
2 track outages will be required on sections of the NEC for the next 
decade, eliminating critical capacity and redundancy through 
Connecticut.
    On May 28, 2013, a Metro-North track foreman was struck and killed 
by a Metro-North passenger train traveling at 70 mph in West Haven, 
Conn. The foreman had requested the section of track be taken out of 
service for maintenance. Two Metro-North rail traffic controllers, one 
of whom was a student controller, placed the section out of service. 
But the student controller reopened the track a little more than an 
hour later without the approval of the qualified controller or the 
foreman.
    Prior to this incident, on May 4, 2013, another Metro-North rail 
traffic controller mistakenly placed out-of-service track back in 
service. Two days later, Metro-North instituted additional operations 
control procedures, but these procedures did not prevent the May 28 
fatal incident.
NTSB Preliminary Reports and Recommendations
    A preliminary report by the NTSB issued on June 4 noted that Metro-
North inspectors found a track defect two days before the May 17 
derailment. However, NTSB further indicated that the Federal standards 
and guidelines currently in place did not require immediate action for 
any of those track defects noted.
    On June 17, the National Transportation Safety Board issued an 
urgent safety recommendation to Metro-North Railroad to provide 
redundant protection for track maintenance crews who depend on train 
dispatchers to provide signal protection. The NTSB is urgently 
recommending that Metro-North require redundant signal protection, such 
as shunting, in these circumstances. A shunt is a device that crews can 
attach to the rails in a work zone that alerts the controller and gives 
approaching trains a stop signal.
    Metro-North received NTSB's recommendation and will implement 
safety improvements as quickly as possible. Metro-North acted 
immediately after the fatal accident to activate a new procedure to 
prevent a Rail Traffic Controller from removing a block on a track 
without the explicit approval of the Chief Rail Traffic Controller. 
Previously a block could be removed by an RTC with the verbal 
permission of the roadway worker on the scene of the track work. In 
addition, the railroad already has begun working on a technological 
solution beyond the current system of verbal confirmations. It will 
require mechanical input from the roadway worker to implement and 
relinquish all blocks.
Current Actions by Metro-North/MTA
    While the NTSB investigation is ongoing, in consultation with 
CTDOT, Metro-North has already taken action to review its existing 
programs and processes in advance of formal NTSB recommendations. These 
actions include:

  <bullet> Retaining Transportation Technology Center Inc. TTCI is the 
        internationally-renowned research affiliate of the American 
        Association of Railroads which will assess our track 
        maintenance and inspection programs, and to identify ways we 
        can improve our efforts to maintain our right-of-way.

  <bullet> Inspecting and conducting an inventory of all similar 
        joints--it is important to note that no joint bar defects were 
        found.

  <bullet> Increasing inspections of our right-of-way using specialized 
        equipment on loan from other railroads.

  <bullet> Exploring solutions to better protect railroad employees 
        working in the right-of-way.

  <bullet> Building in additional safeguards to our procedures in the 
        railroad's operations control center regarding returning tracks 
        to revenue service.

    CTDOT and Metro-North will continue to support the NTSB's 
investigation and will also implement any recommendations.
Closing
    I appreciate the opportunity to appear before you today to discuss 
rail safety and I am prepared to address any questions you have.

    Senator Blumenthal. Thank you, Commissioner.
    And now Ms. Teel?

            STATEMENT OF MICHELLE TEEL, P.E., PTOE,

                MULTIMODAL OPERATIONS DIRECTOR,

             MISSOURI DEPARTMENT OF TRANSPORTATION

    Ms. Teel. Thank you, Chairman Blumenthal, Ranking Member 
Blunt, and Senator Johnson. I am pleased to be here to share 
the State experience of freight and rail passenger safety.
    Missouri has a long history with railroads, from James Eads 
building the first Mississippi River railroad bridge crossing, 
to the Jesse James gang robbing trains, to today's unit trains 
carrying oil from northern hydraulic fracking operations. 
Missouri's railroads have seen and done it all.
    Missouri is the fourth most rail-intensive state. In 2012, 
Missouri railroads carried 438 million tons of goods, more than 
any other mode in our state, even trucks.
    Missouri is home to the second and third largest U.S. rail 
hubs in Kansas City and St. Louis, respectively. Missouri has 
4,000 miles of mainline tracks, 7,000 public and private rail 
crossings, four intercity passenger rail routes. And six of the 
Nation's seven class I railroads operate in Missouri.
    With such a massive amount of rail traffic, the potential 
for danger is around every corner, and in every rail yard.
    As you heard, just 3 weeks ago in Southeast Missouri, two 
trains collided at a railroad diamond intersection. When these 
trains collided, they also hit a MoDOT bridge, causing it to 
collapse. A total of seven people were involved in the 
incident, and amazingly, the worst injury was a broken bone.
    But this incident speaks to the importance of railroad 
safety and the need to systematically and constantly work to 
improve it.
    One week after this incident, a barge carrying an extremely 
large crane broke loose, floated downriver, and became wedged 
under a Missouri River rail crossing in St. Louis. It took 
nearly 3 days to remove the crane.
    Interstate commerce is the driver of the Missouri and U.S. 
economy, and incidents like these can have far-reaching 
consequences.
    Missouri is one of a handful of states with strict State 
railroad safety regulations. It includes requirements for 
operating practices, reporting, grade crossing safety, tariffs, 
train equipment, and training.
    Missouri assesses each operating railroad for intrastate 
revenues to fund four railroad safety inspectors. These 
inspectors also enforce Federal regulations, so we coordinate 
closely with the Federal Railroad Administration inspectors.
    Another area of concern is grade crossing safety. From 2008 
to 2012, there were 192 grade crossing incidents resulting in 
41 fatalities in our state. This put Missouri as fifth worse in 
the U.S. The funding Congress provides for improving this 
crossings makes up approximately 80 percent of the funds MoDOT 
has available for this purpose.
    Railroads have never been safer, but there is still so much 
to do.
    Missouri is also home to four passenger rail routes. The 
Missouri River Runner is a State-sponsored route from Kansas 
City to St. Louis. There are also two national routes, the 
Texas Eagle and the Southwest Chief. Finally, an Illinois 
State-sponsored route, the Lincoln Service, originates in St. 
Louis, Missouri.
    These routes are experiencing high ridership growth, and 
the Missouri River Runners growth is exceptional. Since 2007, 
ridership is up 74 percent. Ticket revenue is up 112 percent. 
On-time performance is around 90 percent. And customer 
satisfaction for this route has gone from last in the country 
to seventh.
    Missouri was awarded $50 million in the FRA's high-speed 
intercity passenger rail program funding. This leveraged 
another $20 million investment from railroads in our state. 
These investments target on-time performance and safety for 
both freight and passenger rail.
    Missouri, Illinois, California, and Michigan all worked as 
a team to acquire new and safer passenger rail equipment, which 
is currently in the procurement process. Without Federal 
investment, this new equipment would not be possible.
    Thank you again for the opportunity to share information on 
Missouri's role in freight and passenger rail safety. The 
opportunities for additional rail investment are tremendous. 
Missouri recently completed a rail plan that identified $1.4 
billion in unmet needs for passenger and freight rail in our 
state.
    I urge you to continue investment in railroads, as it is 
key to the success of America's transportation system and 
economy.
    Thank you.
    [The prepared statement of Ms. Teel follows:]

Prepared Statement of Michelle Teel, P.E., PTOE, Multimodal Operations 
            Director, Missouri Department of Transportation
Introduction
    Thank you, Chairman Rockefeller and Ranking Member Thune, for 
inviting me to participate in this hearing. I am Michelle Teel, the 
Missouri Department of Transportation's Multimodal Operations Director. 
I'm so pleased to be here to share the state experience of freight and 
passenger rail safety in America's transportation system. The nation's 
rail system is an essential part of surface transportation. Missouri 
has a long history with railroads, from James Eads building the first 
Mississippi River railroad bridge to the Jesse James gang robbing 
trains to today's unit trains carrying oil from northern hydraulic 
fracking operations, Missouri's railroads have seen and done it all.
    I am here today to share Missouri's unique story regarding 
railroads and railroad safety.
Missouri's Rail System
    Missouri is the fourth most rail intensive state. In 2012, Missouri 
railroads carried 438 million tons of goods, more than any other mode 
in our state, even trucks. This amount of freight equates to nearly 11 
million fully loaded trucks. If lined up end-to-end, they would circle 
the earth six times.
    Missouri's central U.S. location makes it the crossroads for 
freight. Missouri is home to the second and third largest U.S. rail 
hubs in Kansas City and St. Louis, respectively. Missouri is second 
only to Chicago, Illinois. These figures are based on size. If tonnage 
is used for comparison; Kansas City's terminal experiences the most 
tonnage in the U.S. Missouri has 4,000 miles of main line track, 7,000 
public and private rail crossings, four intercity passenger rail 
routes, and six of the nations seven Class I railroads operate in 
Missouri. With such a massive amount of rail traffic, the potential for 
danger is around every corner and in every rail yard.
    Just three weeks ago, in southeast Missouri, a Union Pacific train 
collided with a Burlington Northern Santa Fe train at a railroad 
diamond intersection. When these two trains collided, they also hit a 
MoDOT bridge causing it to collapse. A total of seven people were 
involved in the incident and, amazingly, the worst injury was a broken 
bone, but this incident speaks to the importance of railroad safety and 
the need to systematically and constantly work to improve it.
    One week after this incident, a barge carrying an extremely large 
crane (being used on a MoDOT bridge replacement project) broke loose. 
It floated down river, took out major power lines and became wedged 
under and against Norfolk Southern's Missouri River crossing in St. 
Louis. It took nearly three days to remove the crane. Norfolk 
Southern's midwestern train operations came to a grinding halt. 
Interstate commerce is a driver of the Missouri and U.S. economy. 
Incidents like these can have far reaching consequences.
Freight Rail Safety
    Missouri is one of a handful of states with strict state railroad 
safety regulations. They include requirements for operating practices, 
reporting, grade crossing safety, tariffs, train equipment, and 
training. Missouri assesses each operating railroad for intrastate 
revenue to fund four railroad safety inspectors. Each of these safety 
inspectors specializes in disciplines to ensure coverage of the state 
regulations. Because MoDOT railroad safety inspectors become certified 
inspectors through the Federal Railroad Administration's program, they 
also enforce Federal regulations. If you recall, I mentioned there are 
approximately 4,000 miles of main line track in Missouri. This is an 
immense amount of territory for four inspectors to cover, so we 
coordinate closely with the Federal Railroad Administration inspectors.
    Another area of concern is grade-crossing safety. Missouri has 
3,800 public crossings scattered statewide. They require significant 
attention. From 2008 to 2012, there were 192 grade crossing incidents 
resulting in 41 fatalities. This put Missouri as fifth-worst in the 
U.S. The funding Congress provides for improving these crossings makes 
up approximately 80 percent of the funds MoDOT has available for this 
purpose. This is very important to Missouri and I urge you to continue 
to invest in these critical safety improvements. To give you some 
scale, Missouri receives approximately $6 million per year in Federal 
highway funding for 3,800 public crossings. The state invests 
approximately $1.2 million. Railroads have never been safer, but there 
is still much to do.
    Safety data is a key tool used to address railroad safety. This 
data helps our MoDOT railroad staff prioritize crossing improvements. 
It also helps our railroad safety inspectors focus on particular 
regions of the state, given what the data is showing. For example, in 
2012, MoDOT focused on 11 of Missouri's 114 counties. More than 50 
percent of all railroad incidents occurred within these counties. 
Through engineering, enforcement, education, and emergency medical 
services, Missouri makes every attempt to use the data to be as 
strategic as possible with limited resources.
Passenger Rail Safety
    Missouri is home to four passenger rail routes. The Missouri River 
Runner is the state-sponsored route from Kansas City to St. Louis. 
There are also two national routes, the Texas Eagle and the Southwest 
Chief. Finally, Illinois' state sponsored Lincoln Service originates in 
St. Louis, Missouri. These routes are experiencing ridership growth. 
There is a need for continued investment to help ensure the safety of 
the passengers and crews. In addition, continued investment is needed 
to address capacity issues. Both freight and intercity passenger rail 
are experiencing growth in the same corridor.
    The Missouri River Runner's growth is exceptional since 2007. 
Ridership is up 74 percent, ticket revenue is up 112 percent, on-time 
performance is around 90 percent and customer satisfaction for the 
route has gone from last in the country to seventh. The railroad the 
Missouri River Runner operates on is a Union Pacific road which is also 
seeing increases in traffic. MoDOT is committed to ensuring the 
viability and safety of both freight and passenger movements.
    Missouri was awarded $50 million in the Federal Railroad 
Administration's High Speed Intercity Passenger Rail Program funding. 
This leveraged another $20 million in investment from host railroads. 
These investments along the Missouri River Runner route target on-time 
performance and safety for both freight and passenger rail. They have 
and will continue to contribute to both of these goals for the 
foreseeable future. However, continued investment in passenger rail is 
necessary to address increasing passenger movements.
    Passenger rail safety also comes in the way of equipment. Missouri, 
Illinois, California and Michigan all worked as a team to acquire new 
and safer passenger rail equipment, which is currently in the 
procurement process. Without Federal investment, this new equipment 
would not be possible. Missouri is an active member in the Next 
Generation Equipment Committee and committed to the goals and 
objectives of this important body, consisting of the FRA, Amtrak and 
interested states.
Conclusion
    Thank you again for the opportunity to share information on 
Missouri's role in freight and passenger rail safety. The opportunities 
for additional rail investment are tremendous. Missouri recently 
completed a state rail plan which identified $1.4 billion in unmet 
needs for passenger and freight rail. I urge you to continue investment 
in railroads, as it is key to the success of America's transportation 
system and economy.

    Senator Blumenthal. Thank you, Ms. Teel.
    We are going to begin our questioning with Senator Johnson, 
and then Senator Blunt and I will follow.
    Senator Johnson. Thank you, Mr. Chairman. I appreciate 
that. I am sorry I am going to have to leave earlier.
    But I just really have one question for as many people who 
really want to speak to the issue.
    Mr. Redeker, you basically were talking about the point I 
was trying to make with the earlier panel. As much as we would 
all love to see positive train control fully implemented and 
saving lives, the investment in that has a cost. And that cost 
is investment in other areas of safety.
    And my other concern--and again, I want whoever wants to 
weigh in on this to give be given that opportunity.
    There seems to be challenges technologically, whether it is 
even possible. There are challenges in terms of whether the 
spectrum is even going to be made available.
    So I would just like, starting with you, Mr. Redeker, to 
speak to that point.
    Is this even possible? Is Congress trying to force 
something that just simply cannot be done?
    Mr. Redeker. I would like to point out that Connecticut's 
capital program identifies PTC as a priority, but I think the 
timeframes are unrealistic in terms of being able to achieve 
them.
    I also should note that on the New Haven-Hartford-
Springfield high-speed intercity corridor route, that project 
includes installation of a new signal system and positive train 
control, which, frankly, would have been born by Amtrak, if it 
was not being borne by the state of Connecticut in that 
corridor.
    But we have, as a result, had to spread out some of our 
other investments for state-of-good-repair projects, or 
capacity expansion projects, over a longer period of time.
    So it is a tradeoff that we have made of deferring some 
additional investments, be it for capacity or for state-of-
good-repair, with a priority being PTC. And we are partnering 
with Metro-North because we are part of their overall system, 
and actually being part of the first pilot segment for the 
Metro-North system, so Connecticut is leading in that.
    So we are committed to safety. We have made some tradeoffs 
in timing for other projects. And we are, frankly, struggling 
with all the issues everyone else is struggling with in terms 
of spectrum and radios and integration and cost.
    Senator Johnson. Ms. Waters?
    Ms. Waters. Yes, I would like to speak specifically to a 
few of our member railroads and what they are doing and what 
their challenges are.
    The Southeastern Pennsylvania Transportation Authority, or 
SEPTA, operates commuter rail, as well as other transit modes 
in the Philadelphia region. SEPTA is one that is anticipating 
to meet the target. They have set that as a priority. You may 
have read recently, earlier this week, they are putting a 
bridge out of service, probably next month. They have already 
spent $130 million to stay on track to meet the 2015 deadline. 
Much more in expenditures to come between now and then.
    But to get there, they had to defer their bridge 
replacement program. And so there is a bridge over the 
Schuylkill where trains will not be running most likely next 
month. And that means that the service on that line will be 
disrupted for some indeterminable amount of time with alternate 
bus transportation. And most of us know that, comparing the 
travel times between the bus and the rail, that those customers 
will be back in their single occupancy vehicle on the highways.
    We have another member, we spoke, I think, Ms. Hersman 
spoke about Alaska Railroad being one that expected to be on 
time, and they certainly do, and are continuing to work 
aggressively to meet the deadline. They are having significant 
challenges with the spectrum.
    In fact, they are having an interesting challenge in that 
apparently they are negotiating with PTC-220, and they cannot 
obtain or afford the insurance that is required.
    Hopefully, they will be able to work through that, but that 
is potential delay, nonetheless, for one railroad that is 
committed and expecting to be on time.
    We have a small Northwestern commuter railroad that, about 
a year ago, essentially went on record to say they just do not 
have the funds. It is a small operation, about 30 trains a day, 
pretty much only in the a.m. and p.m. peak. They operate on a 
short line railroad with very light freight traffic.
    They said, we just simply cannot afford to do this. And 
their alternatives are, one, to reduce their service by about 
two-thirds to come under the threshold required for PTC, which 
I believe is 12 trains a day; or to simply on December 31, 
2015, discontinue service.
    Senator Johnson. So there are real costs.
    Mr. Hamberger, very quickly. I am about out of time.
    Mr. Hamberger. Thank you, Senator Johnson.
    And let me just say, before I answer the question, I want 
to get in on the record, we are not seeking repeal of this 
mandate. We have $3 billion into it. We have too much work into 
it, and this is a decision from the CEO level on down, we are 
committed to getting this done. We need more time to do it.
    If we were back in 2008 and you said, how could you spend 
$10 billion to improve safety, PTC would be part of the mix, 
but it would be more of the roadside detectors, more of the 
capital projects and maintenance projects that I referenced. We 
have a safe railroad. But the list of projects is never ending. 
And so we would be spending even more money on the basic 
blocking and tackling, along with some of these other 
technologies.
    Senator Johnson. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Senator Blumenthal. Thank you very much, Senator Johnson.
    Senator Blunt?
    Senator Blunt. Thank you, Chairman. A truly great Chairman 
lets the other members ask their questions so they can get on 
to the things that we are already behind on. And I thank you, 
Chairman, for doing that.
    Also, great panel. Thanks to all of you for being here. 
Lots of good information. I am sure I will have other questions 
to ask in writing for your response later.
    Mr. Redeker, on the choices you said you were having to 
make about more customer service and maintenance, if you did 
not have the PTC requirement, even though Mr. Hamberger says 
the railroads want to now finish this up, would you have chosen 
to prioritize PTC? I am going to have to have pretty quick 
answers here.
    Mr. Redeker. I think we have a very efficient and effective 
cab signaling system today. It needs to be upgraded, and that 
would have been our top priority.
    Senator Blunt. OK.
    Ms. Teel, thanks for being here. Every state thinks they 
have the top of whatever the hearing is about. I think we do 
have the busiest rail state in the country. And if you look at 
a railroad map of the country, I believe that would bear that 
out.
    The Chaffee accident, where I think a bridge went down, a 
highway bridge, it was the overpass bridge, who takes care of 
replacing that bridge? And how is the process going?
    Ms. Teel. That process is going well. The railroads have 
indicated that they are--one in particular is going to take 
care of the cost for that. And once the investigation is final, 
all those determinations will be finalized. But we have a 
really good partnership with those class I railroads, and we 
feel confident that those costs are going to be taken care of 
by the railroad.
    Senator Blunt. And did you say that crossing accidents were 
the big percentage of accidents that happen, in our state, at 
least?
    Ms. Teel. Correct.
    Senator Blunt. And I believe, Mr. Hamberger, between 
crossing and trespassing, you get almost to 100 percent. It is 
like 90 some percent of all----
    Mr. Hamberger. Over 95 percent of fatalities, yes, sir.
    Senator Blunt. All right, crossings and people who should 
not be on the track, who are on the track.
    Mr. Hamberger. Yes, sir. And, unfortunately, our research 
shows that about a third of those trespassers are suicides.
    Senator Blunt. They intend to be on the track?
    Mr. Hamberger. Yes, sir.
    Senator Blunt. About a third.
    Ms. Teel, the working relationship between what you do at 
the Missouri Department of Transportation and both the NTSB and 
the FRA, how would you explain that setup?
    Ms. Teel. Senator, it is a great working relationship. In 
fact, we also enforce the Federal Railroad Administration 
regulations and work closely with the regional office in Kansas 
City and have also worked with NTSB on the investigation in 
Chaffee, Missouri. And we are proud of the partnership that we 
have not only with those agencies, but also with the railroads 
in our state.
    Senator Blunt. Mr. Stem, is there any difference now 
between the way passenger work schedules go out for passenger 
rail or freight rail?
    Mr. Stem. Yes, sir. Passenger rail now has its own hours of 
service regimen. They are based on predictable work schedules, 
and they do have to, by regulation, apply the science that is 
available.
    Senator Blunt. And your testimony was really focusing on 
making those even better. They are already different, but your 
testimony was focused that they should be even better?
    Mr. Stem. My testimony indicates that the problem is with 
the freight hours of service and the totally unpredictable work 
schedules and the new pressures that are being applied by the 
railroads in an attempt to significantly reduce the numbers of 
safety critical employees that they have to have on staff to 
continue the level of service that is present today.
    Senator Blunt. So if I heard that right, you think the 
passenger service efforts are actually better than the freight?
    Mr. Stem. Yes, sir. They are a model for us to aim for with 
improvements in the fatigue mitigation strategies and plans 
that are now being required.
    Senator Blunt. OK.
    Mr. Hamberger, on that topic, and then the topic of only 
needing to apply to 39 percent, I want to be sure I have your 
sense.
    Mr. Hamberger. My sense is that 39 percent is low. We are a 
90,000-mile network, and we are putting PTC on 60,000 miles. 
That does not quite equal 39 percent by my math.
    With respect to fatigue management, Mr. Stem is correct. 
That is something that both labor and management are working on 
cooperatively across the board in many areas. With respect to 
the predictability of our network, a freight railroad is not a 
passenger railroad. We do have predictable time for yard 
service and for local service. But for over the line long-
distance trains, that can be dependent upon what our customers 
want, when they are ready to have their shipments go.
    We cannot have a 10-hour call window. If someone is 
scheduled to report at 12 and calls up at 10 and says I am ill, 
I cannot get there, then what? We have to wait to give someone 
else a 10-hour notice, so that train that was going to leave at 
12 has to wait 10 hours until a replacement crew can get there?
    We are a 140,000-mile, including the short lines, outdoor 
assembly line. We have mudslides, snow, washouts, all of which 
makes this schedule unpredictable. We support the 10-hour 
uninterrupted call, but right after the work ends in the first 
place.
    Senator Blunt. Thank you, and I will have some questions, a 
few more questions for some of you. Thank you all.
    Mr. Stem. Senator Blunt, if I may add, 39 percent figure is 
not my figure. That is the Federal Railroad Administration 
estimate: 140,000-mile network, including some short lines that 
will be required to apply PTC. And I think Mr. Hamberger is 
close. It was 60,000 miles of a 140,000-mile segment, and they 
have been able to negotiate that mileage down to 50,000 miles. 
So that is the FRA figure.
    Senator Blunt. Since we have come back to this, does the 
system, Mr. Hamberger, have to be interoperable?
    Mr. Hamberger. Yes, sir. It is so that a railroad, just to 
use a name, a Union Pacific locomotive that goes through 
Chicago has to be interoperable with Metro, the commuter rail 
there, with Amtrak operating there, with every other class I 
railroad operating there. And if that Union Pacific, we have 
what is called run through power, if that locomotive goes 
through Chicago and continues on its way on a CSX track, it has 
to be able to talk to the CSX back office.
    And that is one of the challenges, that we do not even have 
that software yet for the back office. It is going to be 
delivered sometime this summer.
    Senator Blunt. Thank you, Mr. Chairman.
    Senator Blumenthal. Thank you, Senator Blunt.
    And thank you, Mr. Stem, for clarifying that point.
    Let me begin my questioning, if I may, with Commissioner 
Redeker.
    You made what, for me, is an extraordinarily important 
point about the investment that Connecticut taxpayers are 
making in these lines. I think the numbers that you used were 
$3.2 billion over the last 10 years, as compared to $60 million 
invested by Amtrak, which I think attests to the leadership 
that you have provided, along with the Governors and the 
continuing vision and commitment going forward to make the 
investment by State taxpayers, which I think is done in other 
states as well, maybe not to the same extent, but certainly not 
without great fiscal challenge and difficulty at a time when 
State governments face tremendous deficits. We talk a lot here 
about our Federal deficit, but obviously the states have been 
extremely challenged fiscally.
    And so let me begin by asking you about the continuing work 
that is ongoing on the Northeast Corridor, which has reduced 
capacity in certain areas from four tracks to two. Did that 
reduction in capacity exacerbate or aggravate the disruption 
that occurred as a result of the collision and derailment?
    Mr. Redeker. Yes, Senator. We have about 15 miles of two 
tracks out of service. Our bridge structures, which are being 
rehabilitated concurrently with catenary replacement, are two-
track structures. So in that section, we are doing several 
bridges. And that means that those tracks are out of service. 
They have been for almost 2 years, and we are about ready to 
complete that this year.
    But we have about 80 more miles of catenary and several 
more miles, many, many more bridges to do, which means that at 
the pace of the investment that the state has been able to 
make, which is significant, nonetheless, the backlog is 
extraordinary. And it is going to take another decade to 
complete that, to bring that system to a state-of-good-repair.
    Now that is a historical anomaly, in some sense, because 
the state of Connecticut chose to be unique among many, and own 
the Northeast Corridor instead of Amtrak in the time period 
when those decisions were being made. And as a result of 
legislation, we have not been part of the Amtrak capital plan. 
We are not eligible for that funding source. Although the new 
high-speed rail program in its latest incarnation does allow 
Connecticut to apply for high-speed money, and we are preparing 
to do that if there is a resource available and an 
appropriation that comes forward.
    So we have a lot to do. We are committed to doing it 
because of the real important economic engine that the 
Northeast Corridor means for the state of Connecticut.
    Senator Blumenthal. Some of those bridges are more than 100 
years old. Is that right?
    Mr. Redeker. That is correct. A hundred years is probably 
our average.
    Senator Blumenthal. And the funding responsibilities may be 
anomalous, but the aging state of our infrastructure is common 
across the United States, is it not?
    Mr. Redeker. That is correct. We are about 1910 vintage for 
across the Northeast Corridor. So, therefore, the nature of 
that infrastructure, the need for rehabilitation, and some of 
the capacity constraints, which are felt not just by 
Connecticut with tracks out, but two-track systems in New 
Jersey, two-track systems in Baltimore that, in the long run, 
are really the constraints for the Corridor to grow, and to 
have redundancy in cases where you need to rebuild.
    So the Corridor is challenged. Working through the 
Commission, we are trying to identify the next 5-year capital 
program to address the most critical needs based on the 
utilization and priority, which I think is unique for the 
Commission. It is a new challenge. But we think we will be able 
to be up to that and deliver a capital plan that both states 
and the Federal Government and freight rail partners can invest 
in to bring that system as quickly as possible to state-of-
good-repair.
    Senator Blumenthal. Thank you.
    Ms. Teel, let me ask you also on the issue of state 
commitment and impacts of these kinds of incidents, I look at 
the picture of what happened in Chaffee, Missouri, on May 25, 
and miraculously, apparently, nobody was killed in this 
incident. But I can see from what happened to the highway as a 
result of the train collision and bridge collapse there that 
there must be very, very substantial State costs in repairing 
this major highway. Is that correct?
    Ms. Teel. Mr. Chairman, the railroad has worked very 
closely with the state, and we are confident that the railroad 
is going to fully reimburse the state for those costs. In fact, 
they had the bridge that you have that photo of removed in a 
day. It was absolutely remarkable to see the work that the 
railroad has put into making this as efficient as possible and 
making the lines correct again.
    And I am confident that because of these strong 
partnerships and because of--well, certainly, we will have to 
wait for the investigation to be complete, but I am confident 
that the railroad will indeed have those expenses and not the 
state of Missouri.
    Senator Blumenthal. And are you faced in Missouri with the 
same kinds of need to upgrade infrastructure, not just routine 
maintenance but also bridges that are aging, track that is in 
need of replacement?
    Ms. Teel. Correct, Mr. Chairman. Certainly, we have those 
infrastructure needs in our system in Missouri.
    We have a very large highway system in Missouri, 32,000 
miles of highway, 10,000 bridges. We do not own any railroad 
track in the state. However, we certainly have the grade 
crossings, 7,000 grade crossings in our state. Half of those 
are public. Only half of those have lights and gates, so there 
is huge opportunity for continued State investment and Federal 
investment to make those grade crossings safer. And also, there 
is the inspection role that we have of all of the track in our 
state that we work together with the Federal Railroad 
Administration.
    But certainly, Missouri is no different from any other 
state. We have critical funding needs, aging infrastructure, 
and it is an absolute concern in our state as well.
    Senator Blumenthal. Mr. Stem, you may have heard Ms. Teel 
talk about the Missouri railroads, and she said that the 
Missouri railroads have seen and done it all. I kind of have 
the feeling that you have seen and done it all in the course of 
your career in working on the railroads. And I wonder if you 
could give this committee your personal view of the current 
state of safety on the railroads, particularly as it affects 
the men and women who do the kind of work that you have done 
for your life.
    Mr. Stem. Thank you, Senator Blumenthal, for the question.
    I agree with Mr. Hamberger's initial statement, that safety 
is improving in our industry today. We still have work to do. 
We are reducing the number of fender-benders. We are focusing 
on reducing the minor incidents, and we are being successful at 
that.
    My testimony indicates that the big-ticket items, the fatal 
collisions, are going up, not down. And there is a whole menu 
of reasons for that.
    As you heard Mr. Szabo and Ms. Hersman testify earlier, 
human factors are the number one cause of accidents. Now 
sometimes those human factors are unaccounted for in design or 
a piece of equipment that was manufactured that malfunctioned, 
and it also does not address the specifically deferred 
maintenance on tracks.
    But knowing what we know today about positive train control 
and fatigue mitigation, that is where the low-hanging fruit is. 
That is the best opportunity for significant improvement in the 
overall safety.
    It is not just for the employees. Every time we have one of 
these major collisions that kills an employee, the surrounding 
community is also involved, many times with evacuations.
    The amount and number of hazardous material products that 
are moving by rail today is growing. That is the safest form of 
transportation for those products, and that is exactly where 
they should be. But that means that any time there is an 
incident, anytime there is a collision, the local community's 
equity goes up in that collision.
    So I encourage the Committee to continue to work on that, 
to help us with fatigue mitigation. From the employee's 
standpoint, that is exactly why PTC was mandated.
    And on that 61 percent of the mainline track that will not 
be equipped with PTC, some of which will be short line track, 
we will continue the same level of operation that we have 
today, and the same fatigue mitigation failures that we have 
today, unless Congress acts.
    Senator Blumenthal. Your view is that the fender-benders 
have diminished in frequency but the higher costs and more 
disastrous kinds of incidents are occurring more frequently?
    Mr. Stem. Yes, sir. That is correct. And, overall, the 
statistics show that safety is improving in our industry. And I 
am thankful for that. And we are overall reducing the number of 
employee on-duty fatalities.
    And many of those were result of switching accidents, which 
are still occurring.
    But fatigue, positive train control, was designed to help 
us get those fatal injuries to employees down.
    Senator Blumenthal. Ms. Waters and Mr. Hamberger, do you 
agree with that view?
    Ms. Waters?
    Ms. Waters. Mr. Hamberger?
    Mr. Hamberger. No. The employee injury rate, which is, I 
believe, the single best indicator of ``are we getting safer'' 
in terms of our employees, continues to go down. And when I 
said it was the safest year on record in 2012, and again in 
2011 and again in 2010, the employee injury rate is one of 
those three indicators to say it is the safest year on record. 
That continues to go down.
    2012, there was an unfortunate 16 employees killed. That is 
16 too many. We are dedicated to getting that to zero.
    But it is something that we are focused on, some of those, 
it is my understanding, in fact, were fatalities of employees 
in automobile accidents while on duty. And so we are focused.
    I want to say to Mr. Stem, he said it, that the 
professionalism of our employee base is what helps drive 
safety, and that is absolutely right. It is professionalism and 
dedication, peer-to-peer counseling, and those are important 
programs. And so we are looking forward to continuing on 
fatigue management, employee training, employee education, any 
number of issues that we are working together on.
    So it is something that we take very seriously and are 
indeed focused on. So hopefully, I will be back here next year, 
and tell you that 2013 was even safer than 2012 in terms of 
employee injuries.
    Senator Blumenthal. I hope so, too.
    Ms. Waters?
    Ms. Waters. I would concur with Ed. I am not going to 
expand upon that.
    Senator Blumenthal. I have a couple more questions, just 
briefly.
    Commissioner Redeker, on the plus side, on the bright side 
of infrastructure investment, am I correct in the view that the 
investment in the M8 cars, which were involved in the 
derailment collisions in May, probably prevented more 
catastrophic injuries and even deaths, because of the 
structural advances that those cars reflect?
    Mr. Redeker. Yes, we invested as the State and as partner 
with Metro-North on the newest cars manufactured to the newest 
standards for buff strength for a commuter rail coach. They 
certainly held up well in that accident. I cannot speak to what 
would have happened were they not there, but I think it is a 
measure of our commitment to safety, our investment in that.
    That was another 100 percent State-funded investment in an 
entire rolling stock to bring the latest standards to the 
commuters in Connecticut.
    Senator Blumenthal. And reference has been made to the 
inspection by Sperry Rail cars. Could you describe that method, 
and why it is superior to the high-rail method?
    Mr. Redeker. I think it is just another means for 
inspection. We have terrific inspectors. They are well-
qualified. Their experience within high-rail vehicles is 
probably unmatched, in terms of what they can bring to an 
inspection report. They can feel it, they know it, they have 
experience.
    Technology brings a lot more to the table, and I think 
adding significant layers of additional inspection help. But 
not every defect is going to be found by a Sperry Rail car and 
not every defect is going to be found, necessarily, by a high-
rail vehicle. So by applying several techniques, we are trying 
to have redundant inspections, maximize what we can prioritize, 
and then address the defects that are found as quickly as 
possible in priority order. And that is the practice that 
Metro-North uses, again, all in compliance with the current 
guidelines from FRA.
    Senator Blumenthal. Have you had an opportunity to review 
the inspection report that we have made a part of the record 
that was done on May 15?
    Mr. Redeker. Yes, in fact, I got it yesterday from your 
staff.
    Senator Blumenthal. And are you concerned by the findings 
there as to defects in the ballast and support and rail joints 
and other areas of the track?
    Mr. Redeker. Actually, no. That is a standard inspection 
report. The kinds of things that were found and noted are 
addressed on a regular, routine basis. And they are addressed 
quickly.
    Any defect, and I think it was mentioned, any defect found 
on the front of that page required immediate attention and is 
done immediately. And if anything was found that was identified 
as a real safety hazard, that track would have been put out of 
service or repairs done immediately.
    So I think it is a measure of a system that constantly 
needs maintenance. It is the heaviest utilized commuter 
railroad in the country, and it has significant freight over it 
each and every day. It requires this kind of inspection and 
then a regular program each and every day of going out to 
maintain.
    Senator Blumenthal. Do you receive these inspection reports 
regularly?
    Mr. Redeker. No, I do not. Metro-North collects those, 
maintains them, and Connecticut DOT, as the contractor, has 
oversight responsibilities. And we do inspect those records and 
audit them on a regular basis.
    Senator Blumenthal. How often do you inspect them?
    Mr. Redeker. We go out on a monthly basis to Metro-North 
offices and review all of their practices and all their files 
in terms of how they operate and maintain the system.
    Senator Blumenthal. And then do you check on whether the 
repairs are made?
    Mr. Redeker. We do on an audit basis. Otherwise, we leave 
that to Metro-North.
    Senator Blumenthal. And how often is the audit?
    Mr. Redeker. Again, monthly, we go down and check, and we 
will pull a few samples and see how that process worked.
    Senator Blumenthal. And do you know whether this kind of 
routine practice is in accord with what other states do?
    Mr. Redeker. I am sure it is, because the routine track 
inspection and maintenance program is a guideline from FRA, and 
that is what all railroads are following at this point.
    Senator Blumenthal. Thank you.
    I want to thank the entire panel. This has been an 
excellent morning, both panels, but particularly your panel for 
the excellent hands-on views that you have provided and the 
perspective that you have given us, and we really appreciate 
your taking the time in being with us today. Thank you very 
much.
    Mr. Hamberger. Mr. Chairman, if I might, it has been a long 
morning, and Mr. Stem and I do not always agree on every 
detail, but today is his birthday, so please join me in saying 
happy birthday.
    Senator Blumenthal. Congratulations on your 35th birthday.
    [Laughter.]
    Mr. Stem. Thank you, Mr. Chairman.
    Senator Blumenthal. And we will take all of your statements 
for the record, along with the exhibits and keep the record 
open for a week, in case you want to submit anything further.
    Thank you very much.
    [Whereupon, at 12:34 p.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Hon. Joseph C. Szabo
    Question 1. When does the FRA anticipate completing its final rules 
clarifying the requirements if a PTC failure occurs en route, and 
whether or not PTC will be required in railyards? Can you commit to 
completing those rules by the end of this calendar year? The railroads 
have said that getting those requirements clarified and finalized is 
absolutely essential as they move forward with PTC deployment.
    Answer. As of the date of this hearing, the draft of the PTC final 
rule is being finalized.. FRA understands the importance of regulatory 
certainty for the industry to properly plan for PTC implementation, and 
FRA will move the rule as quickly as possible.

    Question 2. How is the FRA working with the Federal Communications 
Commission (FCC) to ensure that spectrum challenges are resolved 
quickly so that PTC can be implemented nationwide? Also, how is the FRA 
working with the FCC to clarify the FCC's new requirements for tower 
and antenna applications?
    Answer. FRA is providing the FCC technical advice on the 
communications requirements of PTC. Ultimately, however, spectrum 
allocation is in the purview of the FCC. The FCC shares spectrum 
management responsibilities and functions with the National 
Telecommunications and Information Administration (NTIA). While the FCC 
has authority over commercial spectrum usage as well as that of local 
and State governments, NTIA manages the Federal government's use of 
spectrum for defense and other Federal purposes.
    FRA has no statutory or regulatory authority over spectrum 
allocation or availability. FRA and the FCC are working together with 
the railroad carriers and Tribal and other stakeholders in developing 
an expedited tower approval process that satisfies FCC and carrier 
requirements for compliance with National Historic Preservation Act 
(NHPA) and National Environmental Protection Act (NEPA). The FCC is 
developing a proposed Program Comment to govern review for PTC wayside 
facilities under section 106 of the NHPA. While a revised FCC process 
is likely necessary to increase the rate of processing of the volume of 
tower approval requests generated by PTC deployment, the requirement 
for NEPA and NHPA act requirements are not ``new''; the NEPA was 
enacted in 1969, and the NHPA, in 1986.

    Question 3. Your testimony stated that the FRA should be able to 
certify the Southern California Regional Rail Authority's (Metrolink's) 
PTC system later this year. Most of the passenger and freight rail 
operators in California have told me they will meet the 2015 deadline. 
Why has California been able to stay on track for meeting the deadline, 
while other regions are struggling?
    Answer. The passenger, commuter, and freight railroads in 
California have suffered from the same technical challenges experienced 
by freight railroads elsewhere in the country. Resolution of these 
issues has resulted in significant schedule slippage. With the 
exception of Metrolink and its freight partners Union Pacific Railroad 
Company (UP) and BNSF Railway Company (BNSF), the other California 
passenger and commuter railroads are still in the system-design phase 
and have not begun the system-test phase. Based on the technical 
challenges that Metrolink, UP, and BNSF have experienced, and the other 
railroads' state of progress, FRA believes it unlikely these other 
railroads will be able to fully complete system development and 
approval by the 2015 deadline. Many will, however, be able to 
accomplish partial to substantial deployment. Even Metrolink, with the 
technical support of UP and BNSF, has found it necessary to delay the 
operational start of the PTC system from 2012 to 2014.
    As previously indicated in the FRA August 2012 report to Congress, 
there is a limited pool of qualified personnel with PTC implementation 
experience. Many of these people have been diverted to support 
Metrolink and southern California PTC deployment efforts, which have 
left a shortage of qualified personnel to carry out PTC deployment in 
other locations.
    In addition to personnel shortages, there are component 
development, supply, installation, and integration/testing issues. Any 
development must include sufficient testing to make sure the systems 
work as intended. The current requirement, at a minimum, makes 
sufficient testing very difficult.
    Regarding the development of PTC components and the installation of 
PTC systems, the Government Accountability Office (GAO) has reported in 
its August 2013 PTC report that ``some PTC components are still in 
development--most notably the [PTC] back office server. One or more of 
these servers will be installed in over a dozen railroads' back offices 
and are needed to communicate vital information between the back 
office, locomotives, and waysides. According to the [Association of 
American Railroads (AAR)] and the railroads, back office system delays 
are due to system complexity, interfaces to other systems, and lack of 
supplier resources. Nearly all of the freight railroads included in our 
review anticipate they will not have a final version of the back office 
system until 2014 and have identified it as one of the significant 
factors preventing them from meeting the deadline. In addition, PTC 
installation is a time-and resource-consuming process. For example, 
railroads collectively will have to install approximately 38,000 
wayside interface units. According to AAR and freight railroads, the 
volume and complexity of installing these units is another significant 
reason most railroads cannot meet the 2015 deadline.
    As to PTC system integration and field testing, GAO has said in the 
same report that its work to date indicates that ``[s]uccessful PTC 
implementation will require numerous components to work together, many 
of which are first-generation technologies being designed and developed 
for PTC. All components must properly function when integrated or the 
PTC system could fail. To ensure successful integration, railroads must 
conduct multiple phases of testing--first in a laboratory environment, 
then in the field--before installation across the network. 
Representatives from all of the freight railroads [GAO] spoke with 
expressed concern with the reliability of PTC and emphasized the 
importance of field testing to ensure the system performs the way it is 
intended and that potential defects are identified, corrected, and re-
tested. One railroad representative [GAO] spoke with said that in some 
field tests, the PTC system components behaved differently than in the 
laboratory tests because labs do not reflect field conditions 
completely. Identifying the source of these types of problems is an 
iterative process; consequently, correcting the problems and re-testing 
can be time-consuming and potentially further contribute to railroads 
not meeting the 2015 deadline.''

    Question 4. Some passenger rail operators argue they will miss the 
2015 PTC deadline because Congress has not provided sufficient funding. 
However, as you know, Congress recently appropriated $10.6 billion for 
high speed and intercity passenger rail investments, for which PTC was 
an explicit authorized use. Several California rail operators received 
grants from this program explicitly for PTC, and plan to meet the 2015 
deadline. I understand that Railroad Rehabilitation and Improvement 
Financing (RRIF) loans can also be used for PTC. Is it true that few 
rail operators outside of California chose to apply to the HSIPR or 
RRIF programs for the purpose of implementing PTC, and instead put 
other capital investments ahead of PTC as their top priorities?
    Answer. The mandate for the High-Speed Passenger Rail Program 
(HISPR) was to help address the Nation's transportation challenges by 
making strategic investments in an efficient network of passenger rail 
corridors that connect communities across the country through a 
competitive grant process. HISPR funding was provided to several 
California railroads to install PTC in support of the California High 
Speed Rail initiative. With the exception of California, which has 
already made significant infrastructure investments, non-California 
railroads are at earlier phases of high-speed rail infrastructure 
investment. Completion of these essential track infrastructure 
improvements are a prerequisite for the installation and use of PTC in 
high-speed operations.
    Unlike grant programs, the Railroad Rehabilitation & Improvement 
Financing (RRIF) program is a direct loan and loan guarantee program. 
Direct loans may fund up to 100 percent of a railroad project with 
repayment periods of up to 35 years and interest rates equal to the 
cost of borrowing to the Federal government. The willingness of 
railroads to take advantage of the RRIF is governed in a large part by 
their ability (either actual or perceived) to make the required 
repayments.
    Finally, FRA has anecdotal evidence that some railroads have put 
``state of good repair'' projects necessary to provide passenger/
commuter service ahead of PTC projects. ``State of good repair'' 
projects correct past deferred maintenance, or replace capital assets 
that have exceeded their useful life. Failure to make the ``state of 
good repair'' repairs to existing infrastructure and equipment would 
increase the probability and gravity of a system failure, thereby 
decreasing system safety. Failure to make the ``state of good repair'' 
repairs would also necessitate reduction or termination of service, 
which could adversely impact the public, and in the latter situation 
make installation of PTC a moot point.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                          Hon. Joseph C. Szabo
    Question 1. Mr. Szabo, PTC technology holds great promise to reduce 
the number of train accidents caused by excessive speed, conflicting 
train movements, and failure to obey signals, but there are significant 
challenges in implementing these systems.
    Short line railroad companies in Minnesota, for example, have 
concerns about the implementation costs of PTC as well as their ability 
to meet the deadline. In fact, in the FRA report to Congress on the 
status of PTC deployment, FRA reported that ``Given the current state 
of development and availability of the required hardware and software, 
along with deployment considerations, most railroads will likely not be 
able to complete full . . . implementation of PTC by Dec. 31, 2015,'' 
adding that only partial deployment could be accomplished by the 
deadline.
    Has there been any consideration given to providing funding for 
Class II and III railroads that are significantly impacted by the 
initial capital and ongoing maintenance and software upgrade costs 
associated with PTC in order to help them meet the deadline? Has there 
been any consideration given to re-visit the requirements necessary for 
Class II and III railroads that operate on Class I PTC equipped tracks?
    Answer. FRA first notes that the PTC mandate does not apply to 
Class II and Class III railroads directly, but a small number of Class 
II and Class III railroads are required to install PTC where they 
interoperate with Class I railroads. FRA has already provided several 
regulatory exceptions for small railroads that allow them to avoid the 
installation of PTC in situations where they operate over a Class I 
railroad's track (see 49 C.F.R. 236.1006(b)(4) and 49 C.F.R. 
236.1019(a)) during the initial PTC roll-out period.
    However, FRA also recognizes that there may be circumstances in 
previously-executed private agreements under which Class I railroads 
would be entitled to require the Class II or Class III railroad to use 
a controlling locomotive equipped with PTC as a condition of operating. 
FRA believes that the proposed exceptions, when issued, will provide 
Class II and Class III railroads an appropriate exemption from PTC 
installation consistent with tenant-host commercial agreements and the 
statutory PTC mandate. If Congress were to amend the PTC mandate, FRA 
would re-visit the exceptions available to Class II and Class III 
railroads to be consistent with the revised mandate.
    Further, FRA has in the past implemented grant funding programs to 
support installation of PTC, for which Class II and Class II railroads 
would be eligible. However, Congress did not appropriate that funding 
beyond one year. Finally, Class II and Class III railroads are also 
eligible to apply for Railroad Rehabilitation and Improvement Financing 
(RRIF) loans to fund PTC projects.

    Question 2. Mr. Szabo, according to the Department of 
Transportation there are more than 250,000 highway-rail grade crossings 
in the U.S. Although the highway safety picture has improved 
considerably over the last decade, 300-400 people are killed every year 
and more than 1,100 are injured at grade crossings. According to the 
rail safety group Operation Lifesaver, eight people were killed at rail 
grade crossings in Minnesota in 2012. As you're aware, the safety at 
rural crossings remains a significant problem. What is the Federal 
Railroad Administration doing to advance alternative lower cost grade 
crossing safety technology for better protection at the thousands of 
rural crossings across the country? Federal funding for the United 
States Department of Transportation Railway-Highway Crossings Program 
is $220 million per year. Is this funding level sufficient in your 
view?
    Answer. In recent years, highway-rail grade crossing accidents have 
resulted in the second-largest number of rail-related deaths in the 
United States, 33 percent of the total. Yet grade crossing safety has 
shown vast improvement, as a result of substantial public investment in 
crossing warning devices and greater public awareness of the risks at 
grade crossings. Accordingly, the number of grade crossing accident 
deaths has declined by 30 percent over the last decade. FRA is fully 
committed to reducing the number, frequency, and severity of collisions 
at highway-rail grade crossings.
    Currently, there are 212,212 at-grade highway-rail grade crossings 
and dedicated pathway-rail grade crossings, which include public, 
private, and pathway (pedestrian) crossings. Approximately 55 percent 
of public crossings are equipped with automatic warning devices. Many 
of the public crossings that do not have automatic warning devices are 
in rural areas where highway traffic volumes are low. FRA currently is 
studying the use of warning signs that are enhanced by the use of 
flashing LEDs, which make the signs more noticeable to an approaching 
motorist. FRA is a participant in the Department's Connected Vehicle 
research initiative. With additional research, Connected Vehicle 
technology, coupled with PTC, may serve as a potential future low-cost 
warning system for highway-rail grade crossings.
    When engineering and construction solutions are necessary to 
improve safety, communities can incur costs. This is why FRA's Fiscal 
Year 2014 budget proposal includes funding for mitigating community 
impacts, including safety enhancements.
    The Railway-Highway Grade Crossing Program (section 130 of title 23 
of the United States Code), which is administered by the Federal 
Highway Administration (FHWA) has proved to be effective in the 
reduction of highway-rail grade crossing collisions and related 
fatalities. FRA strongly supports the continuation of the program. 
Additional funding would enable states to treat additional crossings, 
many of which may be in rural areas.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                       Hon. Deborah A.P. Hersman
    Question 1. Some rail operators have suggested that PTC would only 
be able to prevent a small fraction of train accidents. How would you 
respond to that?
    Answer. The vast majority or railroad accidents are minor in nature 
and, thankfully, do not result in fatalities or significant injuries. 
The accidents which the National Transportation Safety Board (NTSB) has 
investigated involve significant damage, including fatalities and 
injuries.
    Despite more reliable equipment and increased redundancies within 
the operating environment, NTSB investigations continue to reveal human 
factors that contribute to accidents. The two largest causes of 
accidents in recent years include human-factor and derailments due to 
track problems. Operational accidents, or those classified as human-
factor related, can be prevented with technology, notably positive 
train control (PTC).
    Further, PTC preventable human-factor caused accidents can have 
catastrophic consequences. For example, train passenger deaths as 
occurred in the 1997 Silver Spring, Maryland, and the 2008 Chatsworth, 
California collisions, or significant releases of hazardous materials 
that affect communities and result in exposure fatalities that occurred 
in the 2004 Macdona, Texas and the 2005 Graniteville, South Carolina 
accidents can be prevented by PTC. While small in number, these 
catastrophic accidents are the ones we want to prevent.

    Question 2. When did the NTSB first propose that PTC systems be 
implemented, and when did this issue make it onto the NTSB's ``Most 
Wanted List''? How long after that did it take for the FRA and rail 
operators to begin making a significant effort to implement PTC?
    Answer. The NTSB first recommended an advanced train control 
system, a PTC predecessor, in 1970. This recommendation was addressed 
to the Federal Railroad Administration (FRA) and recommended:

        If it receives additional statutory authority under legislation 
        now in progress, study the feasibility of requiring a form of 
        automatic train control at points where passenger trains are 
        required to meet other trains. (R-70-20)

        The NTSB's original ``Most Wanted'' list (MWL) of 
        Transportation Safety Improvements was adopted in September 
        1990. Positive Train Separation was on the original MWL. (The 
        NTSB changed ``Positive Train Separation'' to ``Positive Train 
        Control Systems'' in May 2001.)

    Congressional funding for joint FRA-industry pilot programs 
addressing PTC development started in the early 1990s. In 1997, the 
FRA's Railroad Safety Advisory Committee (RSAC), which advises FRA on 
many of its rulemakings, established a working group, which included 
representatives of the railroad industry, to address PTC. The group was 
tasked to address the Federal regulations and their applicability to 
new train control systems under development and to draft new 
regulations as necessary. The FRA published a final rule in, 
``Standards for Development and Use of Processor-Based Signal and Train 
Control Systems,'' which was effective on June 6, 2005. This rule 
established performance-based standards for processor-based signal and 
train control systems but did not require implementation.
    Most railroads, however, did not make a significant effort to 
implement PTC until Congress passed the Rail Safety Improvement Act 
(RSIA) of 2008, following the 2008 Chatsworth, California collision 
that claimed 25 lives. Some railroads were independently developing PTC 
systems but had not agreed on one design standard to allow 
interoperability. Interoperability is critical in allowing trains to 
operate over tracks owned by various entities, particularly in the case 
of passenger trains that operate on multiple railroads under trackage 
rights agreements.
    Following the enactment of RSIA, the NTSB closed the following 
recommendation and removed PTC from the MWL.
    Facilitate actions necessary for development and implementation of 
positive train control systems that include collision avoidance, and 
require implementation of positive train control systems on main line 
tracks, establishing priority requirements for high-risk corridors, 
such as those where commuter and intercity passenger railroads operate. 
(R-01-6)
    In 2012, the NTSB adopted a new MWL which included PTC in large 
part because it appeared that implementation plans were stalled in the 
railroad industry.
    There has been great resistance from some in the railroad community 
to implement PTC, but there is no greater hazard than two trains 
colliding. The loss of life, property, and the environment can be 
significant.

    Question 3. The NTSB hosted a forum on PTC in February. What did 
you learn about rail operators' progress in implementing PTC? Does it 
appear most rail operators have done everything possible within their 
powers to meet the 2015 deadline?
    Answer. The NTSB acknowledged during its PTC forum that there are 
significant hurdles towards meeting the December 31, 2015, deadline in 
RSIA to implement PTC. In particular, many commuter agencies do not 
have the available capital needed to maintain their systems nor upgrade 
them. A number of presenters at the forum addressed a variety of 
regulatory, technical, budgetary, and legal hurdles to implementing 
PTC. However, the NTSB also heard from other presenters who described 
various success stories where carriers implementing PTC systems have 
already received approvals and certifications from the FRA.
    The NTSB learned there are some railroads that have already met, 
and others that plan to meet, the 2015 deadline. Railroads that have 
made the difficult decisions and invested millions of dollars should be 
commended for their leadership in promoting rail safety. For those 
railroads that will not meet the 2015 deadline, for whatever reason, 
there needs to be transparency and accountability to comply with the 
PTC mandate that was set by Congress.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          Edward R. Hamberger
    Question 1. The Interoperable Train Control Committee is developing 
key standards for software and hardware that will allow different rail 
operators' PTC systems to be fully interoperable. Standards for some 
key features are months behind schedule, hindering the pace of the 
entire industry. What is the status of the remaining standards the 
Committee is working to develop?
    Answer. There are a total of 52 Railway Electronic Standards 
related to PTC. Of these, 42 standards have been developed and released 
for industry use. All of the remaining standards are in development and 
are being progressed. The members of the Interoperable Train Control 
Committee and its various subcommittees are working aggressively to 
address the remaining standards. The goal is for these standards to be 
published this year.

    Question 2. What pressure can be brought to bear on key software 
and hardware vendors to speed up their process of delivering the 
necessary components of PTC? I understand that they are behind 
schedule. As their customers, how does the rail industry intend to help 
resolve these delays?
    Answer. The biggest problem has been the development of the back 
office server software which is a year late. This software enables 
communications between the various railroad dispatch centers and all 
locomotives in operation. In other words, this is the key to 
interoperability. That software was released for field testing on July 
15 which will likely last well into 2014.
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                             Kathryn Waters
    Question 1. Administrator Szabo of the FRA testified that the 
leading cause of train accidents is human factors (38 percent). Since 
PTC is largely designed to prevent accidents caused by human error, 
does APTA believe investing in PTC be a high budgetary priority for 
passenger rail operators?
    Answer. As a statutory mandate, PTC is already a high budgetary 
priority for our members. However, it should be noted that PTC does not 
prevent all human factors accidents, nor can railroads ignore attending 
to, and the funding of, necessary activities to reduce the risks 
associated with the other 62 percent of train accidents.
    In 2010, the FTA released a report stating that the current backlog 
of state of good repair projects on our Nation's transit assets totaled 
nearly $80 billion. This number does not include the over $2.75 billion 
necessary to implement PTC on commuter railroads, nor the millions 
needed to purchase or lease radio spectrum for interoperability. 
Despite the tremendous cost, Congress has appropriated only $50 million 
to assist publicly funded commuter railroads with implementing Positive 
Train Control.

    Question 2. I understand that there are two major technological 
platforms in use as rail operators implement PTC throughout the nation, 
but some passenger rail operators are considering using other 
alternatives. How would those technologies be interoperable with rail 
lines using the existing technological platforms? Can you assure me 
that the alternative technologies would provide an equivalent level of 
safety?
    Answer. In addition to the Advanced Civil Speed Enforcement System 
(ACSES) and the Interoperable Electronic Train Management System (I-
ETMS), the FRA has already approved the Port Authority Trans Hudson 
(PATH) commuter railroad in New York/New Jersey to install 
Communications Based Train Control (CBTC). CBTC is a system more 
aligned with and in use in some metro/subway operations, with 
protections similar to PTC. It is not interoperable with either ACSES 
or I-ETMS. FRA has also approved Incremental Train Control System 
(ITCS) for use in the Amtrak High Speed PTC systems in Michigan from 
Chicago to Dearborn, and the Communications Based Overlay Signal System 
(CBOSS), a mix of ITCS and I-ETMS, under development by Caltrain in 
California.
    Similarly, if any alternative technologies are approved for use, 
ALL trains that operate on that system or line segment must be able to 
communicate with that technology. For example, a train equipped with I-
ETMS will not be interoperable with the ACSES system installed on the 
Northeast corridor, unless that train is additionally equipped with 
ACSES or the waysides are equipped with the capacity to transmit both 
ACSES and I-ETMS messages; a commuter railroad operating in California 
that does not operate on the Northeast Corridor will not be equipped 
with ASCES, and therefore will not be interoperable with that system, 
but it will be interoperable with all the trains that operate on its 
lines in California.
    As we stated in our testimony, not all railroads operate in the 
same environments or face the same risks and hazards, and yet the PTC 
statute requires that some install a PTC technology to protect against 
risks that may not be present on that railroad. For example, on low 
risk line segments with light traffic density, slower speeds, and/or 
reduced comingling of freight and passenger traffic, alternative 
technologies may provide sufficient mitigation. APTA supports the FRA's 
recommendation for possible approval of alternative technologies that 
are equivalent in protection based on the actual level of risk and 
exposure, as evaluated by the FRA on a line segment by line segment 
basis, and not a blanket or unilateral approval of any technology on an 
entire line or railroad.

    Question 3. Given the very long lead time to developing a 
certifiable PTC system, any alternative PTC technologies should be well 
defined and developed by now. What specific types of alternative 
technologies do your members intend to use in lieu of existing PTC 
platforms?
    Answer. As stated in our testimony, all APTA member commuter 
railroads are moving forward diligently to prepare for PTC 
implementation, as that is the current requirement.
    The PTC Interoperable Train Control Committee (ITC), which is 
composed of many members of the freight railroad community, has drafted 
numerous standards covering Positive Train Control systems, subsystems 
and interfaces. (Passenger railroads are not voting members of the ITC 
and are therefore dependent upon the ITC to include passenger 
standards.) The expectation is that it will now be possible for systems 
integrators and manufacturers to produce new systems which will 
interface with I-ETMS and be compatible with the requirements of the 
PTC rule, thus reducing the lead time going forward.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Hon. Joseph C. Szabo
    Question 1. In her written testimony, Ms. Fleming of GAO wrote that 
``FBA's PTC staff consists of 10 PTC specialists and one supervisor who 
are responsible for the review and approval of all PTC system 
certification documentation for 38 railroads. FRA has expressed concern 
that railroads will submit their safety plans to FRA at roughly the 
same time. Our initial analysis suggests that this timing creates the 
potential that FBA's review of these plans will consist of hundreds, 
perhaps thousands, of pages of detailed technical information.'' How do 
you assess this statement by GAO? Is there a potential for a backlog of 
PTC applications?
    Answer. The GAO assessment of the situation is accurate and only 
adds to the myriad issues with the PTC statutory requirement, the most 
notable of which is its billions of dollars in regulatory costs over 
and above its quantified safety benefits. For this issue, in order to 
help mitigate the potential backlog in PTC applications, FRA plans to 
augment the dedicated PTC staff with support from senior technical 
staff. The additional staff consists of a Senior Scientist/Technical 
Advisor, a Program Manager for Advanced Technologies, a Senior 
Electronics Engineer, and two Electronics Engineers. Even with the 
augmented staff, there remains a potential for application backlogs, 
and the addition of these staff members to the review process may cause 
them to be diverted from their primary assignments.
    Indications are that FRA will receive the majority of the safety 
technical documentation for review simultaneously in the period just 
before the December 31, 2015, deadline.
    Let me emphasize that until railroads complete PTC system design, 
development, integration, and testing, they will have insufficient data 
to finish the required safety documentation to be sent to FRA. Let me 
also emphasize that railroads' completion of PTC system design, 
development, integration, and testing requires prior resolution of 
many, if not all of the technical and programmatic issues identified 
both in the FRA August 2012 report to Congress entitled ``Positive 
Train Control Implementation Status, Issues, and Impacts'' (http://
www.fra.dot.gov/eLib/details/L03718) as well as in GAO's June 2013 
report (http://www.gao.gov/assets/660/655298.pdf).
    As you know, FRA's report listed the following seven types of 
technical obstacles to complete PTC implementation that had been 
identified so far: lack of necessary radio frequency spectrum; lack of 
necessary radios; lack of necessary design specifications; lack of 
necessary back office servers (which contain the mechanism that enables 
interoperability of PTC systems between different railroads) and lack 
of necessary dispatch systems; need for verification of track databases 
with accuracy more precise than that needed in a non-PTC environment; 
need for engineering related to the installation of PTC system 
components; and need for proof of the reliability and availability of 
installed PTC systems in order both to provide the desired level of 
safety and to minimize any adverse impact on the railroad's operations. 
In addition, FRA's report noted two types of programmatic issues: 
issues related to budgeting and contracting (e.g., the tightening of 
public-sector budgets and the need to comply with procurement 
regulations) and issues related to an insufficient supply of qualified 
personnel and essential PTC system components, since railroads subject 
to the PTC mandate are all competing for a limited set of these 
resources.
    In the same vein, the GAO report cited ``the numerous, interrelated 
challenges caused by the breadth and complexity of PTC.'' First, GAO 
highlighted that some key PTC components are still in development and 
that the installation of PTC components ``is a time-and resource-
consuming process.'' Regarding the installation phase of PTC 
implementation, GAO gave the example of the Federal Communications 
Commission's request that railroads halt their construction of PTC-
related antennas ``to ensure proper installation procedures were being 
followed including consulting with either the tribal or state 
historical authorities prior to. . .installation.'' Second, GAO pointed 
to the need for system integration and field testing of PTC components, 
``many of which are first-generation technologies being designed and 
developed.'' Third, GAO underscored its concern about FRA resources, a 
point I will return to now.
    The additional time required to solve all of these technical and 
programmatic obstacles to PTC implementation, coupled with the 
statutory completion date of December 31, 2015, results in significant 
schedule compression, with a subsequent reduction in the time available 
for FRA personnel to complete the necessary certification review and 
approval of railroads' safety documentation submissions before the 
existing 2015 statutory deadline.
    While there may be some commonality in safety documentation 
submissions because of the use of similar technology that may 
facilitate the review process, each of the railroads is unique, which 
will require separate review of their individual applications. These 
two factors (schedule compression and railroad uniqueness) aggravate 
FRA's staffing limitations.
    Further, the number of railroad applications requiring FRA review 
and approval has been reduced from 38 to 37. FRA, in conjunction with 
the 38th railroad, was able to qualify the railroad for a regulatory 
exemption from PTC installation. FRA is, however, beginning discussions 
with a number of ``new start'' railroads on their requirements for PTC 
installation that may lead to an increase in the number of railroad 
applications requiring FRA approval above the 37 applications currently 
identified, which would worsen the FRA staffing issue. FRA's FY 2014 
budget proposal includes funding levels that would be sufficient for 
implementing the agency's complete safety program, including work 
associated with PTC implementation.

    Question 2. How would your assessment change if Congress decides to 
provide a PTC extension that requires FRA approval on a case by case 
basis and these requests for questions are presented at roughly the 
same time as the safety plans?
    Answer. In general, FRA believes a PTC extension, especially 
coupled with the allowance of alternative technologies that enhance 
safety in a more cost-effective way, has the potential to generate 
significant quantifiable regulatory cost savings. As FRA's 2009 
regulatory impact analysis showed,\1\ and several subsequent reports 
have confirmed, PTC is expected to have about $10 billion in net costs 
over 20 years (costs over and above the quantified safety benefits). 
FRA expects the costs to be about 20 times greater than the benefits. 
Not only would a PTC extension, together with permitting alternative 
technologies that improve safety more cost-effectively, change our 
assessment of the GAO's findings on our possible staffing issues, it 
would generate net benefits to society as a whole compared to current 
law, though quantification of these benefits would depend on the 
industry providing relevant cost-benefit information.
---------------------------------------------------------------------------
    \1\ For this analysis, please see: http://www.regulations.gov/
#!documentDetail;D=FRA-2008-0132-0060.
---------------------------------------------------------------------------
    To the extent that railroads have differing completion dates, an 
extension of the completion date mandated by the Rail Safety 
Improvement Act of 2008 (RSIA) would reduce the number of applications 
requiring concurrent review by FRA. The enactment of legislation 
providing for extension of the PTC implementation deadline would have 
the effect of mitigating backlogs, but the scope of the review process 
would not change. FRA believes that obtaining the authority to approve 
the use of proven, mature, traditional signal and train control systems 
on low-risk lines in lieu of PTC would accelerate PTC-deployment 
efforts in a way that would greatly enhance railroad safety at lower 
costs. Existing technologies, such as Automatic Train Stop and 
Automatic Train Control, have over 90 years of safe, successful 
operation and are not relatively high-risk, software-centric 
development efforts such as PTC.
    If the RSIA were amended so as to provide the Secretary with 
authority to permit an extension in an individual case, FRA would not 
expect that a railroad would submit a request for such an extension 
concurrently with its PTC Safety Plan. The review process for such an 
extension would be addressed separately.

    Question 3. Of the 38 railroads that will need to submit 
certification documents, how many applications do you think will be 
approved in enough time to have their PTC system implemented by 
December 31, 2015? What percentage of required PTC equipped rail lines 
will this represent?
    Answer. FRA has requested that railroads resubmit their PTC 
Implementation Plans, modifying them to reflect their anticipated 
completion dates based on known technical and programmatic issues. The 
resubmitted plans are to reflect their ``best case'' estimates for 
completion, irrespective of the current RSIA deadline. Revision of PTC-
deployment schedules to reflect the impact of programmatic and 
technical issues, if permitted by Congress, would reduce schedule and 
cost pressures arising from the December 31, 2015 completion date. Once 
FRA has received and reviewed these plans, FRA will be able to better 
estimate what percentage will be complete by the December 31, 2015, 
deadline. Of course, the current statutory deadline is extremely 
difficult and expensive for many railroads to meet.

    Question 4. Understanding that not all railroads will implement PTC 
by the mandated deadline, what options would FRA have? Will these 
railroads be able to continue to operate?
    Answer. If the existing statutory deadline remains in place, FRA 
would continue its work with stakeholders to ensure PTC is implemented 
as efficiently, reliably, and safely as possible. However, even with 
efficient and reliable work from FRA, the agency continues to emphasize 
that PTC would impose billions of dollars in costs over and above the 
quantified safety benefits. It is worth noting that the 2009, 
``expected case'' cost-benefit ratio of 22 to 1 was calculated before 
FRA and the GAO identified the significant implementation challenges 
associated with PTC, and it is reasonable to assume that certain costs 
have increased as a result of these challenges.
    While taking note of the overall implementation issues, the agency 
has considerable discretion to decide whether to take enforcement 
action. FRA has numerous options available if enforcement action is 
appropriate including civil monetary penalties, emergency orders, and 
individual liability actions. However the effectiveness of these 
actions is greatly reduced because of the significant costs associated 
with PTC deployment. Railroads, especially passenger railroads, are 
already facing significant financial shortfalls that are delaying their 
resolution of the known technical and programmatic PTC-deployment 
issues. Enforcement actions based on an inability to complete 
deployment by December 31, 2015 would only further delay railroads' 
completion of PTC by requiring their reprogramming funds to address FRA 
enforcement actions, away from PTC deployment efforts.
    Although PTC implementation may not be complete, railroads must 
retain their current methods of operation and levels of safety. In 
calendar year 2012, the train accident rate for all accidents for all 
causes was only 2.34 per million train-miles. This represents over a 
40-percent decrease in train accidents since 2003. Also, in recent 
years FRA has implemented a number of new regulations to reduce some of 
the human-factor causes of accidents that PTC is intended to prevent. 
For example, FBA's 2011 final rule governing the hours of service of 
passenger train crews, which draws on detailed, scientific research 
into the cause of train operator fatigue, should help improve the 
alertness of engineers and conductors operating passenger trains. 
Similarly, another FRA final rule issued the same year sets minimum 
safety standards for the eligibility, training, testing, certification, 
and monitoring of train conductors, which should improve the safety 
performance of train conductors on both passenger and freight trains.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                       Hon. Deborah A.P. Hersman
    Question. It is likely that certain railroads will be able to 
implement PTC by the December 31, 2015, deadline while others will not. 
Is there any danger to this ``piecemeal'' approach? Can all of PTC's 
safety potential be met?
    Answer. The full benefits of a PTC system will be realized when 
railroads operate their trains equipped with PTC enforcement on tracks 
in PTC territory. During implementation, non-equipped trains operating 
on PTC territories will still pose a risk, since non-equipped trains 
will still be susceptible to the single-point failure that the human 
factors present (dispatcher, train crew, or roadway worker). Once PTC 
is fully implemented, there will still be provisions in the regulations 
to operate non-equipped trains on PTC territories to accommodate 
enroute failures, very similar to how trains operating in cab signal 
territory are accommodated presently.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                       Hon. Deborah A.P. Hersman
    Question 1. Chairman Hersman, I believe that we should possibly be 
expecting a rule on the use of PTC in rail yards. Do you believe the 
use of PTC in rail yards, where the speed is usually less than five 
miles per hour, is a good use of the technology?
    Answer. Train movements within rail yards can involve the transfer, 
shuttle or switching of rail cars that are done without using the air 
brake system on the section of cars involved in the movement. These 
types of movements diminish the effectiveness of any PTC system since 
PTC calculates braking distance using train consist information and 
relies on adequate braking from every car instead of just locomotive 
braking. In addition, train movements in yard limits have limited speed 
(not to exceed 20 mph) and sight requirements. Current PTC technology 
does not enforce train separation for train movements below 20 mph.
    A proposal has been made to the FRA that yard limits be defined as 
20 miles in all directions on the main track from yards, allowing 
trains to operate non-equipped trains on the main track for a 20 mile 
radius in conflict with equipped trains. If this proposal is agreed 
upon by the FRA, non-equipped trains will pose a risk within this 40 
mile distance and be susceptible to the single-point failure that human 
factors present.

    Question 2. Chairman Hersman, you noted that in-cab recording 
devices could be used to ``better understand crew activities leading up 
to serious accidents.'' Do any rail companies currently use these 
devices? Do you know what the cost is for the device, and for 
implementation? It seems like a commonsense recommendation, I'm 
wondering why there would be hesitancy on installing these devices?
    Answer. Some railroads currently use this equipment. Following the 
2008 fatal collision in Chatsworth, CA, the Southern California Rail 
Authority (Metrolink) installed inward facing cameras in cabs. BNSF has 
installed video cameras in motor vehicles (highway vehicles) to enhance 
safe operations and has plans to install this equipment on hi-rail 
vehicles.
    On July 25, 2013, a U.S. District Court issued a ruling that 
allowed the Kansas City Southern (KCS) Railway to install inward facing 
cameras in the cabs of its locomotives (Kansas City Southern Railway 
Co. v. Brotherhood of Locomotive Engineers & Trainmen, et al.). The 
ruling declared that any disputes between the unions and the railroad 
would be considered as a ``minor dispute'' under the Railway Labor Act 
and subject to be resolved through binding arbitration. This ruling may 
pave the way for other railroads to move forward with the installation 
of inward facing cameras.
    The NTSB does not have information on the cost of installing this 
equipment, but we can provide contact information for Metrolink, KCS, 
and BNSF to discuss their costs.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Susan A. Fleming
    Question 1. I understand that GAO is in the process of conducting a 
study examining the challenges railroads face in fully implementing PTC 
by the December 31, 2015, deadline. What are some of these challenges?
    Answer. Challenges to meeting the 2015 deadline are complex and 
interrelated. In addition, PTC installation is a time-and resource-
consuming process and to-date railroads have encountered some 
unexpected delays while installing PTC. There are three key challenges 
including:

  <bullet> Developing system components and PTC installation: Many of 
        the PTC components had not been developed before RSIA was 
        enacted and some continue to be in various stages of 
        development, most notably the I-ETMS back office server. Nearly 
        all of the freight railroads included in our review anticipate 
        they will not have a final version of the back office system 
        until 2014 and have identified it as one of the critical 
        factors preventing them from meeting the deadline.

  <bullet> System integration and field testing: In order to ensure 
        successful integration of PTC components, many of which are 
        first generations components, railroads must conduct multiple 
        phases of testing before being installed across the network. 
        Representatives from most of the freight railroads we spoke 
        with expressed concern with the reliability of PTC and 
        emphasized the importance of field testing to ensure that the 
        system performs the way it is intended. Field testing is an 
        iterative process; consequently, correcting the problems and 
        re-testing can be time-consuming and potentially further 
        contribute to railroads not meeting the 2015 deadline.

  <bullet> FRA resources: Concerns with FRA's limited staffing 
        resources and the agency's ability to help facilitate 
        railroads' implementation of PTC are focused on two of FRA's 
        responsibilities: PTC field testing and PTC system 
        certification. First, FRA has reported that it lacks the 
        staffing resources to embed a dedicated FRA inspector at each 
        railroad and has taken an audit approach to field testing, 
        whereby railroads submit field test results for approval as 
        part of their safety plans. Second, FRA set no specific 
        deadline for railroads to submit the safety plans for system 
        certification and according to FRA; to-date only one railroad 
        has submitted a final plan, which FRA has approved. FRA and 
        railroads have expressed concern that railroads will submit 
        their final safety plans to FRA at approximately the same time, 
        resulting in a review backlog particularly since each plan is 
        expected to consist of hundreds, perhaps thousands, of pages of 
        detailed technical information.

    Finally, generally commuter railroads face these same PTC 
implementation challenges, as well as other challenges including an 
overall lack of funding available to make investments in commuter rail 
and challenges related to difficulties in acquiring spectrum in the 220 
MHz band, which is required to operate the data radios that communicate 
information between PTC components.

    Question 2. What obstacles does FRA face in approving applications 
for PTC systems in a timely manner? In your written testimony you noted 
that FRA has only 10 PTC specialists and a PTC supervisor. Is this 
staffing level adequate to approve plans in time to meet the December 
31, 2015, deadline?
    Answer. Both FRA and railroads voiced concerns that FRA's staffing 
level is not adequate to approve plans in time to meet the December 31, 
2015 deadline. However, FRA officials told us that they are dedicated 
to the timely approval of safety plans and that their oversight will 
not impede railroads from meeting the deadline. In an effort to help 
facilitate the safety plan review, some railroads told us they have 
submitted draft portions of their safety plans to FRA for preliminary 
review to expedite the process. This way FRA staff will be familiar 
with portions of the plan that are common across plans before the 
finalized plan is submitted. In addition, FRA has asked for additional 
authority for deadline extensions on a case-by-case basis and 
provisional certification which may also provide an opportunity to 
manage limited resources.

    Question 2a. Assuming it is adequate, if Congress provided a case 
by case PTC extension, would the FRA be able to handle this additional 
workload?
    Answer. Flexibility in extending the deadline may help FRA better 
manage limited resources by, for example, preventing a potential review 
backlog resulting from final safety plans being submitted at the same 
time--a concern raised by both the freight railroads and FRA. In 
addition, we found railroads at various stages in their implementation 
process; providing flexibility in extending the deadline for certain 
railroads acknowledges these differences and also may help railroads 
mitigate risks and ensure PTC is implemented in a safe and reliable 
manner.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Edward R. Hamberger
    Question 1. How much money has the freight rail industry spent to 
date to implement PTC?
    Answer. To date, railroads have collectively spent approximately $3 
billion of their own funds on PTC development and deployment.

    Question 2. How much more do you estimate will be needed?
    Answer. Currently, the estimated total cost to freight railroads 
for PTC development and deployment is around $8 billion, with hundreds 
of millions of additional dollars needed each year after that to 
maintain the system.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                          Edward R. Hamberger
    Question. Since the implementation of PTC was mandated by the 
Federal government, I am wondering if you could give me some insight on 
other safety measures you all have considered, but have been unable to 
move ahead with due to challenges with PTC implementation. What are 
your other safety priorities, apart from PTC, and why?
    Answer. PTC-preventable accidents account for only 4 percent of 
mainline accidents. In contrast, track-caused accidents account for 35 
percent of mainline accidents and equipment-caused accidents account 
for 21 percent of mainline accidents. It is no surprise that the 
industry devotes significant resources to addressing these primary 
causes of accidents. In fact, the industry is investing more than ever 
before in its infrastructure and equipment, including a record $25.5 
billion in 2012.
    In addition, the industry continues to invest in research to 
improve its performance. AAR operates the leading rail research 
facility in the world, the Transportation Technology Center, Inc., in 
Pueblo Colorado. As mentioned in AAR's testimony, TTCI has undertaken 
extensive research in the track area, including evaluating steel with 
potentially improved fatigue resistance, improved track fastener 
systems, and better inspection technologies. On the equipment side, 
TTCI is investigating improved suspensions, better wheel metallurgy, 
and trackside detectors that can detect rail car defects. AAR's written 
testimony contains more information on these and other important 
initiatives.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                             Kathryn Waters
    Question. How much money have commuter railroads spent to date to 
implement PTC? How much more do you estimate will be needed?
    Answer. Commuter Railroads have informed APTA that, to date, they 
have spent approximately $458.5 million and they currently estimate 
that their costs to implement PTC will exceed $2.75 billion (2 commuter 
rail agencies did not respond to our inquiry). The latter estimate is 
already in excess of the $2 billion estimate that APTA had previously 
stated. Given the remaining unknown aspects of this implementation, 
that cost estimate could continue to change.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                             Kathryn Waters
    Question. Ms. Waters, you note in your testimony that the FCC has 
not responded to your requests to make available spectrum for PTC 
implementation.

    Question 1a. How much spectrum would be necessary, in your 
estimate, to meet the needs of PTC systems?
    Answer. Spectrum Requirements: Commuter rail spectrum needs are 
localized to their operational corridors and the amount required is 
specific to each Economic Area (EA). While it is not appropriate to 
aggregate the national total of local needs, we are seeking individual 
blocks in the local EAs. Original industry needs were specified for 
each commuter rail operation in a study conducted for APTA and the 
Federal Transit Administration, with funding provided through the 
Transit Cooperative Research Program (TCRP) Project J-6, Quick Response 
for Special Needs. The TCRP is sponsored by the Federal Transit 
Administration; directed by the Transit Development Corporation, the 
education and research arm of the American Public Transportation 
Association; and administered by The National Academies, through the 
Transportation Research Board. We are providing the Committee with a 
copy of the TCRP J-6 Report (see Appendix A--Spectrum Estimate 
Details). Also, in response to the inquiry of the Committee, we asked 
our member agencies whether they had new estimates that differed from 
the TCRP report estimates. Also attached with this response is a table 
reflecting the known differences from the report's estimates.

    Question 1b. Is it possible to utilize spectrum sharing for these 
purposes?
    Answer. Spectrum sharing: In some cases, commuter rail agencies are 
currently planning to share spectrum with freight rail hosts or Amtrak, 
or to piggyback on their procurement of the required spectrum. However, 
in some cases, commuter rail agencies simply do not yet have sufficient 
information regarding the decisions that may be made by the freight 
rail carriers. The findings of the TCRP report indicated that ``the 
freight railroads have acquired various nationwide and regional 
channels in the 220 band (via an organization called PTC-220 LLC) for 
PTC use along their freight rail lines, however they have also 
indicated sharing of these frequencies is possible in shared freight/
passenger service rail corridors.''
    [Attachment to Ms. Waters' responses.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            James P. Redeker
    Question. At the hearing you mentioned that implementing PTC will 
cost the State of Connecticut $130 million, and will prevent you from 
performing other needed rail repairs. How can diverting funds to PTC 
implementation have a negative effect on commuter rail safety? Are 
there specific projects you have had to delay or cancel?
    Answer. First and foremost, rail safety projects are a top priority 
for the Connecticut Department of Transportation and are treated as 
such in the development of the Department's Five Year Capital Program.
    The Program for the Office of Rail also includes numerous unfunded 
state-of-good-repair, modernization and capacity improvement projects, 
including:

        Fixed and movable bridge replacement on the New Haven Line

        Signal system replacement on the New Haven Line (last two 
        phases)

        New Haven-Hartford-Springfield corridor improvements

        Rail Station parking improvements and expansions

        High level platform rehabilitation

        Customer service initiatives

    The Department manages all of these systems to maintain safe 
operations, however, there may eventually be reliability and/or 
capacity issues that arise.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
